<html>
<title> - THE EVOLVING NATIONAL STRATEGY FOR VICTORY IN IRAQ</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
           THE EVOLVING NATIONAL STRATEGY FOR VICTORY IN IRAQ

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  EMERGING THREATS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 11, 2006

                               __________

                           Serial No. 109-228

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
34-545                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
BRIAN P. BILBRAY, California

                      David Marin, Staff Director
                Lawrence Halloran, Deputy Staff Director
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

Subcommittee on National Security, Emerging Threats, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
KENNY MARCHANT, Texas                DENNIS J. KUCINICH, Ohio
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         BERNARD SANDERS, Vermont
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           CHRIS VAN HOLLEN, Maryland
TODD RUSSELL PLATTS, Pennsylvania    LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. DUTCH RUPPERSBERGER, Maryland
MICHAEL R. TURNER, Ohio              STEPHEN F. LYNCH, Massachusetts
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                  R. Nicholas Palarino, Staff Director
                        Robert A. Briggs, Clerk
              Anrew Su, Minority Professional Staff Member


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 11, 2006....................................     1
Statement of:
    Jeffrey, Ambassador James, Senior Advisor on Iraq to the 
      Secretary of State and Principal Deputy Assistant Secretary 
      of State for the Middle East, Department of State; Mary 
      Beth Long, Representative, Department of Defense; and 
      Brigadier General Michael Jones, Deputy Director for 
      Political Military Affairs, Joint Chiefs of Staff..........    74
        Jeffrey, James...........................................    74
        Jones, Michael...........................................    82
        Long, Mary Beth..........................................    81
    Pollack, Kenneth, director of Middle Eastern policy, 
      Brookings Institution; Laith Kubba, senior director for 
      Middle East and North Africa, National Endowment for 
      Democracy; Anthony Cordesman, Admiral Arleigh Burke Chair 
      in strategy, Center for Strategic and International Affairs 
      [CSIS]; and Dr. Kenneth Katzman, Specialist in Middle East 
      Affairs, Congressional Research Service....................   113
        Cordesman, Anthony.......................................   145
        Katzman, Kenneth.........................................   157
        Kubba, Laith.............................................   136
        Pollack, Kenneth.........................................   113
    Walker, David M., Comptroller General of the United States, 
      accompanied by Joseph Christoff, Director of International 
      Affairs, Government Accountability Office..................    21
Letters, statements, etc., submitted for the record by:
    Cordesman, Anthony, Admiral Arleigh Burke Chair in strategy, 
      Center for Strategic and International Affairs [CSIS], 
      prepared statement of......................................   147
    Jeffrey, Ambassador James, Senior Advisor on Iraq to the 
      Secretary of State and Principal Deputy Assistant Secretary 
      of State for the Middle East, Department of State, prepared 
      statement of...............................................    78
    Jones, Brigadier General Michael, Deputy Director for 
      Political Military Affairs, Joint Chiefs of Staff, charts..    85
    Katzman, Dr. Kenneth, Specialist in Middle East Affairs, 
      Congressional Research Service, prepared statement of......   159
    Kubba, Laith, senior director for Middle East and North 
      Africa, National Endowment for Democracy, prepared 
      statement of...............................................   138
    Kucinich, Hon. Dennis J., a Representative in Congress from 
      the State of Ohio, prepared statement of...................    16
    Pollack, Kenneth, director of Middle Eastern policy, 
      Brookings Institution, prepared statement of...............   116
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     4
    Walker, David M., Comptroller General of the United States, 
      prepared statement of......................................    25
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California, prepared statement of.................    10


           THE EVOLVING NATIONAL STRATEGY FOR VICTORY IN IRAQ

                              ----------                              


                         TUESDAY, JULY 11, 2006

                  House of Representatives,
       Subcommittee on National Security, Emerging 
              Threats, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:08 p.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Marchant, Burton, Platts, 
Turner, Dent, Kucinich, Sanders, Maloney, Van Hollen, 
Ruppersberger, Lynch, Higgins, and Waxman (ex officio).
    Staff present: R. Nicholas Palarino, Ph.D., staff director; 
Robert A. Briggs, analyst; Robert Kelley, chief counsel; Raj 
Lalla, Jake Parker, and Jeff Hall, interns; David Rapallo, 
minority chief investigative counsel; Andrew Su, minority 
professional staff member; Earley Green, minority chief clerk; 
and Jean Gosa, minority assistant clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats, and International 
Relations hearing entitled, ``The Evolving National Strategy 
for Victory in Iraq'' is called to order.
    Ambassador Zalmay Khalilzad called Iraq the defining 
challenge of our time. He said, ``What happens in Iraq will 
shape the future of the Middle East, and the future of the 
Middle East will shape the future of the world.'' I think he is 
right on target.
    On April 9, 2003, the bronze statue of Saddam Hussein 
towering over Baghdad's Firdos Square was torn down. The 
statue's toppling is viewed as the symbolic point at which 
Hussein's government ceased to exist, and when hopes were high 
that hostilities would end.
    After a successful military campaign lasting less than 6 
weeks, President Bush declared, ``Major combat operations in 
Iraq have ended. In the battle of Iraq, the United States and 
our allies have prevailed. And now our coalition is engaged in 
securing and reconstructing that country.''
    Saddam Hussein and his government were toppled, but combat 
operations did not end. The job of securing and reconstructing 
Iraq has become extremely difficult. The terrorists and 
insurgents seek to prevent Iraq from having a democratically 
elected government that respects majority rule and minority 
rights.
    Over the past 38 months, I have visited Iraq 12 times, and 
this subcommittee has had 10 hearings relating to Iraq. I have 
seen both setbacks and progress in our efforts to help this new 
nation.
    Numerous Americans and Iraqi officials and Iraqi citizens 
have shared with me their concerns about serious mistakes made 
by the United States and coalition forces. In my judgment, 
flawed planning for postconflict Iraq by the Department of 
Defense allowed Americans to be the face for Iraq for more than 
a year. Failed planning allowed widespread looting immediately 
after coalition forces took control; indiscriminate de-
Baathification of the government work force; and dissolution of 
Iraqi security forces, military police and border security 
forces.
    After digging ourselves into a deep hole during the first 
year, we have made significant progress. The first major 
success was the transfer of power to Iraqis in June 2004. This 
was followed by the Iraqi people electing an interim government 
in January 2005, which then drafted a Constitution. The Iraqi 
people ratified that Constitution in October 2005 and elected a 
4-year representative government in December of that same year 
with 76 percent voter participation.
    Since June 2004, the members of the Iraqi security forces 
have nearly tripled to 265,000. They have made strides in 
combat effectiveness and leadership. They are better trained 
and equipped, and they are developing the capability to act 
independently of coalition forces. Today these security forces 
are taking the lead in controlling approximately 30 percent of 
the country.
    The Iraqi economy is growing. The International Monetary 
Fund estimates that gross domestic product grew by 2.6 percent 
last year and is expected to grow by 10.4 percent this year.
    Initially the administration relied on the Military 
Campaign Plan, a classified military campaign plan, as its 
strategy for transforming Iraq into a representative democracy. 
Then, in November 2005, the administration published the 
National Strategy for Victory in Iraq. This roadmap established 
a three-pronged strategy: Build stable, pluralistic national 
institutions; clear areas of enemy control; and restore Iraq's 
neglected infrastructure.
    As the situation has evolved, so has U.S. strategy. The 
administration is focused on assisting a new Iraqi Government 
in promoting its own agenda of national reconciliation, 
improving security, increasing oil and electricity production, 
and engaging other nations in Iraq's development.
    To help implement Iraqi Prime Minister Nouri al-Maliki's 
agenda, President Bush on June 14th at a news conference said, 
``We will continue to conduct joint military operations with 
Iraqi security forces to secure the cities of Baghdad and 
Ramadi, send senior Cabinet-level advisors to Iraq to improve 
oil and electricity production, and increase diplomatic 
outreach to other countries promoting assistance to Iraq.''
    To end the war and begin a withdrawal of U.S. forces, the 
United States needs to particularly support Iraq's national 
reconciliation. National reconciliation entails amending Iraq's 
Constitution, providing conditional amnesty for insurgents, and 
revising wholesale de-Baathification. This effort is absolutely 
essential.
    Today, with the help of the Government Accountability 
Office, administration witnesses including Ambassador James 
Jeffrey, Ms. Mary Beth Long, Brigadier General Michael Jones 
and reknowned experts on Iraq, we examine our National Strategy 
for Victory in Iraq and recent statements by President Bush 
after his meeting with the Prime Minister in Iraq by assessing 
the evolution of the U.S. National Strategy for Victory in Iraq 
in response to changing security, political and economic 
events, and, perhaps more importantly, evaluating the evolving 
strategies themselves to better understand their chances for 
success.
    The United States liberated Iraq from a tyrant who tortured 
and killed his own people. We made mistakes in our efforts to 
secure and rebuild the country, but we are correcting those 
mistakes, and progress is being made. Yes, the task is 
difficult, but that only reinforces the need to closely examine 
our roadmap for success.
    I am not afraid we will lose the war in Iraq in Iraq. I am 
deeply concerned we will lose the war in Iraq here at home. Our 
efforts to remove Saddam Hussein from power and help bring 
democracy to the most troubled part of the world is truly a 
noble effort that must succeed, because, as Ambassador 
Khalilzad said, ``What happens in Iraq will shape the future of 
the Middle East, and the future of the Middle East will shape 
the future of the world.''
    We thank all the witnesses for taking the time to appear 
with us today.
    [The prepared statement of Hon. Christopher Shays follows:]

    [GRAPHIC] [TIFF OMITTED] T4545.001
    
    [GRAPHIC] [TIFF OMITTED] T4545.002
    
    [GRAPHIC] [TIFF OMITTED] T4545.003
    
    [GRAPHIC] [TIFF OMITTED] T4545.004
    
    Mr. Shays. With that, I would recognize the ranking member, 
Mr. Kucinich.
    Mr. Kucinich. Thank you, Mr. Chairman. I am going to defer 
to our ranking member of the full committee Mr. Waxman.
    Mr. Shays. The ranking member of the full committee is 
recognized.
    Mr. Waxman. Thank you, Mr. Chairman.
    All Americans want Iraq to succeed. They want Iraq to be 
peaceful. They want ordinary Iraqis to have electricity, clean 
water and a safe environment.
    At the same time, Americans want to end the war. They want 
our troops to come home, and they want to stop losing lives, 
and they want to stop hemorrhaging taxpayers' dollars.
    The question for today's hearing is whether the Bush 
administration has a plan to do this that will work. 
Unfortunately, the Bush administration's record for planning on 
Iraq has been abominable. Before we went the to war, President 
Bush and other senior administration officials promised we 
would be welcomed as liberators. They also promised the 
reconstruction of Iraq would pay for itself. This turned out to 
be wishful thinking that ignored the advice of experts who had 
studied the region for years.
    As the result of both of these promises turning out to be 
false, we have now faced a virulent insurgency that has grown 
increasingly deadly. We have squandered approximately $50 
billion in United States and Iraqi funds on reconstruction with 
virtually nothing to show for it. GAO is issuing a report today 
that confirms this.
    The GAO report states that the original plan assumed a 
permissive security environment which never materialized. GAO 
also finds that essential services have not been restored to 
prewar levels, and the United States has yet to prove that it 
has made a difference in the Iraqi people's quality of life.
    These were not the only mistakes. Ambassador Bremer 
dismissed the Iraqi Army, providing recruits for the 
insurgency. The administration underestimated the amount of 
troops that were necessary despite the warnings of General 
Shinseki and others. The administration failed to plan for 
troop support until after the fall of Baghdad, and the 
administration failed to prevent massive looting after the fall 
of Baghdad.
    These were all additional mistakes. These were grave errors 
that made things worse, and they thrust us into a quagmire. So 
now we are in the unfortunate position of having to rely on 
this incompetent administration to lead Iraq and the United 
States out of this war. We all want to succeed, but how do we 
get there?
    The Bush administration's offer is a vague proclamation 
about its strategy. They say victory will take time, but the 
process cannot be based on the timeline; that the success must 
be based on conditions on the ground. Their supporters say 
things like, if we can't succeed in Iraq, it will be because of 
failure of resolve in the United States.
    Well, what are the conditions that are going to be 
necessary? The goal is a peaceful, united, stable and secure 
Iraq. How will the administration decide whether the American 
people have done enough, based on the number of Iraqi security 
forces we train? And what if the violence continues? Will the 
administration's decision be based on reducing the number of 
attacks each week, and what are our performance measures? When 
will the administration decide it's time to go, and why can't 
the American people know ahead of time what the specific 
benchmarks are?
    The GAO report is critical of the Bush administration's 
strategy in one particularly telling way. GAO states as 
follows, ``the strategy neither identifies the current and 
future costs of implementing the strategy, nor does it identify 
the sources of funding needed to achieve U.S. political, 
security, and economic objectives in Iraq.''
    Since there is no future cost data, GAO makes this finding, 
``as a result, neither DOD nor Congress can reliably determine 
the cost of the war, nor do they have details on how 
appropriated funds are being spent or historical data useful in 
considering future funding needs. In addition, none of the 
strategy documents take into account the total cost of Iraq's 
reconstruction.''
    The administration has been in Iraq for 3 years and has 
spent $311 billion to support its efforts there, yet the 
administration strategy includes no information about future 
costs. This tells me they don't have a real plan. They are 
winging it, hoping that the violence will miraculously settle 
down, but lacking any real sense of how to achieve this.
    Mr. Chairman, I have little confidence in this 
administration's proclamations about the future of Iraq. For 
the past 3 years, they have been saying the next 6 months are 
going to be the turning point. I hope we can get more specific, 
substantive and straightforward answers from them today.
    Mr. Shays. I thank the gentleman.
    [The prepared statement of Hon. Henry A. Waxman follows:]

    [GRAPHIC] [TIFF OMITTED] T4545.005
    
    [GRAPHIC] [TIFF OMITTED] T4545.006
    
    Mr. Shays. I understand the vice chairman of the committee 
does not have a statement. I appreciate his being here and will 
ask the former vice chairman of the committee Mr. Turner if he 
has a statement.
    Mr. Turner. Mr. Chairman, I thank you so much for your 
continued focus on Iraq and for your holding this hearing 
today. This is a very important topic, and your commitment 
continuing to go to Iraq to see on the ground what is occurring 
there is so important, and your bringing that information back 
and making certain that we have hearings so that this story can 
be told about what is occurring and what the plans are is very 
important.
    I regret that this issue of Iraq continues to be made a 
political issue. Something as simple as the war on terror, 
where we should have full and unanimous support from everyone, 
turns into a litany of political complaints and assaults on the 
administration, which I think is incredibly unfortunate.
    Our enemies are watching today. Those who are in the war on 
terror against us are watching today. Repeatedly, 
misinformation and mistruths, untruths, are told about Iraq and 
are told about the situation that led up to the war.
    I just participated on June 29th in a hearing in the Armed 
Services Committee. I am a member of the Armed Services 
Committee, and in that hearing Lieutenant General Maples was 
testifying on the weapons of mass destruction that had been 
discovered in Iraq. Those portions are of a report that had 
been most recently made public, the remainder of which remains 
classified. With all the partisan discussions that we have 
heard, there are many people even on this dais who have made 
statements that there are no weapons of mass destruction.
    I want to read to you a portion of my questions and the 
answers from Lieutenant General Maples that occurred in that 
hearing, because the evidence that was presented, what so far 
was allowed to be made public, is that since 2003, coalition 
forces have recovered approximately 500 weapons munitions which 
contained mustard or sarin nerve agent.
    These are my questions for Lieutenant General Maples, who 
is before us in that unclassified, declassified portion of the 
report. It's about Iraq, and I asked, knowing that we have 
these 500 weapons that are now in our possession.
    In Iraq, they produced those weapons-grade chemical agents, 
and they weaponized them. You are actually finding weapons; is 
that correct? I will say that again, and they produced those 
weapon-grade chemical agents, and they weaponized them. You are 
actually finding weapons; is that correct?
    Lieutenant General Maples said, that is correct. The report 
says over 500. And there's a portion of the report that is 
classified, and the general went on to say that the portions of 
the report that are classified indicate that the numbers are, 
of course, greater than 500.
    I asked another question about the capabilities of the 
regime. From the review of these weapons, is it clear that they 
are Iraqi in origin? We had already established that they are 
chemical weapons-grade, chemical agents, and they have been 
weaponized. So I asked, are they Iraqi in origin? These are not 
weapons of mass destruction that have been purchased on, say, 
wmd.com; these are Iraqi-produced. And he said, yes, sir.
    Do you have any evidence that the individuals that produced 
them were no longer in Iraq or had lost the capability or the 
intellect or the knowledge or the production that would assume 
they could then produce others? And he responded that there was 
no information that the ability of Iraq to produce weapons-
grade agents or to weaponize them had been eliminated.
    Some of the political statements that we have had, Mr. 
Waxman himself on June 15th stated, Mr. Speaker, before we went 
to war, President Bush and other administration officials made 
three promises to the American people: One, we would find 
weapons of mass destruction; and goes on to say all of these 
three promises have proved to be false.
    Mr. Waxman read almost virtually his June 15th quote today. 
He left out the no weapons of mass destruction. Mr. Dennis 
Kucinich said there were no weapons of mass destruction in 
Iraq, but there are WMD in D.C. Lies are weapons of mass 
destruction.
    What is important about those statements is that we have in 
our hands over 500 weapons of mass destruction, weapons-grades 
nerve agent, where it has been weaponized by Iraq, that showed 
they had the capability. Yet the political discourse here has 
been to discredit the existence or the capability of Iraq to 
have or possess or to create weapons of mass destruction.
    I certainly would like the political discourse on the 
reconstruction and our efforts to win the war on terror to be 
one of support and not one of undermining the efforts of the 
United States to protect the American people.
    Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    The Chair would recognize Mr. Kucinich.
    Mr. Kucinich. With all due respect to my good friend from 
Ohio, this administration led this country to war based on 
lies. You know, where are the weapons of mass destruction? We 
were given this whole phantasm of, well, you know, we are going 
to be hit with weapons of mass destruction, Iraq is going to 
attack us. Iraq did not have weapons of mass destruction, did 
not have the capability of attacking us, did not have the 
intention of attacking us, was not connected to September 11th, 
and we are here talking about a national strategy for victory 
in Iraq.
    Who are we kidding? Come on, get real, wake up, America. 
This administration has lied to the people. They are selling 
this lie all over. They are selling it again to this committee. 
Balderdash. It's time that we challenge them directly.
    You know, this idea of a national victory strategy was 
issued in 2005. It was quite clear to many of us that it was 
nothing more than a public relations ploy. The so-called 
strategy came 2 years after the mission was declared 
accomplished, and we were told that major combat operations had 
ended.
    This administration never had and still doesn't have a 
realistic strategy in place. They continue to issue a wish list 
and timetables based on a political situation in Washington, 
not on a situation in Baghdad. They often use this line: Well, 
when the Iraqis stand up, we will stand down. That is just a 
slogan; that's not a plan. Meanwhile, over 2,500 troops have 
died, tens of thousands have been injured, hundreds of 
thousands of innocent Iraqis injured or killed.
    This administration had a plan, all right, a plan for 
occupation; doesn't have a plan for reconstruction, doesn't 
have a plan for exit strategy. In the past they stood before 
the Congress and the American people and declared that we would 
be greeted as liberators, that Iraqi oil would pay for 
reconstruction, that Iraq's vast stockpile of WMDs posed a 
threat to this Nation.
    The White House knew there were no WMDs in Iraq. There was 
no link between September 11th and Iraq, no uranium in Niger, 
no mobile trailers functioning as biological labs. All these 
claims, like their so-called phony strategy for victory, were 
misleading. They were false. They were meant not only to scare 
and confuse and distract the public from this war, they were 
meant to establish a permanent presence in Iraq.
    Nobody in this administration has taken responsibility. 
Nobody has been held accountable for these lies, but I predict 
that someday the world community will hold these individuals 
accountable. The administration has proven its credibility 
problem time after time, and the national strategy for victory 
is an example of this problem.
    When it comes to Iraq, this administration's credibility 
gaps become a credibility abyss. OK, you have Saddam Hussein in 
jail, al Zarqawi is dead, Iraq is in the midst of a civil war, 
and violent deaths are reported daily. Our troops are still in 
harm's way, and we have still not dealt with the serious issue, 
are we ever going to leave Iraq?
    Could it be this administration doesn't have an exit 
strategy because they don't intend to exit? Even if and when 
large numbers of our troops are sent home from Iraq, all 
evidence seems to suggest that we are planning a permanent 
military presence there. Despite the denial by the Pentagon 
leaders that they are not building permanent base in Iraq, we 
know of several large airbases at Balad, Al-Asad, Camp Taji and 
Talil constructed for the long-term. In these bases we have 
already invested hundreds of millions in taxpayers' dollars. 
These bases now have fast-food restaurants, they have bus 
routes, even have their own supermarket. We are not there for 
the long term?
    Furthermore, the Overseas Basing Commission last spring 
wrote that military presence corresponds to influence. We 
cannot hope for much influence without presence. The degree of 
influence also correlates a level of permanent presence that we 
maintain forward.
    So it's inconceivable that long-range U.S. influence in 
Iraq is not being sought, yet plans for a long-range military 
presence in Iraq are not being made to this Congress and 
particularly this subcommittee.
    The Department of Defense's plans for a military base in 
Iraq go right to the question of what victory in Iraq is 
supposed to mean. It's hard to understand our national security 
strategy in Iraq can be assessed without knowing the plans for 
a military base in Iraq. I hope the GAO has been successful, 
where our subcommittee efforts had failed, in determining the 
DOD's sufficient detailed information about the cost and types 
of military installation in Iraq.
    As Congress continues to debate the strategy for handling 
the war in Iraq, it is imperative to examine the usefulness or 
lack thereof of the long-term and near-term U.S. military 
presence there. I hope this hearing will accomplish this.
    But, you know, it's time we challenge this administration 
about their phony stories about WMDs, and you can produce some 
kind of manifest right now. The fact is that the United States 
sold weapons of mass destruction to Iraq years before Saddam 
Hussein--when Saddam Hussein was in power, and those weapons 
were accounted for by the United Nations commission, and we 
know that they were destroyed, and this administration went to 
war based on a false pretext. Period, end of story.
    Mr. Shays. I thank the gentleman.
    [The prepared statement of Hon. Dennis J. Kucinich 
follows:]

[GRAPHIC] [TIFF OMITTED] T4545.007

[GRAPHIC] [TIFF OMITTED] T4545.008

[GRAPHIC] [TIFF OMITTED] T4545.009

[GRAPHIC] [TIFF OMITTED] T4545.010

[GRAPHIC] [TIFF OMITTED] T4545.011

    Mr. Shays. We will continue with the testimony of our 
witnesses when we get back. We will be delayed for a little bit 
with a few votes. We are at recess.
    [Recess.]
    Mr. Shays. I call this hearing to order. I appreciate the 
patience of our witnesses. I would like to take care of some 
business first before recognizing our first panel.
    I ask unanimous consent that all members of the 
subcommittee be permitted to place an opening statement in the 
record and that the record remain open for 3 days for that 
purpose. Without objection, so ordered.
    I ask for unanimous consent that all witnesses be permitted 
to include their written statements in the record, and, without 
objection, so ordered.
    At this time, we will recognize our first panel. Our first 
panel is the Honorable David M. Walker, Comptroller General of 
the United States, accompanied by Joseph Christoff, Director of 
International Affairs. Both are obviously from the Government 
Accountability Office.
    As is our custom, I would invite both witnesses, and if 
there is any other witness, Mr. Christoff, behind you, anyone 
else who might make a comment, I would like them to be sworn in 
at this time as well.
    [Witnesses sworn.]
    Mr. Shays. I would note for the record that all of our 
witnesses have responded in the affirmative, including our 
Comptroller General.
    Let me just say before beginning, the purpose of this 
hearing, and obviously Members are free to discuss other issues 
that they choose to with the witnesses, but the purpose of this 
hearing is to examine, one, whether we had and have a strategy, 
and to what extent that strategy is meeting the needs of our 
engagement in Iraq. But obviously Members are free to ask any 
other questions or make any other points they want to make 
about Iraq.
    I consider this one of the more important hearings this 
subcommittee has held. I am very appreciative to all our 
witnesses. I realize that there will obviously be strong 
emotions about an issue that is extraordinarily important.
    So with that, Mr. Walker, can you hear us?
    Mr. Walker. Yes, I can, Mr. Chairman. Can you hear me?
    Mr. Shays. We hear you very well. Please give your 
statement. We thank you for taking the time to do it, even 
though you are in Dallas.

STATEMENT OF DAVID M. WALKER, COMPTROLLER GENERAL OF THE UNITED 
     STATES, ACCOMPANIED BY JOSEPH CHRISTOFF, DIRECTOR OF 
    INTERNATIONAL AFFAIRS, GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Walker. [The following statement was delivered via 
teleconference.] Thank you, Mr. Chairman, members of the 
subcommittee. I want to thank you for the opportunity to appear 
before the subcommittee. I want to congratulate you and the 
subcommittee on your continued commitment to oversight in this 
area and other areas. I also want to thank you for allowing me 
to be able to testify remotely from our Dallas office; and, 
finally, to acknowledge, as you did, that Joe Christoff, who is 
the Director of International Affairs and Trade Team, is there 
to be able to assist me with any questions that I may not have 
the answers myself.
    If I can, Mr. Chairman, I will like to just summarize my 
statement. I understand the entire statement has been provided 
for the record. Is that all right?
    Mr. Shays. Yes.
    Mr. Walker. I will move to do so.
    Mr. Shays. Your entire statement is in the record. You may 
summarize as you choose. We do the 5 minutes, but obviously we 
allow an additional 5 if it's necessary.
    Mr. Shays. Thank you, Mr. Chairman. I think I can stay 
within the 5.
    My testimony today is based upon a report that we are 
releasing, which evaluates the U.S. national strategy for 
victory in Iraq known as NSVI. It also considers seven 
supporting documents as well as other GAO reports where we have 
assessed U.S. activities in Iraq to date.
    In summary, the NSVI, or new strategy, is a clear 
improvement over previous U.S. Government planning efforts for 
stabilizing and rebuilding Iraq; however, the new strategy and 
its supporting documents are incomplete, because they do not 
fully address all of the desirable characteristics of an 
effective national strategy.
    On the positive side, the strategy's purpose and scope is 
clear because it identifies U.S. involvement in Iraq as a 
``vital national interest and the central front in the war on 
terror.''
    The strategy also generally addresses the threats and risks 
facing the coalition forces, as well as providing a 
comprehensive description of the desired U.S. political 
security and economic objectives in Iraq; however, the 
discussion of outcome-related key performance measures that are 
designed to help assess progress in achieving these goals and 
objectives is limited, needs further work, and is not 
adequately transparent.
    On the other side of the coin, the strategy falls short in 
at least three key areas. First, it only partially identifies 
which U.S. agencies are responsible for implementing key 
aspects of the strategy or resolving conflicts among the many 
implementing agencies.
    Second, it does not fully address how U.S. goals and 
objectives will be integrated with those of the Iraqi 
Government and the overall international community, nor does it 
detail the Iraqi Government's anticipated contribution to its 
future security and reconstruction needs.
    And, third, it only partially identifies the current and 
future cost of U.S. involvement in Iraq, including the costs 
that will be necessary to maintain U.S. military operations, 
help to build Iraqi Government capacity at the provincial and 
national level, and to rebuild critical infrastructure.
    At this point, Mr. Chairman, I think it's important to note 
that people talk about rebuilding. We are talking about 
rebuilding infrastructure. But from a practical standpoint, 
Iraq is building its first government institutions, so it has 
not had a viable governmental infrastructure, and that we are 
starting from almost ground base zero.
    Furthermore the June 2006 Camp David fact sheet provides 
additional detail, but does not address the key shortfalls we 
have identified in these three areas. I know the State 
Department has said this document is intended to be high level, 
it's not intended to get into detail. We have looked at the 
supporting documents. They do not get to the level of detail 
that we believe is necessary, importantly, for the Congress to 
be able to do its job, and in order for the American people to 
have an understanding of exactly where we are, where we are 
making progress, where we are not, in order to provide a fuller 
and fairer picture for people to reach their own reasoned 
conclusions.
    There are a range of security, political and economic 
factors that will hinder U.S. efforts to stabilize Iraq and to 
achieve key goals in the U.S. strategy. First, the United 
States and Iraqi Governments are trying to stabilize Iraq by 
training and equipping additional Iraqi security forces and by 
securing Baghdad and selected strategic cities. Although the 
number of Iraqi security forces is increasing, these forces 
still lack the logistical command and control and intelligence 
capabilities to operate independently. Moreover, increases in 
attacks against the coalition and its Iraqi partners and the 
growing influence of militias have adversely affected United 
States and Iraqi efforts so far.
    Second, the United States and Iraqi Government are trying 
to improve Iraq's capacity to govern by reconciling the 
conflicting sectarian groups and building the capacity of 
national and provincial governments to provide security and 
deliver services that all Iraqis need, care about and will 
appreciate. However, continuing sectarian conflicts and the 
lack of core competencies in a number of ministries, along with 
widespread corruption, have served to hinder these efforts.
    Third, the United States and Iraqi Governments are trying 
to revitalize Iraq's economy and to restore essential services 
in the oil, electricity, water and other key sectors, but these 
efforts have been impeded by security challenges, corruption, 
budgetary and other matters.
    The formation of a permanent Iraqi Government gives the 
United States a new opportunity to reexamine its strategy for 
Iraq and to more closely align its efforts with those of the 
Iraq Government as well as with the international community at 
large.
    The report that we are releasing today recommends that the 
National Security Council, in conjunction with the Department 
of Defense and the State Department, complete the strategy by 
addressing all six characteristics that are indicative of an 
effective national strategy and incorporate them into a single 
integrated document.
    In particular, the revised strategy should clarify each 
agency's roles and responsibilities, specify future 
contributions that will be necessary, and identify the current 
cost and future resources that will be needed in order to fully 
and effectively implement the strategy.
    In conclusion, based on GAO's ongoing and completed work, 
including the report that we are issuing today, the United 
States, Iraq and the international community should consider 
taking additional actions to help achieve sure and sustainable 
success in Iraq. These include improving the sustainment of 
Iraqi security forces by enhancing their support capabilities; 
namely, command and control, logistics and intelligence.
    Second, expanding efforts to improve the capabilities of 
national and provincial governments, including greater 
technical assistance and training. The United States and the 
international community need to do more to help Iraqis help 
themselves deliver results that all Iraqi citizens care about. 
Most Iraqi citizens care about the same things that most 
American citizens do, safe streets, good jobs, reliable 
electricity, clean water, pick up the trash, education, health 
care, etc.
    Last, No. 3, the need to develop a comprehensive 
anticorruption strategy that improves the regulatory 
environment, strengthens accountability organizations, reduces 
subsidies and enhances investment opportunities.
    Mr. Chairman, that completes my summary statement. I would 
be more than happy to answer any questions that you or the 
other subcommittee members may have. Joe Christoff is there to 
provide additional information as necessary.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. Walker follows:]

    [GRAPHIC] [TIFF OMITTED] T4545.012
    
    [GRAPHIC] [TIFF OMITTED] T4545.013
    
    [GRAPHIC] [TIFF OMITTED] T4545.014
    
    [GRAPHIC] [TIFF OMITTED] T4545.015
    
    [GRAPHIC] [TIFF OMITTED] T4545.016
    
    [GRAPHIC] [TIFF OMITTED] T4545.017
    
    [GRAPHIC] [TIFF OMITTED] T4545.018
    
    [GRAPHIC] [TIFF OMITTED] T4545.019
    
    [GRAPHIC] [TIFF OMITTED] T4545.020
    
    [GRAPHIC] [TIFF OMITTED] T4545.021
    
    [GRAPHIC] [TIFF OMITTED] T4545.022
    
    [GRAPHIC] [TIFF OMITTED] T4545.023
    
    [GRAPHIC] [TIFF OMITTED] T4545.024
    
    [GRAPHIC] [TIFF OMITTED] T4545.025
    
    [GRAPHIC] [TIFF OMITTED] T4545.026
    
    [GRAPHIC] [TIFF OMITTED] T4545.027
    
    [GRAPHIC] [TIFF OMITTED] T4545.028
    
    [GRAPHIC] [TIFF OMITTED] T4545.029
    
    [GRAPHIC] [TIFF OMITTED] T4545.030
    
    [GRAPHIC] [TIFF OMITTED] T4545.031
    
    [GRAPHIC] [TIFF OMITTED] T4545.032
    
    [GRAPHIC] [TIFF OMITTED] T4545.033
    
    [GRAPHIC] [TIFF OMITTED] T4545.034
    
    [GRAPHIC] [TIFF OMITTED] T4545.035
    
    [GRAPHIC] [TIFF OMITTED] T4545.036
    
    [GRAPHIC] [TIFF OMITTED] T4545.037
    
    [GRAPHIC] [TIFF OMITTED] T4545.038
    
    Mr. Shays. We will start off with Mr. Kucinich.
    Mr. Kucinich. May I direct questions to----
    Mr. Shays. Yes, you may ask Mr. Christoff or the 
Comptroller General.
    Mr. Kucinich. These questions would be to Mr. Walker. 
First, I have to preface my questions. The DOD's plans for our 
military bases in Iraq go right to the question about what 
victory in Iraq would mean. For instance, last spring the 
Overseas Basing Commission wrote that military presence 
corresponds to influence. They said, ``We cannot hope for much 
influence without presence. The degree of influence often 
correlates to the level of permanent presence that we maintain 
forward.''
    So, it's inconceivable the long-range U.S. influence in 
Iraq is not being sought. What exactly are the plans for a 
long-range military presence in Iraq? This subcommittee has 
been trying to ascertain what the long-range plans are for 
certain very large military installations in Iraq, such as at 
Balad, Al-Asad, Talil and Camp Taji.
    The Congressional Research Service wrote in April 2005 some 
projects suggest a substantial U.S. investment to improve 
facilities that could be used for the longer term. DOD has 
requested its military construction funds for 5 years, the 
standard length of time, which could be perceived as indicating 
a more extended U.S. presence, and that is in Iraq.
    Projects that suggest a longer U.S. presence include $57 
million for Balad Airbase designated as a strategic aerial port 
to expand aircraft ramps, construct roads and storage areas for 
equipment, and replace airfield lighting. That is a quote from 
a CRS memorandum.
    Now, our staff met with members of the Overseas Basing 
Commission, Mr. Walker. They learned that the Commissioners 
received no information from DOD about Iraq and would not 
comment. When our staff was briefed by DOD, they were told that 
a strict silence would be observed in all matters relating to 
Iraq. Now, it's hard to understand how national security 
strategy in Iraq can be assessed without knowing the plans for 
a military base in Iraq.
    So, Mr. Walker, did the GAO succeed where our subcommittee 
efforts have not? Did GAO receive from DOD sufficient detailed 
information about the cost and types of military installations 
in Iraq?
    Mr. Walker. Well, first, Mr. Kucinich, let me say that we 
have not performed a specific engagement designed to try to 
ascertain the cost of military construction activities in Iraq. 
It is something that we would be willing to consider doing, but 
that's not something that we have undertaken. However, let me 
tell you what we do know, if I may.
    Mr. Kucinich. No, wait, you have answered my question. I 
have a followup question.
    Mr. Walker. I will, very quickly.
    Mr. Kucinich. Were you able to ascertain whether or not 
future costs and resources were addressed?
    Mr. Walker. No. Basically the position right now, the 
Defense Department, is the United States does not plan to have 
a long-term presence in Iraq. That is why the Overseas Basing 
Commission was not asked to look at this. It's clear that we 
are likely to have a presence for a considerable period of 
time. It's clear that there will be capabilities that will be 
there for the Iraqis or someone. But their position is, at the 
present time, the United States does not plan to maintain a 
long-term presence in Iraq.
    Mr. Kucinich. Was the GAO given a detailed briefing of the 
DOD's intentions for facilities in Iraq?
    Mr. Kucinich. We have had some interaction with the Defense 
Department on this issue, but their position has and remains, 
to my knowledge, that while extensive costs are being incurred, 
they are being incurred primarily to support our involvement 
for an undetermined period of time, and not to maintain a long-
term presence in Iraq.
    Mr. Kucinich. So, you say an undetermined period of time is 
a short presence is what you are saying. Now, Mr. Walker, what 
attempts did GAO make to find the answers to these questions 
about bases? Did you, for example, seek access to these bases 
at Balad and others to see how permanent or impermanent they 
may be?
    Mr. Walker. We have done some work in Iraq, but we have not 
done a specific engagement designed to try to address the 
issues you are raising, Mr. Kucinich. I am more than happy to 
talk to you and other members of the subcommittee if you are 
interested in doing so.
    Mr. Kucinich. Well, I certainly think that it would be of 
interest to this committee and the American people to know 
whether or not the United States is preparing for a long-term 
presence in Iraq based on the construction of those bases. And 
since it didn't look at it in terms of the scope of this study, 
I think it would be important for you to do it in a followup. 
Thank you, sir.
    Mr. Walker. Thank you.
    Mr. Shays. The Chair would recognize Mr. Waxman. What we 
are doing is we are doing 6-minute questioning.
    Mr. Waxman. Thank you, Mr. Chairman.
    Before I ask some questions of Mr. Walker, I want to 
respond to the comments made by our colleague on the other side 
of the aisle, Mr. Turner from Ohio. He mentioned in his opening 
statement that he thought I was derelict for not mentioning 
that weapons of mass destruction were found in Iraq, and he 
mentioned a report by General Maples and the National Ground 
Intelligence Center.
    But, unfortunately, Representative Turner gave only a small 
part of the story. According to General Maples, the munitions 
recently found buried in Iraq were produced in the 1980's, and, 
according to the NGIC report, these munitions are not proof of 
an ongoing weapons of mass destruction program in the 1990's.
    I would just add that there was a FOX News story from June 
22nd quoting a Defense Department official that the munitions 
were not even in useable condition. And according to this 
official Bush administration account, ``This does not reflect 
the capacity that was built up after 1991. These munitions are 
not the WMDs this country and the rest the world believed Iraq 
had, and not the WMDs for which this country went to war.''
    So before criticizing me, perhaps the Member would do 
better to consult the actual report he cites. Well, before 
everybody gets excited, therefore, that he found the weapons of 
mass destruction, let's just put that issue to rest.
    The second issue I just want to comment on before I ask 
some questions of the Government Accountability Office is why 
is it partisan to criticize what's happening in Iraq and how 
this administration has been handling the matter? I don't 
consider that partisan. Are we supposed to keep quiet about the 
whole thing and just cheer the President on and say stay the 
course?
    These are slogans. I, too, have been to Iraq, Mr. Chairman. 
I know what it's like for Members to go to Iraq. You go to a 
green zone. It's all very, very carefully protected. You hear 
from the generals that give you upbeat stories. They wouldn't 
even go out, some of them that brief us, into Iraq itself, and 
very seldom do you ever have Members of Congress go outside of 
the green zone. So let's keep in perspective what we are told.
    Just to criticize and raise issues is not in any way, in my 
view, a partisan matter, because some of the criticisms that 
have been most vigorous have come from Republicans as well as 
Democrats.
    Now, Mr. Walker, I want to turn to you. I mentioned in my 
comments to start off that on one issue, cost, you found that 
the administration's strategy does not identify current and 
future costs of the Iraq war, nor does it identify the sources 
of funding needed to achieve U.S. objectives.
    Can you tell the committee why the administration strategy 
does not include cost estimates, especially since we have been 
there for more than 3 years?
    Mr. Walker. Well, as you know, Mr. Waxman, the 
administration has resisted for several years providing cost 
estimates longer than 1 year in advance. I think it's best that 
you try to ask the administration why they haven't done it.
    Clearly, I think there is a basis to come up with some 
estimates. There obviously could be variances based on how 
conditions develop, but the idea of not coming up with any 
longer-term estimates doesn't seem to be reasonable.
    Mr. Walker. Did you ask the Bush administration for cost 
information, and how did they respond?
    Mr. Walker. I would ask Mr. Christoff to respond to that in 
the case of this engagement.
    Mr. Walker. Mr. Christoff.
    Mr. Christoff. Mr. Waxman, for this particular engagement, 
we looked at what makes a good strategic plan and what are the 
critical elements in a good strategic plan.
    Mr. Waxman. Would you answer my question, because I have 
other questions. I have limited time.
    Mr. Christoff. We asked them specifically for their long-
term estimates.
    Mr. Waxman. Now, I want to look at the administration's 
past planning. Your report says that the administration 
expected a permissive security environment in Iraq. But I am 
sure you are familiar with the volumes of work the State 
Department had done prior to the war warning that ethnic strive 
and sectarian violence was likely, given a U.S. invasion.
    I am also sure that you are familiar with the comments of 
George Bush, Sr., a Republican, who predicted after the first 
Gulf war that a U.S. occupation would result in incalculable 
human and political costs, that there would be no visible exit 
strategy, and that the United States could still be an 
occupying power in a bitterly hostile land.
    Now, your report, the GAO report, makes clear that the 
administration incorrectly believed it would have a permissive 
environment, but your report doesn't say why they believed 
this. Who told them that? Who was giving them advice it would 
be a permissive environment, and why did they ignore all these 
experts, including the President's father? Mr. Walker, you want 
to address that?
    Mr. Walker. I will start, and then I will ask Joe to fill 
in.
    It was very clear that there was inadequate intelligence, 
poor planning, not enough options considered with regard to 
potential scenarios for conditions on the ground.
    Now, as to why they did or did not consider the advice and 
counsel of various individuals, I can't comment on that. I 
don't know whether and to what extent Mr. Christoff can, but I 
would ask him to try.
    Mr. Waxman. Well, I think you pretty much answered my 
question, except you raised another one. Are you a partisan? 
You suggested there were a lot of mistakes made.
    Mr. Walker. I am an independent. I said that there was poor 
planning and inadequate consideration of alternative scenarios 
for potential conditions. And because of that, I believe that 
some of the challenges that we have have manifested themselves.
    Mr. Waxman. Mr. Christoff, your report concludes the 
administration diverted billions of dollars intended for 
reconstruction to address security concerns, and that it failed 
to anticipate before the war. Is this an accurate statement?
    Mr. Christoff. What our report said was that there was a 
reconsideration of what the priorities were that Ambassador 
Negroponte brought in and felt that there was insufficient 
resources that were going to the security environment, and he 
transferred moneys from the water and electricity sector to try 
to provide additional moneys for the security sector, 
particularly for training and equipping Iraqi security forces.
    Mr. Waxman. They didn't anticipate that.
    Mr. Christoff. What they anticipated--could I get back to 
your first question about the permissive security environment? 
The assumptions that the CPA developed were assumptions that 
were developed in the summer of 2003 when the insurgency was 
not as intense as what subsequently developed.
    So they went into the reconstruction plans with three key 
assumptions, one of which was that there would be a permissive 
security environment that would allow reconstruction to go 
forward; second, that the Iraqi Government would make important 
contributions to that reconstruction effort. So those were the 
critical assumptions, as well as trying to get the 
infrastructure up to prewar levels.
    Mr. Waxman. Thank you, Mr. Shays.
    Mr. Shays. I thank the gentleman.
    We are going next--let me just tell you the order I have on 
the Democratic side of the aisle. I had Mr. Kucinich first, Mr. 
Waxman, then I have Mr. Higgins next, then Mr. Van Hollen, Mrs. 
Maloney, and then Mr. Lynch, and then Mr. Sanders will be after 
that. We will inject Republicans as they come in. I am just 
going to keep coming down here at this time.
    Mr. Higgins. Just so the Members know, we are giving 
approximately 6 minutes, sometimes a little over. I am not 
going to fight the red light.
    Mr. Higgins. Thank you, Mr. Chairman. I just--I am on the 
GAO findings, and a lot of this is, you know, a question of 
semantics and seemingly fact distortion and verbal 
manipulation, because when I look at the situation, what I have 
come to learn, what I have read, both official and unofficial, 
fundamental to the success of the Iraqi operation is security, 
without which none of the other assumptions really matter all 
that much, because they are not achievable without 
fundamentally achieving that goal of security and allowing the 
new Iraqi system to evolve naturally toward self-sufficiency, 
self-determination, which would eventually lead to an American 
withdrawal not based on arbitrary dates, but on real dates, 
based on a real strategy.
    It just seems to me that when we are talking about the 
several assumptions that have significantly changed, the 
several assumptions haven't significantly changed, they were 
fundamentally wrong in the first place. What was also wrong was 
that the assumptions that went into trying to address these 
things.
    I am concerned that this really adds up to a generally 
failed policy, a policy that has not kept its commitment to the 
American people, that has not kept its commitment to the Iraqi 
people, to create a safe and stable environment. And, 
anecdotally, the reports that we get every single day seem to 
further question this whole issue of security and making 
progress. I look at these charts, and while, you know, somewhat 
attractive, and seemingly there is some kind of measured 
progress here, the insurgency threat is only increasing. The 
terrorist threat is only increasing.
    So my question is, you know, what does--what is the 
authority of the Comptroller General's capacity to provide the 
basis, form the basis to change this policy? Because from what 
I see here, this is a continuation of the same, despite your 
office having found that things have significantly changed. I 
don't see a corresponding change in the policy. I think that is 
what this committee needs to know. I think that is what the 
American people need to know. I would ask that question 
fundamentally of you, whoever wants to take it.
    Mr. Walker. Mr. Higgins, let me address that question. As 
you know, the Comptroller General of the United States is head 
of the Government Accountability Office, which is a legislative 
branch agency. Therefore, we are an Article I institution under 
the Constitution. We can do our work in a professional, 
objective, fact-based, nonpartisan, and nonideological manner, 
which is what we do. We can make recommendations. But under the 
Constitution, we cannot require the executive branch to adopt 
our recommendations.
    Fortunately, about 85 percent of the recommendations we 
make are eventually adopted. In the case of security, I would 
agree with you that security is fundamental. As Maslow's theory 
notes, which we all learned in college, self-preservation is 
the most fundamental need. Therefore, if you do not have an 
adequate security environment, then that has an adverse ripple 
effect with regard to a variety of other dimensions, one of 
which being the reconstruction dimension, but it's only one.
    At the same time, while you need to secure the security 
objectives, and while the trends on that have not been positive 
within the last year or so, the fact is in order to achieve 
real and sustainable success, it needs to be not just on the 
security dimension, but also on the political and economic 
dimension, because even if you have stability, which is key, 
you need to start delivering results that all of the Iraqi 
people care about, whether they are Shi'a, Sunni or Kurd, and 
there's a real problem there.
    Mr. Higgins. Obviously. I am done, thank you.
    Mr. Shays. At this time I will recognize the vice chairman 
of the committee Mr. Marchant.
    Mr. Marchant. Thank you, Mr. Chairman.
    Mr. Walker, President Bush in his June 14th press 
conference on his return from Baghdad said that he suggested to 
the Iraqis that they use the country's oil assets to unify the 
country. The most common question that I am asked in my 
district about the rebuilding of Iraq is what is happening to 
the oil income from the Iraqi's sale of oil? What was the 
original plan as far as the use of the oil income in Iraq?
    Mr. Walker. I will start and ask Mr. Christoff to 
supplement. First, the assumption was, rightly or wrongly, that 
the Iraqis would be able to pay for a lot of the related 
reconstruction efforts in large part through oil revenues, 
because, as you know, the Iraqis at the present point in time, 
are receiving about 90 percent plus of government revenue 
through oil revenues.
    The challenge of that is severalfold. No. 1, oil production 
levels are below prewar levels. There are serious challenges 
with regard to production and distribution, in part complicated 
by the insurgency, in part complicated by the fact that even 
when you end up repairing something, the Iraqis have a 
difficult time maintaining it.
    But furthermore, there's tremendous corruption, and there's 
a lot of theft going on. There's an estimate, as noted in our 
report, that about 10 percent of the refined fuels are being 
diverted, and about 30 percent of the imported fuels are being 
diverted.
    In fact, I myself have been to Iraq a couple of times. My 
son fought in Iraq with the Marine Corps. But the last time I 
was there, which was earlier this year, I was showed some 
numbers with regard to oil production and revenues, and it took 
me about, you know, a second and a half to realize that, 
obviously, there was massive corruption going on, because the 
numbers just didn't add up.
    Mr. Marchant. Mr. Christoff.
    Mr. Christoff. Let me give you some information, Mr. 
Marchant, and you can tell me if I'm answering your question.
    First of all, when the original assumptions were made back 
in 2003 about Iraq's investment, the assumption was that there 
would be oil revenues beyond what was needed to run the 
government, to provide all of the functions of government that 
could be used for reconstruction efforts.
    The situation that you have today now is that if you look 
at the Iraqi budget you see a budget that, No. 1, is funding 
what some could contend to be a blow to bureaucracy, primarily 
because oftentimes you don't know who is working in the 
different ministries. There are ghost employees. You have 
subsidies that the IMF estimates that 50 percent of GDP in Iraq 
is going to food, fuel and electricity subsidies, and then you 
have the continuing support for a burgeoning security force and 
the costs associated with that.
    You add all that up and there isn't a lot in terms of 
capital investment that Iraq can currently contribute. They 
budgeted $6 billion in their 2006 budget for capital 
investments. I don't know if they're going to be able to 
provide any assistance in that area since last year they 
budgeted $5 billion but were only able to spend a couple 
hundred million.
    Mr. Marchant. Do you think that it was a reasonable 
assumption going in that the oil income would be a significant 
supplement to the rebuilding?
    Mr. Christoff. I'm not certain if we knew what all of the 
commitments and expenditures were on the Iraqi Government in 
terms of the massive subsidies, the pensions, the employment, 
costs associated with employment.
    Mr. Marchant. In his press conference on June 14th, 
President Bush indicated that perhaps a distribution of the oil 
revenues between the Shi'as, Sunnis and Kurds would be a way of 
unifying the country. Is that a realistic--at this point, is 
there enough of the oil income that's not dedicated simply to 
the day-to-day organization that could be used for that 
benefit?
    Mr. Christoff. That is one of the 24 points that's part of 
the National Reconciliation Plan the Prime Minister has put 
together. There are going to be some really tough decisions 
that have to be made in the next 4 months as we go through the 
constitutional process--the constitutional amendment process. 
The Constitution has, some would contend, interesting but 
conflicting articles within it. One article says that all 
existing oil reserves are part of a national government, all 
future reserves are more or less decided toward the issue of 
what is the Federal structure, what will the national 
government control, what will the provincial government's 
control.
    What complicates that debate even more is that the 
Kurdistan Regional National Resources Minister has said that 
the debate about who owns what has already been decided and 
they are not open to any further negotiations about the 
Constitution.
    So Iraq certainly is oil rich, but the question of who 
controls the future oil reserves is going to be a contentious 
issue as we go through the constitutional amendment process.
    Mr. Marchant. Mr. Walker, do you think it is a reasonable 
assumption going forward for us to continue to speculate that 
there will be oil income available for the rebuilding?
    Mr. Walker. I think that you are going to have to deal with 
the security situation. We're going to have to end up helping 
them to enhance capacity to be able to increase production and 
maintain these facilities.
    There's also going to have to be efforts taken to deal with 
the subsidies. One of the reasons that there's so much theft 
going on is because the price for energy on the market within 
Iraq is substantially lower than it is in surrounding 
countries; and, therefore, that provides a tremendous incentive 
to be able to steal these fuels and to be able to sell them for 
whatever purposes, corruption or otherwise.
    So I think you're going to have to make progress on these 
fronts and others in order to really be able to have any hope 
of having any additional revenues. Plus, keep in mind that the 
pledges that have come from the international community have 
largely been loans, not grants; and I think there is no 
question that the international community is going to have to 
do more if we ultimately want to try to achieve long-term, 
sustainable success.
    Mr. Christoff. The subsidy question is sort of a double-
edged sword. Iraqis were paying about 13 cents a gallon for 
regular gasoline. Last week, it went up to 44 cents a gallon. A 
lot of discontent about being able to afford that.
    The World Bank is estimating that if Iraq can get gasoline 
prices up to about 60 cents a gallon, that's going to free up 
about $1.5 billion that would have gone to purchasing refined 
fuel that could then go toward reconstruction efforts.
    So that's a critical part of the whole economic effort that 
we think Iraq has dealing with the subsidies because it can 
free up additional resources for capital investment.
    Mr. Shays. Thank you.
    At this time, the Chair would recognize Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman; and let me thank 
Mr. Walker and Mr. Christoff for their testimony.
    I think at a hearing on national security it is important 
to take us back to the terrible events of September 11, 2001, 
and just remind the American people that the attacks at that 
time came from Afghanistan, that they were launched by al Qaeda 
and Osama bin Laden and had nothing to do with Iraq; and many 
of us were surprised to learn just last week that the Central 
Intelligence Agency [CIA], has decided to disband the one unit 
at the CIA specifically dedicated to tracking down Osama bin 
Laden.
    Michael Scheuer, who was at the CIA, now retired and used 
to head that group, said this about disbanding that unit: This 
will clearly denigrate our operations against al Qaeda. These 
days at the agency bin Laden and al Qaeda appear to be treated 
merely as first among equals. We have not completed the 
mission, despite what the President said on the aircraft 
carrier back in May 2003. Osama bin Laden and al Qaeda remain 
at large. In fact, the Taliban activity in southern Afghanistan 
has stepped up recently, according to testimony by General 
Maples, the head of the Defense Intelligence Agency; and I 
believe it's a mistake to be reducing our presence, military 
presence in southern Afghanistan.
    So I think as we focus on this hearing it is important to 
put it in context and remember that the terrible events of 
September 11, 2001, had nothing to do with Iraq.
    Mr. Walker, you have appeared in front of this committee 
many times to discuss issues of Government accountability. 
You're the head of the Government Accountability Office. We've 
had many hearings on the question of pay for performance; and 
you have asked for the ability in your department to pay your 
employees based on their performance, is that right?
    Mr. Walker. That's correct. That's correct, and we're doing 
it.
    Mr. Van Hollen. That's right. Would you agree that in any 
organization if you ignore and reward failure you get more 
failure?
    Mr. Walker. I think there has to be accountability when 
things don't go the way that you want.
    Mr. Van Hollen. Thank you. As the head of the Government 
Accountability Office I'm pleased to hear you say that.
    Let me give you a couple of facts with respect to Iraq. 
Let's start with weapons of mass destruction. Individuals in 
the administration who got it wrong with respect to weapons of 
mass destruction have either been left in place or rewarded. 
Secretary Rumsfeld, Secretary Rice have never received any sort 
of penalty or display of criticism from the President for 
getting it dead wrong. George Tenet, who said it was a slam-
dunk case, received the Presidential Medal of Freedom.
    Individuals at INR Department of Energy who questioned the 
issues like the aluminum tubes, I have never seen them get an 
increase in pay for their performance in getting it right.
    General Shinseki said we needed more troops on the ground. 
He was cavalierly dismissed by then Deputy Secretary of Defense 
Paul Wolfowitz who said those numbers were way to high. We know 
many Generals now, at least eight, have come out and said their 
advice was ignored by Secretary Rumsfeld and they've called for 
his dismissal and resignation.
    Secretary Wolfowitz said we'd have plenty of money to pay 
for the war in Iraq based on Iraqi oil revenue. He was rewarded 
with a position as President of the World Bank. Those 
individuals who called for greater troops on the ground, their 
predictions and requests were ignored.
    The cost of the war. The President's former Chief Economic 
Advisor, Lawrence Lindsey, at one point predicted $100, $200 
billion cost of the war. People said, hey, you're crazy; that's 
way too much. Deputy Secretary Wolfowitz said that. So did the 
head of OMB at the time, Mitch Daniels. They said that's crazy, 
way too high. We know now that it was in fact too low.
    My question is very simple. When you have that many people 
getting it wrong, doesn't it send the wrong signal for the 
President not to hold anybody accountable for those failures, 
failures with respect to WMD, failures with respect to number 
of troops needed for stability on the ground, failure with 
respect to predictions of costs, failure with respect to Abu 
Ghraib and other things that have undermined U.S. credibility 
and our moral standing around the world. Doesn't it make it 
more difficult to succeed in Iraq when you ignore failure? 
Isn't that going to give us more failure?
    Mr. Walker. Mr. Van Hollen, I believe very strongly in not 
being partisan and not being personal; and so, therefore, I 
won't comment with regard to specific individuals. I will, 
however, say this: There has been inadequate accountability 
today.
    Mr. Van Hollen. I appreciate that. I think it's pretty 
clear from the litany of failures and the fact that nobody has 
been held accountable.
    Let me ask you this, if you had that kind of series of 
failures at the Government Accountability Office, would you be 
giving bonuses to those individuals who were making those 
decisions?
    Mr. Walker. Absolutely not.
    Mr. Van Hollen. Would you be making sure that people who 
had a record of failure and getting it wrong at GAO, if you 
were to use your authority that we have given you with respect 
to the pay-for-performance system, would you make sure that 
failure was reflected in terms of the compensation they 
received and the kind of--whether they received a pat on the 
back or criticism from you?
    Mr. Walker. We would. We believe in performance and 
accountability, and it's more than just our name.
    Mr. Van Hollen. Well, I thank you for that testimony.
    Let me ask you with respect to the recent situation in 
Iraq--and we're all very alarmed by the fact that there is 
increasing sectarian violence. Many of us who opposed the 
decision to go to war made the claim and the case that when you 
take the lid off Pandora's box, when you have a situation of 
historic rivalries between different ethnic groups, that unless 
you have a plan to somehow bring about national reconciliation 
you're going to unleash these historic forces. I'm not sure any 
plan could have done it. But the fact of the matter is at least 
at the State Department there was a plan that had been put 
together to try to address some of those issues but that plan 
was thrown out of the window by Secretary Rumsfeld and they 
decided that they were going to do it their own way rather than 
abide by that plan.
    Do you think that was a mistake? Do you think that was a 
failure in terms of proceeding?
    Mr. Walker. As I said before, I think it's clear that there 
were not enough scenarios considered and more should have been 
considered, including the possibility of sectarian violence.
    Let's keep in mind one of the things we have to do better 
is to learn from history, and there has been a long history in 
this region that should inform, hopefully, our decisionmaking.
    Mr. Shays. Thank the gentleman.
    Mr. Dent.
    Mr. Dent. Thank you, Mr. Chairman.
    Mr. Walker, I just wanted to get your opinions on the 
situation on security forces in Iraq. I had spent some time in 
Iraq last summer in August down in Basra, up in Kirkuk and also 
in Baghdad; and after speaking with some of the British forces 
down there their general assessment had been that the Iraqi 
security forces, that is the army, was doing rather well, 
standing up well. The police services needed some help and the 
border forces, border security needed a lot more help than any 
of the other areas.
    What is your assessment of the security situation in Iraq 
and what do you see that is needed to improve that situation?
    Mr. Walker. First, your question is the security situation. 
Then I'll touch on the security forces. Unfortunately, most of 
the statistics that are public--and, as you know, the attack 
statistics are only public through April 2006--that the trend 
has not been positive; and that, furthermore, while the 
statistics since April 2006 are still classified, statements 
have been made by General Casey and others to show that the 
security situation is not good and that we continue to face a 
range of attacks in a variety of forms.
    With regard to training Iraqi security forces, significant 
progress has been made in training an increasing number of 
Iraqi security forces; and, at the same point in time, it's 
important not just to consider quantity but also quality and 
the ability of these forces to operate independently and to 
sustain themselves.
    So we've made real progress in training an additional 
number of Iraqi security forces. Their capabilities are 
improving, not as fast as many would like. But the real 
challenge here is going to be what about their ability to 
sustain themselves, their ability to provide command and 
control, logistics, intelligence. We are having to provide most 
of that, and that's likely to continue to be the case for a 
period of time.
    Mr. Dent. As a followup, I want to get to the issue of the 
costs of our involvement in Iraq. What is the current cost per 
month of the U.S. involvement in Iraq, including the cost of 
U.S. military operations, rebuilding critical infrastructure, 
and Iraqi security forces and any other cost elements that you 
can elaborate on?
    Mr. Walker. First, I think you have to keep in mind the 
current cost versus the tail. The current costs are estimated 
at about $1.5 billion a week, but there is a tail, and the tail 
is the cost associated with refurbishing, reconstituting our 
equipment, transferring the force, costs associated with 
disability and health care for those who have been disabled and 
wounded in battle, and we still don't know how long we are 
going to be there and in what size. But about $1.5 billion a 
week is my understanding.
    Mr. Dent. As a followup to Mr. Marchant's question, you had 
talked about the price of oil or gasoline in Iraq. When I was 
there last summer, I thought I heard the number bandied about 
that the price of gasoline was about 15 cents per gallon, which 
was considerably less than the cost to produce and refine the 
product. What did you say a few moments ago was the actual 
current market price for gasoline in Iraq?
    Mr. Walker. That was Mr. Christoff, and I ask that he 
repeat those numbers.
    Mr. Christoff. You're right. Last summer through December 
it was about 13 cents a gallon. It's now 44 cents a gallon for 
regular.
    Mr. Dent. It was my understanding, too, at the time that 
most of the gasoline that was produced, the crude produced in 
Iraq was sent out of the country to be refined, is that 
correct?
    Mr. Christoff. Iraq has about half of its needs it can 
produce within the country, and the remaining half it has to 
import.
    Mr. Dent. So under that regime, obviously, the government 
must have been subsidizing gasoline, subsidizing not just 
gasoline but electricity and other commodities.
    Mr. Christoff. Food as well.
    Mr. Dent. Can you give me a quick assessment as how that 
has changed? Apparently, it's gotten better, at least in 
gasoline. Are we allowing market forces to establish themselves 
more effectively in that economy today than had been the case 6 
months to a year ago?
    Mr. Christoff. When Iraq signed an agreement with the IMF, 
they agreed to increase fuel prices this entire year so that it 
hopefully reached levels of about 90 cents a gallon, which is 
comparable to the region. They missed a March increase, so they 
tried to make it up for the increase that occurred last week 
when they went from 13 cents to 44 cents a gallon. The goal is 
by the end of this year to bring it up to regional prices of 
about 90 cents a gallon.
    Mr. Dent. Thank you, Mr. Chairman. I have no further 
questions and yield back.
    Mr. Shays. Thank the gentleman.
    At this time, the Chair would recognize Mrs. Maloney.
    Mrs. Maloney. Thank you very much. Thank you for your 
testimony.
    In your report you noted that only--the financing of it is 
only partially identifying the current and future costs of U.S. 
involvement in Iraq. Are you tracking or is our Government 
tracking by program? Can we total it by program the full cost 
of the involvement in Iraq of the $311 billion? Can you break 
it down by what's going for rebuilding critical infrastructure, 
how much for Iraqi security services? Can you break it down in 
those categories?
    Mr. Walker. Mrs. Maloney, there is an ability to break it 
down to a certain extent, but as you and the other members on 
the subcommittee know, the Defense Department has terrible 
accounting systems. It is the only major department in the U.S. 
Government that still cannot withstand an audit.
    We are receiving cooperation from the Defense Department in 
trying to understand how supplemental funds are being expended 
as well as other funds, but they have thousands of legacy non-
integrated accounting systems which do not provide for timely, 
accurate and useful information to make informed 
decisionmaking, nor do they provide adequate information for 
the Congress to be able to discharge its constitutional 
responsibilities effectively.
    Mrs. Maloney. For well over 3 years we have been having 
hearings in this committee and others where the administration 
says it's going to get better, we just need a few more trained 
Iraqis, and it just never seems to get better, and the number 
of trained Iraqis seems to never get in place, and it doesn't 
seem like they have clear measures of what they need to achieve 
to be able to have success so that our troops can come home.
    One area that is particularly disturbing to me is the whole 
area of contracting and procurement. Of the $311 billion, why 
can't we give some of it to the Iraqi people to rebuild their 
own schools and hospitals and oil fields?
    And I cite the example that General Petraeus told me when I 
went to Mosul. He was trying to build a cement factory. A U.S. 
firm had a large contract for tens of millions of dollars. They 
weren't acting. He just put up a notice, is there any Iraqi who 
can build a cement factory, and they built it for $60,000. The 
Iraqis were employed, they were happy, and he got the cement 
factory to go forward and help the people of Iraq.
    But what is so disturbing to me is we have one hearing 
after another where we discuss scandals with Halliburton and 
other contractors. The Government continues to give the 
contracts to Halliburton and others and for some reason cannot 
contract with the Iraqi people. We might have less problems 
with stealing and accounting if we worked with the Iraqi people 
and they would be employed and it would be moving toward 
stability in the country.
    My question is, why can't we as a country contract with the 
Iraqi people to rebuild their own country so our people can 
come home and why do we continue to give money to a contracting 
system that by all reports has all types of flaws and scandals 
and mismanagement?
    So, again, for 3 years we have been calling for reforms in 
that; and I haven't seen any reforms. Why haven't we been able 
to contract with the Iraqi people like General Petraeus so 
successfully did?
    Mr. Walker. Mrs. Maloney, as you know, the contracting 
activity for the Department of Defense has been on GAO's high-
risk list for many years. There are serious problems in 
contracting not only in Iraq but, frankly, outside of Iraq.
    There is little question that there are additional 
opportunities to try to be able to engage the Iraqi people to 
help them rebuild their country, and that's something that I 
think needs to be considered to a much greater extent than it 
has been in the past. It's something that I have testified on 
in the past, and my understanding is the chairman is also 
planning to have another hearing in the not-too-distant future 
talking about contracting activities.
    Mr. Shays. Will the gentlelady yield?
    Mr. Comptroller General, we are waiting from the GAO for a 
specific list of the businesses to look at for investigation 
and we said we would go wherever it took us. So whether it's 
Halliburton or some smaller company. And we are still waiting 
for that list. I just want you to know that.
    So you are right. We have pledged to do a hearing. We have 
yet to receive that list. I welcome it, and this committee will 
pursue it.
    Mr. Walker. I will followup with you.
    And I also think it's important, Mr. Chairman, that you not 
just obtain information from us but you also obtain information 
from SIGR, which is the Special Inspector General for Iraq, 
which is supposed to be focused 100 percent on reconstruction, 
as well as some of the others. But I will followup.
    Mr. Shays. I just want to remind you. I'm giving the 
gentlelady her time.
    In public forum when you were sitting at the front desk you 
made the very important point that we have a corruption problem 
and it isn't just the bigger companies; and I said to you, just 
give us the worst examples and we'll go forward. If you want to 
seek advice from the Inspector General, we would welcome that. 
But you have given very aggressive testimony today, and I just 
want to be very certain that you are aware that you made the 
statement before. We publicly encourage you to provide that 
information and we have waited and waited and waited for that 
information to come forward, and that's an example I think of 
accountability on the other side of the coin.
    Mr. Walker. Be happy to get back with you. I think there 
was a misunderstanding on what we'd agreed to, but I'll 
followup.
    Mr. Shays. It's a public record.
    Mrs. Maloney, you have the floor; and I have given you back 
your time.
    Mrs. Maloney. Following up on the chairman's comments on 
the corruption problem, maybe we'd have less of a corruption 
problem if we could contract with the Iraqi people. It would 
also help with the employment and rebuilding the 
infrastructure. It would be less of an incentive to destroy the 
electricity plant or the hospital or the school if it was built 
by their people, employing their people. And we have called for 
it over and over again, and I believe we should legislate it, 
requiring that a certain portion of American dollars and 
contracts go to the Iraqi people. If we're trying to help the 
Iraqi people, why don't we put them in part of the leadership 
of their own country and give them the resources to get the job 
done so that our men and women can come home?
    Mr. Walker. Mrs. Maloney, can I set the record straight on 
something?
    Mr. Shays. Would you suspend?
    This is a very formal hearing and a very important hearing. 
There will be no applause. I want to be very clear about that, 
no applause in a hearing. Thank you.
    Mr. Walker. Mr. Chairman, can I set the record straight on 
an issue?
    First, let me be clear the problem with regard to U.S. 
contracting is, by and large, not a corruption problem. It is a 
waste, abuse and mismanagement problem; and it involves----
    Mrs. Maloney. Some people call that corruption.
    Mr. Walker. I will followup. The corruption problem--the 
corruption problem is there's an endemic corruption problem in 
Iraq; and so the corruption problem deals with Iraq, not 
necessarily U.S. contractors and U.S. operations. But both are 
a problem.
    Mr. Christoff. Mrs. Maloney, can I provide you with some 
additional information?
    Mrs. Maloney. Please do so in writing, because my time is 
up, and I have one other question I would like to ask that is 
very important to me.
    When will the Iraqi parliament establish the Constitutional 
Revision Commission? As we are aware, women's rights have been 
rolled back under the new government. They are now under Sharia 
law. I spoke to a judge. She was a judge. She can no longer be 
a judge. The Sharia law is very restrictive for women, and I 
feel it would be a crime beyond belief if women lose their 
rights and because of our involvement become lesser citizens 
with tremendous problems.
    Related to that, what are the prospects that the Commission 
can agree on amendments that resolve the Sunni concerns, 
especially on the distribution of oil revenue and power-sharing 
arrangements between the central government and among Sunni, 
Shi'as and Kurds?
    Mr. Christoff. I don't have information about when the 
Commission is going to begin its work. Once that Commission is 
formed I think, as you know, it has a formal period to try to 
bring recommendations to the full national assembly.
    What you just mentioned in terms of resolving issues 
related to oil is going to be very contentious, as you have 
many of the resources in the Kurdish north, the Shi'a south and 
then trying to figure out what part of current oil reserves 
versus future finds and how is that going to be shared between 
the national government and the provincial governments.
    Mrs. Maloney. And the loss of women's rights?
    Mr. Christoff. Absolutely, that's an additional part of 
what can be up for the Constitutional Commission to resolve and 
how you balance the principles of democracy that's in that 
Constitution but also trying to adhere to Islamic law at the 
same time.
    Mrs. Maloney. Thank you. My time is up.
    Mr. Shays. Thank you.
    At this time----
    Mr. Burton. Mr. Chairman, I would like to reserve my time.
    Mr. Shays. You can reserve your time. Thank you very much 
for being here.
    At this time, the gentleman from Boston, MA.
    Mr. Lynch. Thank you, Mr. Chairman. I want to thank the 
ranking member as well for having this hearing. I want to thank 
the panelists for helping the committee with its work.
    I want to read a section in the GAO report of the 
assessment for the national strategy in Iraq. It's the part I 
agree with, and I think it is really the guts of this report. 
It talks about the goals and objectives of the President's 
strategy for Iraq.
    Then it says: However, the discussions--this is three 
sentences: However, the discussions of outcome-related 
performance measures to assess progress in achieving the goals 
of the strategy and the objectives of the strategy are limited. 
Moreover, the strategy falls short on at least three other 
areas. First, it only partially identifies the agencies 
responsible for implementing key aspects of the strategy. 
Second, it doesn't fully address how the United States will 
integrate its goals with those of the Iraqis and the 
international community; and it does not detail Iraq's 
anticipated contribution to its future needs.
    Now I have been to Iraq five times, and I have been to 
Afghanistan once, and I don't spend any time at all in the 
Green Zone, quite frankly. Been to Falluja, spent overnight in 
Falluja, Tikrit and the Sunni Triangle, the Iranian border as 
well. Spent a lot of time in areas that aren't protected and 
trying to get as much information as we can. And I have to say 
that, in trying to measure progress of what's going on in Iraq, 
it is extremely difficult; and I think the reason is we don't 
have a system there that provides for that. We have the 
military, and it's all on them. And it's a strategic disservice 
to our military to ask them to do everything we're asking them 
to do right now.
    We're asking them, first of all, to beat down the 
insurgency. That's their primary goal that they were trained 
for. We're asking them, in the meantime, to train the police 
department. We're asking them to train security forces, the 
department of defense there. We're asking them to patrol every 
single reconstruction project in the country.
    And on top of that we've given them the responsibility for 
political reconciliation, which is to shift government 
operations to the Iraqis. And that's where we're falling down, 
because it's the sixth priority on the military's list. And 
that's just not happening. It's not being measured.
    I have spent time with the Iraqi parliament, been on the 
floor of the Iraqi parliament, spent time with the President 
there, Talibani. They are not getting the responsibility for 
even the most basic services in Iraq. If your electricity goes 
out, you go see the U.S. military; if your water isn't running, 
you go see the U.S. military; transportation, go see the U.S. 
military. Hospitals, schools, the whole 9 yards, it's the 
responsibility of the U.S. military.
    It's a political process. We are falling down especially in 
the role of transitioning some of the basic services to the 
Iraqi Government.
    I had my staff and some folks at CRS, I asked them a 
question. I said, given our history in the United States, are 
there any other models out there where the United States had 
occupied another country and had a transition government from 
the U.S. military to the civilian incumbent population? And 
they came back with one report, and it was the example of the 
Philippines.
    In 1944, after the United States drove the Japanese out of 
the Philippines, by default we ended up in control of the 7,000 
islands that make up the Philippines. It wasn't an independent 
nation at the time.
    I think what FDR and the U.S. Congress in 1944 did then was 
instructive to this case today. What they did was they 
established a national commission made up of representatives 
from the White House, picked by the White House, three from the 
Senate, three from the House; and their responsibility, their 
sole responsibility, was to transfer the government from the 
U.S. military to the Philippine Government. And it worked very 
well in that instance. It introduced accountability sector by 
sector, and that's something that we lack very much here.
    Now I'll be back in Iraq in late August, beginning of 
September, and there is still no system of determining how this 
whole process is going, and I think we need that process here. 
If Congress and the GAO are going to do our jobs in terms of 
tracking progress or lack of progress or at least informing the 
American people what's going on, we have to have a system in 
place to do that. It is not there right now. We don't have 
transparency.
    I can't tell you exactly how we're progressing over there 
with any of the areas of government control. I'm not an expert 
on military issues, but I think every Member of Congress is 
somewhat of an expert on politics. I know from being in Iraq 
and listening to the Iraqi people they are not much different 
from the American people in this sense, they elected their 
leaders back in December, they elected a parliament, a 
President, Prime Minister, but still for all these basic 
services they've got to go to the U.S. military to get some 
action.
    I know what my constituents would do if they elected me and 
I did nothing for them. I know what my constituents would do. 
They would regard me as a puppet government or someone who is 
just a shield. And the Iraqi people are going to draw that 
conclusion at some point in this whole process. So if we want 
to do the right thing for the Iraqi people, we shift the 
responsibility to the Iraqis for a lot of this stuff.
    I think one failure in the President's thinking is there is 
going to be this moment of peace and quiet in Iraq where he can 
do this transition. Not going to happen. Not in any stretch of 
the imagination. So we need you.
    Now I have actually drafted a bill on this. It's called the 
Iraqi Transition Act, which creates--it's not original. I took 
the example that FDR and the Congress in 1944 set up. It's not 
my idea, it was theirs, and it worked. But we need something 
like this to put us on a track where we have accountability so 
we can measure progress or lack of progress. We have to have a 
plan.
    Mr. Shays. Thank you very much.
    Mr. Sanders, you have the floor.
    Mr. Sanders. Let me concur with much of what Mr. Lynch just 
said.
    Mr. Walker, if I could, in your report, you discuss a poll 
done in March 2006 of Iraqi citizens; and your report states, 
and I quote, that the poll indicated that a majority thought 
Iraq was heading in the wrong direction and growing numbers of 
people believe that the security situation, the provision of 
electricity and corruption have worsened. And later you 
indicate that--your report says bluntly, quote, essential 
services have not been restored to pre-war levels, undermining 
efforts to improve the lives of the Iraqi people.
    If you could, could you elaborate on your sense of how the 
Iraqi people perceive their reality? The President of the 
United States seems to think that every time there is a 
negative report that it's the media's fault. The media is not 
telling us the truth about all of the wonderful things 
happening in Iraq. But it seems that the people of Iraq do not 
perceive all of the wonderful things that are happening there 
as well.
    What is your perception of how the Iraqi people themselves 
feel about how things are going with regard to essential 
services and other aspects which impact their day-to-day lives?
    Mr. Walker. Mr. Sanders, based upon my trips to Iraq and 
the work that our teams have done, including their visits to 
Iraq, my view is that the Iraqi people care about basically the 
same type of things that most Americans care about. They want 
safe streets, good jobs. They want reliable electricity, safe 
water. They want the trash picked up. They want education and 
health care, the basic things.
    When you look at the statistics, while we have made 
progress on a number of fronts, with the sole exception of 
electric generation, which for the first time within the last 
month has now reached and exceeded pre-war levels, for the most 
part in many of these other areas we're below pre-war levels; 
and that doesn't go unnoticed by the Iraqi people.
    Candidly, in many ways I think we're asking the military to 
do too much; and that's why I come back and reinforce what I 
said in my opening statement. We need better metrics, we need 
better milestones, we need more transparency, and both the 
United States and the international community--and I underline 
``and the international community''--can and should be doing 
more to help the Iraqis help themselves deliver these types of 
needs to the Iraqi people.
    These are nonmilitary. These are the need for civilian 
experts. And, quite frankly, the U.N. and many other countries 
have experts that can add a tremendous value here, but they 
haven't been forthcoming.
    Mr. Sanders. Mr. Walker, if I could just change the subject 
just a hair; and that is, earlier, in response to a question, 
you spoke about massive corruption with regard to oil 
production and distribution. I would like you to say a word 
with regard to what is going on in terms of reconstruction of 
Iraq in terms of the kinds of buildings and improvement in 
sewers, water, schools and hospitals, all these other things 
that we want to see.
    I would suggest that, regardless of one's opinion on the 
war, and I strongly oppose the war, that the American people 
who are putting billions and billions, hundreds of billions of 
dollars into Iraq at least want to see an Iraqi infrastructure 
created where the kids can go to school, where people can drink 
clean water and so forth and have the other amenities of life 
that you indicated the Iraqi people want just as much as the 
people in America want.
    Now what is the level of incompetence, of abuse, of waste? 
I read somewhere that some $9 billion was unaccounted for in 
terms of Iraqi reconstruction. Can you say a word on that?
    Mr. Walker. Well, several things. One, when you have an 
unstable security environment, it impedes your ability to 
reconstruct as well as to maintain what has been reconstructed.
    Second, the Iraqis have limited capability to maintain 
certain technologically advanced facilities, whether electric 
generation facilities or water treatment plants. That has been 
a problem.
    Third, in some of the planning that has been done, the 
planning for reconstruction activities has been somewhat 
flawed. For example, there is a well-publicized example of 
where we were going to build 100 to 200 health care facilities, 
clinics if you will, and that rather than trying to build 10 
here and seeing how it goes and then 10 there, there was an 
effort undertaken to start virtually all of them at once to 
where very few got completed before the money ran out.
    So there are a number of planning problems, there are a 
number of mismanagement problems, but the security situation as 
well as the relative inability of the Iraqis to maintain 
certain more advanced facilities is very problematic.
    Mr. Sanders. No one would disagree with you that the 
security situation will make construction very, very difficult, 
and reconstruction. But, on the other hand, there should not be 
billions of dollars unaccounted for in the process. The 
American people want to make sure that when we invest in 
rebuilding Iraq, we know where that money is going. Can you 
speak a little bit about billions of dollars which presumably 
have not been accounted for?
    Mr. Walker. What I would ask, Mr. Sanders, and I would 
suggest to the chairman for his consideration as he deems 
appropriate, is that not only will I provide the information 
that we talked about before but I think it would be productive 
for this subcommittee, to the extent the chairman believes it 
would be prudent, to consider having a hearing where myself, 
the Special Inspector General for Iraq for reconstruction and 
possibly others might come before this subcommittee to talk 
specifically about construction activities.
    Mr. Sanders. OK.
    I would yield back, Mr. Chairman. Thank you.
    Mr. Shays. Thank you. We will be happy to pursue that 
suggestion because I think it makes a lot of sense.
    I'm going to give myself time now to ask questions and 
say----
    Mr. Burton. When you get a chance, I would like to make a 
comment.
    Mr. Shays. I would be happy to have the gentleman from 
Indiana have the floor.
    Mr. Burton. I have great respect for everybody who's spoken 
recently, my friends from Massachusetts and Vermont. But, you 
know, when we start talking about history and talking about the 
Philippines and how things were done so much better then, 
Germany wasn't mentioned after World War II and neither was 
Japan. There was an awful lot of wasted money then. We had 
military control over both Japan and Germany for a long period 
of time, and it's always a work in progress.
    Obviously, there are shortcomings in Iraq in turning the 
governmental control over to the Iraqis and making sure it's a 
secure environment. If you go back to Germany after World War 
II, there was all kinds of terrorist activity in Germany, in 
several parts of Germany by those who still supported the Nazi 
philosophy.
    So it's not an easy task. I'm not making excuses for some 
of the shortcomings, but I think we ought to realize that this 
is a very difficult task. We are talking about fighting a war 
against terrorism, the headquarters of which or the head of it 
is in the Middle East; and one of the things that we have to 
consider, in my opinion, is making sure that they don't have an 
operational headquarters from which to expand their terrorist 
network around the world. And if we don't handle things 
properly in Iraq, if we don't stick to our guns over there, if 
we don't win the peace, so to speak, then I think that there's 
going to be a vacuum created and al Qaeda and the Taliban and 
all the others will see that as an opportunity to expand this 
sphere of influence and go in there and fill that vacuum and 
there will be a headquarters, if you will, from which they can 
operate worldwide.
    I think this is a very, very integral part of the war 
against terrorism and I think our troops are doing a 
magnificent job. As the gentleman from Dallas said, there are 
some management problems, there are areas where I'm sure money 
is wasted, and that has to be corrected, and there needs to be 
accountability.
    As far as transparency is concerned, I think the 
administration is trying to be as transparent as possible. I 
don't see them hiding anything.
    When we start talking about history, I'd urge my colleagues 
to look at what happened in Germany and Japan after World War 
II when we were fighting the Nazis. It was extremely important 
that we take over those countries until they had a viable 
governmental structure established, which we did establish, and 
once it was established then we turned over control to them, 
and it's worked out pretty well.
    I think it will work out just as well in Iraq, but we have 
to stick to our guns, in my opinion. And it's extremely 
important in this day and age, especially in view of the fact 
that there is a worldwide war against terror, that terrorists 
have attacked the United States, attacked Spain, they've 
attacked England, they've attacked all over the place, and 
Indonesia, Bali they attacked. We have to be ready and willing 
to stay the course, and that course may take some time. Iraq is 
one of the major focal points, and I hope my colleagues on the 
other side of the aisle will realize that this is something 
that we can't back away from, even though I agree with you 
there's a lot of shortcomings.
    I yield back.
    Mr. Shays. I would like to have the gentleman yield me 
time.
    Mr. Burton. I'll be happy to yield.
    Mr. Shays. I'll say we didn't hit the clock right away, so 
I'll take 2 minutes off his time. Let me start out by my 
question. Then I'll take my own time.
    Mr. Comptroller General, Mr. Walker, we really appreciate 
the work you do; and I am, frankly, one of your biggest fans. I 
am eager, though, to--I feel that you have pointed out areas to 
which you disagreed with the strategy to which it had not met 
the expectations. I have heard very little positive comments so 
I am drawn to conclude that basically you're pretty unhappy, 
that it's not a good plan, not a good strategy. That's the way 
you have come across.
    If that's the way you choose to come across, then that's 
the way it should be. But you have been extraordinarily 
negative, in my judgment, without pointing out any positives; 
and I need to know if you just see it as a dark side and there 
is no positives.
    Mr. Walker. Absolutely not. Can I clarify, Mr. Chairman?
    Mr. Shays. I would love you to, because you're on record.
    Mr. Walker. You have to keep in mind I have to respond to 
the questions that I'm asked. I do try to respond to them.
    First, I tried to make it very clear at the outset that 
this new plan is clearly superior to the last version. I tried 
to make clear that this new plan addresses three of the key 
elements that we believe need to be addressed in an effective 
national strategy reasonably well.
    Mr. Shays. Which are?
    Mr. Walker. Those three are: It states a clear purpose; 
second, it addresses the key threats and risk; and, three, it 
helps to define the desired political, security and economic 
objectives that we're trying to achieve.
    Mr. Burton. Mr. Chairman, if I might interject, just 
reclaim a few seconds of my time. I understand that this is a 
political season and there is political issues at stake, and 
you just raised the issue of the Comptroller General being 
very, very negative. I hope this is not because of 
partisanship, Mr. Comptroller. You were appointed, I 
understand, by--who were you appointed by?
    Mr. Walker. I was recommended by the Republican Congress 
and appointed by President Clinton, confirmed by the Senate.
    Mr. Burton. You were recommended by President Clinton?
    Mr. Walker. I was recommended by the Republican Congress, 
nominated by President Clinton, and confirmed by the Senate.
    Mr. Burton. Nominated by President Clinton.
    Mr. Walker. I'm also a Reagan and Bush 41 Presidential 
appointee.
    Mr. Burton. I hope this is not an indication of a political 
vendetta.
    Mr. Walker. Absolutely not, Mr. Burton. I call it as I see 
it, nonpartisan, nonideological. I think there are a lot of 
things that have gone well, but there are some serious 
challenges, too.
    Mr. Burton. Thank you very much.
    Mr. Walker. We're trying to be balanced.
    Mr. Shays. The gentleman's time has expired, and I will 
take my 6 minutes.
    I want to pursue the line of questioning that I began. The 
bottom line to your answer is there are three parts to the 
strategy that you agree with and three that you disagree, is 
that correct?
    Mr. Walker. It's not agree or disagree, Mr. Chairman. This 
is very important. We are basically saying that, based upon our 
work, that there are six elements of a strategy that need to be 
in place in order to maximize the chance that it will be 
successful.
    Mr. Shays. Hold on a second. Let me understand. Under what 
basis do you decide the six? Is it from a textbook, general 
practices? I just want to understand.
    Mr. Walker. It's based upon past experience, best 
practices, looking at what has been done in the past.
    I issued a separate report on that, Mr. Chairman, I might 
add.
    Mr. Shays. What are the six best practices that you would 
say have to be in every strategy?
    Mr. Walker. Again, I will give you a summary. I'll be happy 
to provide a copy of the report which was issued previously.
    First, that there needs to be a clearer purpose.
    No. 2----
    Mr. Shays. The strategy meets that.
    Mr. Walker. Second, it needs to address all major threats 
and risks.
    Mr. Shays. Does the strategy meet that?
    Mr. Walker. No. 3----
    Mr. Shays. Mr. Walker, I want you to take each one of those 
principles and then delineate whether the strategy meets it or 
not.
    Mr. Walker. All right. With regard to staying a clear 
purpose, the answer is yes. With regard to addressing key 
threats and risk, the answer is yes. With regard to discussing 
desired key objectives, namely political, security and 
economic, the answer is yes.
    I would footnote that by saying we think there needs to be 
additional detailed metrics and milestones and more 
transparency over those, as some Members have noted.
    Mr. Shays. Let me pursue that. It is your point that you 
want this committee to know that we don't have a way to 
evaluate success or failure of the strategy, is that correct?
    Mr. Walker. That's correct. There's not enough adequate 
information available to the Congress in order to effectively 
address in a timely manner what is going well----
    Mr. Shays. I understand that.
    Mr. Walker [continuing]. Where we had a plan and where we 
are having problems.
    Mr. Shays. Now take me to the third, fourth and fifth and 
tell me why those are an integral part of any plan.
    Mr. Walker. OK. So the first three we're saying they have 
it in their entirety or substantially. The next three we're 
saying they have addressed it but not adequately and there are 
significant gaps that we think need to be addressed.
    The first one, which is No. 4, that it does not adequately 
identify which specific departments and agencies of the U.S. 
Government are responsible for each of the key elements. In 
some cases, it does; in other cases, it does not.
    The fifth element is how do the U.S. goals interrelate and 
how can they be integrated with the goals of the Iraqi 
Government and with the efforts of the international community.
    So we are laying out our plan, we're saying here is what 
the desired outcomes are, but the need to try to integrate that 
with what the Iraqis are doing and hopefully what we can get 
the international community to do more of, which is to try to 
help make this a successful situation.
    And then, last, there is not enough information on what the 
estimated cost of achieving these objectives will be and what 
the funding sources are likely to be for those costs. And one 
of the functions of that is not only how much but to calculate 
how much, how long.
    Mr. Shays. Thank you.
    I want to be on record as saying that I have no question 
about your presentation and the authenticity of it and the 
value of it. I just want to be on record with you. You have a 
lot of credibility with me.
    What I now wrestle with is, in my 12 visits to Iraq, four 
times outside the umbrella of the military, if I asked one 
Iraqi after another Iraqi after another what is their biggest 
fear, it's this, that you will leave us. And then some say that 
you will leave us before we can take hold of democracy, like 
your country has, or that you will leave us like you did in 
Vietnam.
    And it's true there is a poll that says 60 percent want us 
to leave and 60 percent want us to stay, but it does add up. 
They want us to leave but not until--we abolished their army, 
we abolished their police, we abolished their border patrol. It 
would, in my judgment, be an outrage to leave before we replace 
them, at the very least. To leave them without their own 
police, without their own border patrol, without their own army 
to me is inexcusable.
    It is not your testimony, is it or not, that we need to 
leave?
    Mr. Walker. That is not my testimony. What my testimony is, 
we're in there. A lot of people agree or disagree as to whether 
or not we should have gone in, but we're in, and if we want to 
be successful, what is it going to take in order to be 
successful. What I'm testifying is, based upon our work, what 
do we think the key elements need to be in order to maximize 
the chance of success? It is in all of our interest as well as 
the Iraqis in the international community to be successful. 
That goes without saying.
    Mr. Shays. Thank you very much for your testimony.
    We will adjourn this panel, and we will start with the 
second panel. We will have a 2-minute break. Thank you very 
much for your time. Thank you very much, Mr. Christoff.
    [Recess.]
    Mr. Shays. Calling this hearing to order and to welcome our 
second panelists at 5 of 5 p.m. We have Mrs. Mary Beth Long, 
Principal Deputy Assistant of Defense for International 
Security, a very knowledgeable person on Iraq and Iran, as are 
our other two witnesses, Ambassador James Jeffrey, Senior 
Advisor on Iraq to the Secretary of State and Principal Deputy 
Assistant Secretary of State for the Middle East, Department of 
State. And also I think you were in Iraq, Mr. Ambassador, for 
13 months.
    Mr. Jeffrey. That is correct, sir.
    Mr. Shays. We have Brigadier General Michael Jones, Deputy 
Director for Political Military Affairs, Joint Chiefs of Staff; 
and I believe you have had experience in Iraq as well is that 
right, sir?
    General Jones. Yes, I did, Mr. Chairman.
    Mr. Shays. We welcome all three of you.
    As you know, we swear in our witnesses. There's only one 
person who ever has not been sworn in while I have been the 
chairman in my 12 years, and that was Senator Byrd. If you'd 
rise. I chickened out.
    [Witnesses sworn.]
    Mr. Shays. I would note for the record our witnesses 
responded affirmatively.
    We will start with you, I think, Ms. Long.
    Excuse me, I think we will go with you Ambassador Jeffrey. 
You will be starting this testimony. I usually move up the 
line, but we are starting in the middle here. Then we will go 
to you, Ms. Long and then to you, General.
    But what I want to say is that I really appreciate your 
presence. I think that this will be very helpful to the 
knowledge of Congress, certainly be helpful to me, and I think 
ultimately to the American people. So it's wonderful to have 
you here.
    Mr. Ambassador, you have the floor.

STATEMENTS OF AMBASSADOR JAMES JEFFREY, SENIOR ADVISOR ON IRAQ 
   TO THE SECRETARY OF STATE AND PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY OF STATE FOR THE MIDDLE EAST, DEPARTMENT OF STATE; 
  MARY BETH LONG, REPRESENTATIVE, DEPARTMENT OF DEFENSE; AND 
BRIGADIER GENERAL MICHAEL JONES, DEPUTY DIRECTOR FOR POLITICAL 
            MILITARY AFFAIRS, JOINT CHIEFS OF STAFF

                   STATEMENT OF JAMES JEFFREY

    Mr. Jeffrey. Thank you very much. Mr. Chairman, Mr. 
Kucinich, members of the subcommittee, it is an honor to be 
here today with you and a great honor to talk about a crucial 
issue in our entire foreign policy in Iraq.
    Let me begin by addressing the subcommittee's query about 
the relationship between the President's national strategy for 
victory in Iraq and the decisions announced following the June 
Camp David principals meeting and the President's visit to 
Baghdad.
    The November 2005 national strategy laid out in 
comprehensive detail the President's program for victory at the 
strategic level. The document begins by describing victory in 
Iraq as a process that will come in stages, with an end state 
of an Iraq ``peaceful, united, stable and secure, while 
integrated into the international community, and a full partner 
in the global war against terrorism.'' To achieve that, the 
document lays out policies on three core tracks, the political, 
the economic, and the security.
    On June 13th, on the concluding of a meeting on the NSC 
principals in Iraq, which also included the President's trip to 
Iraq and extensive contact with senior-ranking officials, the 
White House released a fact sheet on the Camp David meetings 
and certain steps that would be taken to carry out the 
discussions.
    The Camp David meetings took place in response to a number 
of operational developments on the ground since the November 
release of the national strategy. These include such positive 
events as the formation of a broad national government in Iraq 
based upon record voter turnout in December; rapid stand-up of 
Iraqi security forces; achievements in infrastructure despite 
insurgent efforts, including an increase in both electrical 
generation above last year, as we just heard, and oil exports 
reaching levels close to the IMF 2006 target; as well as the 
killing of al Qaeda in Iraq leader al-Zarqawi. The meeting also 
came in the wake of less positive developments including 
sustained high levels of insurgent attacks and a marked 
increase in sectarian violence and strife.
    The decisions taken in June do not represent any deviation, 
modification or replacement of the November national strategy. 
Rather, that national strategy outlines in a comprehensive and 
unclassified form our strategy for victory in Iraq.
    The Camp David fact sheet discusses our present-day tactics 
and actions as updated following the stand-up of a new unity 
government in order to carry out our strategy and reach our 
strategic goals. There is no inconsistency between the two 
documents. They are complementary and part and parcel of a 
comprehensive plan for achieving success.
    The meetings in June also focused on building civilian 
capacity, improving U.S. plans to support a rule of law 
initiative with the Iraqis, and reaching out to the 
international community in order to support the reconciliation 
program announced subsequent to this meeting by Prime Minister 
Maliki. One such initiative is an Arab League meeting scheduled 
in early August to be held in Baghdad. On the economic track, 
Prime Minister Maliki discussed his policy of national 
revitalization.
    The President, in turn, as you have mentioned, Mr. 
Chairman, has announced a series of actions by the Department 
of Treasury and visits by several of our secretaries to support 
the economic wing of our strategy. In support of the national 
strategy's core assumption, ``Iraq needs and can receive the 
support of the region and the international community to 
solidify its successes.''
    The President welcomed Prime Minister al-Maliki's approach 
to international organizations to take the lead with his 
government in developing a compact between the international 
community and the Iraqi Government and people. The President 
designated Deputy Secretary of Treasury Robert Kimmitt and 
Department of State Counselor Philip Zelikow to lead the U.S. 
effort in support of this initiative.
    Since that time Prime Minister Maliki has publicly appealed 
to the United Nations, and Secretary General Kofi Annan has 
responded very positively, and we are moving forward with a 
meeting now scheduled for July 20th in Baghdad with 
international participation.
    In sum, sir, we see the work plan emerging from the Camp 
David meetings as a critical roadmap to organize our assistance 
to the Iraqi Government and to appeal to the international 
community in the coming months. We are heartened by the rapid 
decisive decisions taken by the al-Maliki government. We are 
impressed by the courage shown by the Iraqis, beginning with 
their political leaders and their security forces, and we are 
ever more committed to seeing this endeavor, so critical to the 
security of all of us, through to its victorious conclusion.
    What I would like to do now is make a few comments in 
response to the Comptroller General. First of all, we 
appreciate his efforts. There's a lot of work in there, and we 
agree with a great deal of that. What I will assure the members 
of the subcommittee is that we will take very seriously all of 
the points and of the recommendations. I would like to make 
several comments on those points where he found us less than 
fully satisfactory.
    First of all, in terms of the organization of our strategy, 
we have two documents, National Security Decision Document 36 
that came out in May 2004, and our national strategy for 
supporting Iraq, which came out in April 2005, both of which 
laid out in great detail the specific responsibilities of the 
embassy, of the Department of State, of the Department of 
Defense, of the U.S. military command in Iraq, and of the 
interagency process in great detail. We have been following 
that template for 2 years, and we believe we have a very smooth 
and functional interagency process to do that.
    Second, on resources, the Comptroller General is correct 
that you can't predict into the future. What we do owe the 
American people and the Congress is an effort to take our 
resources and to track it with a strategy.
    For our fiscal year 2006 supplemental for Iraq and for our 
fiscal year 2007 program for Iraq, we produced as part of the 
budget process this pamphlet that I would also like to 
introduce into the record, Advancing the President's national 
strategy for victory in Iraq.
    In it we spelled out our assistance requirements along the 
three tracks, security, economic and political; spelling out 
how much money we would put into, for example, securing 
infrastructure, how much money we would put into working in the 
field to support our military forces, how much money we will 
put into human rights, into democracy programs and into 
building up ministries.
    So we are trying, to the best of our ability, into the 
future as we can see it, to adhere to this model that was 
revealed in the victory in Iraq strategy in our budget as well.
    Last, in terms of the criticism that we need to work with 
the Iraqi Government, we couldn't agree more, Mr. Chairman. The 
problem is we haven't had an Iraqi Government that is permanent 
until just a few months ago. We have had an interim government 
and a transitional government up until the elections, and then 
a period interregnum until the Maliki government could come 
into place basically at the end of May.
    As soon as they did come in place, the United States and 
Iraq together organized the June meeting to do exactly what the 
Comptroller General has asked us to do, sit down with the 
Iraqis and hear their plans, coordinate their efforts, 
including how they are going to spend, as was briefed earlier, 
the $6 billion in capital funds that they will have, we 
believe, in their budget this year. This will allow us to 
adjust our own requirements.
    Sir, that is all I have at this point, but I would like to 
turn it over to the Defense Department, Mary Beth Long, to make 
a few additions.
    Mr. Shays. Thank you, Ambassador.
    [The prepared statement of Mr. Jeffrey follows:]

    [GRAPHIC] [TIFF OMITTED] T4545.039
    
    [GRAPHIC] [TIFF OMITTED] T4545.040
    
    [GRAPHIC] [TIFF OMITTED] T4545.041
    
    Mr. Shays. Ms. Long.

                  STATEMENT OF MARY BETH LONG

    Ms. Long. Thank you very much, Mr. Chairman, and members of 
the subcommittee. I would like to thank you for the opportunity 
of the Defense Department to be here today. I would like to 
incorporate and concur with Ambassador Jeffrey's statement and 
adopt it to the extent--both verbal and written.
    In addition, I would like to clarify just a few points, the 
first being that the written report of the Comptroller is very 
interesting, and, like our sister agency, the Department of 
State, we also will look at it very carefully in order to take 
the suggestions and recommendations that are provided.
    We do think it's important to point out that to the extent 
that the report criticizes the national strategy for victory in 
Iraq, it may mischaracterize or misunderstand the reason for 
that document, which is stated on page 9. That document was 
designed to lay out the framework for the American public in 
order for them to become familiar with the goals, the 
strategies, and the way that the government is organized in 
order to achieve their victory in Iraq.
    I also would like to talk for just a moment about three of 
the recommendations made by the GAO report, and those three 
actually are are recommendations that members of the various 
committees and working groups that work within the framework of 
the national security and the national strategies on Iraq are 
working with, and those recommendations were to develop a 
security strategy for the Iraq National Police and the Iraq 
National Army to develop those capabilities. Those are 
certainly efforts that fall both within the strategies and the 
implementation aspects of the plans.
    The second were to deal with the capabilities of the Iraqi 
Government and the provinces and the districts. Again, this is 
the subject of considerable discussion and work by both the 
United States and Iraqi Governments that is ongoing and is part 
of the implementation documents as part of the strategy that 
are contemplated by the plans reviewed by the GAO.
    And, finally, dealing with the problems of corruption and 
accountability. As many of you might know, there are initial 
efforts to get inspectors general within the militaries of the 
Iraqi and other security forces constructs, and the subject of 
corruption and accountability have been dealt with, and we are 
continuing to deal with them, and we will have to as we move 
forward. But they are certainly not issues about which we are 
unfamiliar.
    Finally, as to the Camp David fact sheet, I would like to 
point out that elements of the security tract were addressed at 
Camp David not only by members of the U.S. Security Strategy 
Team, but by those who were participating from the U.S. 
Government as well as conversations between the President and 
Prime Minister Maliki.
    For example, Prime Minister Maliki has made security in 
Baghdad one of his top priorities, and discussions ensued 
regarding the militia and how to get security in other 
important cities including Ramadi and Baghdad improved over 
time, and mechanisms for United States and coalition forces to 
work more closely with Iraqi National Police and other forces 
in order to accomplish that.
    The other issues that were discussed were the priorities 
and the plans by the new Minister of Defense and the Minister 
of Interior, who were newly appointed in Iraq. There was 
considerable discussion of the priorities, implementations and 
ways ahead for our governments to work very closely on 
implementing those strategies.
    With that, I would like to, I think, thank you again for 
the opportunity. I look forward to your questions, and I will 
turn to my colleague Brigadier General Michael Jones.
    Mr. Shays. I think that you, general, you have the floor. 
Thank you, Ms. Long.

                   STATEMENT OF MICHAEL JONES

    General Jones. Mr. Chairman, Representative Kucinich, 
members of the subcommittee, in the interest of time, I would 
like to thank you for the opportunity to testify and thank you 
for your continued support of our men and women in uniform.
    With that, I look forward to answering your questions.
    Mr. Shays. Could I just give you an opportunity to at least 
make some statement about the previous statement of the 
previous panel before we start to ask questions? Rather than 
our taking time to pursue it, just respond where you agree or 
disagree with the previous panel.
    General Jones. Yes, Mr. Chairman. I agree with Ambassador 
Jeffrey's comments and also Ms. Long's comments.
    Mr. Shays. Mr. Marchant.
    Mr. Marchant. Thank you, Mr. Chairman. This question will 
be for the Ambassador, Mr. Jeffrey.
    Tell us about any talks that are either ongoing or you have 
been approached about by the insurgents on issues that it would 
take about--what issues it would take to begin a stepdown or a 
deescalation of the insurgency's attacks, and will it take a 
total implementation of the reconciliation plan to bring that 
escalation of insurgent attacks to the table? Is there a very 
narrow set of circumstances? Is there a priority list that 
seems to be surfacing as far as the issues that have to be 
addressed first before there will be some decrease of the 
attacks and some backing away from that?
    Ms. Long, if you have an answer for that as well, I would 
be happy to hear it.
    Mr. Jeffrey. Thank you very much, Mr. Marchant. We are very 
aware that there has to be an end to any conflict, and this 
requires some form of conciliation, some form of reaching out 
to those parties that are willing to participate peacefully in 
the new Iraq. Among the insurgent groups--and I have to 
underline that these are very disparate, very--not very 
centralized groups of insurgents, that's this insurgency, it 
doesn't have any command and control.
    Among them there are groups who have reached out to the 
Iraqi Government all the time, who reach out to our military 
personnel in the field, who reach out to people at the embassy 
from time to time as well, trying to see on the basis of which 
there could be cease-fires or there could be a permanent end to 
the conflict.
    We welcome this with several conditions. First of all, this 
has to be with the leadership and the total knowledge of the 
Iraqi Government, because they have to take the decisions. 
Second, people have to be willing to renounce violence, and 
they have to submit themselves to the will of the Iraqi people 
under the democratic government that they set up. So far we 
haven't proceeded very far in these insurgent talks.
    We did see some willingness of insurgent groups, for 
example, not to attack polling stations and to--I won't say 
cooperate, but certainly not to try to undercut the voting back 
in December. We have seen groups that have ceased fighting for 
periods of time.
    We are trying to build on that, as you mentioned, with the 
reconciliation plan that was announced by the Prime Minister. 
This is based on what many of these groups and what people 
close to these groups have told us, the need for some kind of 
amnesty, the need to relook at re-Baathification--de-
Baathification, for example, as some people see as an attempt 
to undercut Sunnis from all walks of life who simply were 
forced to join the party, who were teachers or doctors or that 
kind of thing. Frankly, they have a point.
    We are also looking at the need to get militias under 
control. There is a great deal of sectarian violence, 
particularly in Baghdad and the areas surrounding that. They 
are very concerned with that.
    They are concerned about the presence of coalition forces. 
I would say that as was mentioned earlier today, that is 
something that people mention all of the time. But then when we 
do polls and say how intently, how intensely do you focus on 
that, we get something like, as the first choice of what is the 
biggest problem in Iraq, only 9 percent of the Iraqis say the 
presence of coalition forces. So it is almost writ--basically a 
traditional thing to be opposed to foreign forces.
    What they are opposed to is bad security, as the chairman 
said, and they are very concerned about us leaving before the 
security is under control. We are seeing, as al-Khalilzad has 
worked to achieve, more willingness on the part of the Sunnis 
to see us as part of the solution. So we are working on this, 
but it is slow-going, sir.
    Mr. Marchant. Thank you.
    Ms. Long.
    Ms. Long. I would actually have very little to add other 
than I think it's important that the Iraqis will make the 
decision, and it's really too early to know. One of the reasons 
it's too early to know is we often refer to the authors of 
violence, sort of an insurgent's term, just as a general 
category. But actually it's much more complicated than that.
    There are at least--the terrorists who are al Qaedists, who 
have a certain agenda. There are, of course, the rejectionists, 
who are rejecting the viability and the authorship of the true 
and free democratic Iraq. There are the Saddamists who are 
actually looking for a retention of power, or a usurpation of 
power from one particular sectarian group or another. There are 
very different groups, all of which have a different agenda and 
are looking for something slightly different in their 
reconciliation.
    It will be a masterful, masterful stroke of the Iraqi 
Government and our Ambassador, Ambassador Khalilzad, and the 
international community to be able to reconcile these various 
groups in the next few groups or years. But I am confident 
that, given the momentum we have established, that will be the 
case.
    Mr. Marchant. Thank you, Mr. Chairman.
    Mr. Shays. Thank you.
    Mr. Kucinich, you have the floor for 10 minutes or more.
    Mr. Kucinich. Thank you, Mr. Chairman. I would like to 
start with questions to General Jones.
    Welcome. Thank you for your service to our country.
    The American people have been told that as Iraqis stand up, 
we will stand down. Is there any reason to think that the 
Iraqis will be able to provide their own security for their own 
people in the near future?
    General Jones. Sir, I think we have had this discussion 
where we have tried to define what near future is. We 
increasingly see Iraqis taking responsibility.
    Mr. Kucinich. Five years?
    General Jones. In 5 years, I believe so.
    Mr. Kucinich. How many Iraqi battalions are there right 
now; do you know?
    General Jones. Sir, I think I have a chart. If we could go 
ahead and put that chart up--that talks about the number of 
Iraqi battalions we currently have in control of their own 
sectors.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T4545.042
    
    [GRAPHIC] [TIFF OMITTED] T4545.043
    
    General Jones. I believe that number today is 75 that are 
in control of their own sectors.
    Mr. Kucinich. How many troops would that be, General?
    General Jones. It's a total of 260,000 or so Iraqi police 
forces and Iraqi Army soldiers.
    Mr. Kucinich. Now, in 2005, the Iraqi Army nominally had 
about 115 battalions; is that correct?
    General Jones. Yes, sir.
    Mr. Kucinich. That would be about 80,000 troops, roughly?
    General Jones. For the army troops, that would be correct, 
sir.
    Mr. Kucinich. OK. Now, I understand that when the Ministry 
of Defense decided to supervise the payment of salaries, about 
a third of the payroll was returned, meaning that people just 
weren't showing up.
    I also understand that one ministry official estimated that 
barely half the nominal army exists, and that just 10 percent 
show up for combat. Is that correct, or is it a little bit 
different?
    General Jones. Sir, first of all, by my experience, that 
would not be correct. I have not ever seen anything to indicate 
that ever. What I would say, early on in the early days, before 
we stood up the forces, I think there was a considerable 
problem in both police and to some degree in the army forces 
that we stood up of what we call ghost soldiers or ghost 
policemen. That is people on the roll, but not present.
    The embedding of what we call the transition teams actually 
has helped put a significant amount of quality control on 
knowing how many soldiers are present in the unit; also 
instituting things like the daily report of accountability of 
soldiers, so that you know how many were signed, how many were 
present for duty and so forth.
    So I think, in terms of the number of these ghost soldiers 
and policemen, you have seen those go down markedly. The Iraqi 
forces also instituted or reviewed--actually go through the 
roles in order to try to ensure that there weren't these kinds 
of ghost folks out there. So I think there has been significant 
change in that.
    Mr. Kucinich. Thank you, General.
    Who in the army keeps track of the records of the weapons 
that are provided by the United States to the Iraqi Army?
    General Jones. I think Minstiki is probably the one source 
that knows what's been issued to whom throughout the period, 
although I think in the early days, when we first started 
standing up these forces, that the accountability for those 
probably is not very firm, because we saw in April 2004 kind of 
a failure of the forces at that point, a lot of desertions and 
so forth. And I believe there's probably a significant loss of 
accountability of those early weapons.
    Mr. Kucinich. Well, I have read that Iraqi defense 
officials have said that the Americans have not provided them 
with records of who has been receiving weapons, and that 
without such controls, soldiers have been selling their weapons 
on the open market. Would that be consistent with your 
understanding of what it was like, say--let's say, a couple of 
years ago?
    General Jones. I would say certainly there have been--
undoubtedly been instances where individual policemen or 
soldiers sold a weapon that was issued to them, I believe 
probably more prevalent in the police forces, because those 
weapons were actually issued to them to be kept by them as 
opposed to the army units where weapons are principally stored 
in arms room. Soldiers draw them to do their duty and then turn 
them in.
    Mr. Kucinich. Is the United States providing the Iraqi Army 
with the most sophisticated weapons rights now?
    General Jones. I think they are providing them--depends on 
your particular favorite weapon. The AK-47 weapon is a favorite 
among many people. Of course, that wouldn't be my--you know, my 
personal preference.
    Mr. Kucinich. Is there a reluctance to provide the most 
sophisticated weapons to the Iraqi Army right now because they 
might be afraid they might be used against the Americans or 
American troops?
    General Jones. No, sir, I am not aware of that being the 
driving factor. I think the driving fact on the choice of 
weapon is what do the Iraqis have experience with in terms of 
operating and maintaining, and also, you know, what is most 
available to rapidly field a force as quickly as possible.
    Mr. Kucinich. Thank you, General.
    I would like to continue to inquire about the hundreds of 
millions of dollars that the United States spent or plans to 
spend on large U.S. military installations in Iraq. I stated 
before I believe there are concrete indicators that this 
administration is planning to have a military presence in Iraq 
for the long term, and, in this case, we can say more than 5 
years, and that these are permanent facilities, permanent.
    First to General Jones, can you enlighten the subcommittee 
on the Pentagon's long-term plans for the bases?
    General Jones. Sir, I can talk about the plans for the 
basing, as I understand it. In terms of long-term security 
relationship, that really hasn't been determined at this point. 
I think the Iraqis clearly are key players as the sovereign 
state that help determine what relationship they want with us 
over the long term.
    In the shorter term, I know that our strategy has been to 
move from the 110 large bases or bases that we had all around 
the country to do two things. One is to start turning over 
bases to Iraqis, and the other is to consolidate forces at 
different bases in order to reduce the total numbers that we 
have.
    Mr. Kucinich. Well, are we spending $57 million at Balad 
Airbase, for example, just to walk away?
    General Jones. I am not sure what the number is, but I 
would say at that airbase, because of the importance it has in 
order to facilitate current operations, it takes a significant 
investment. If you look at the air traffic, it comes and goes 
there, the weather conditions and so forth, that I am sure we 
have made a significant investment there, not designed that I 
am aware of for the long term. The few times I have been up 
there, in terms of the living facilities, all those kinds of 
things, those are clearly not designed for the long term.
    Mr. Kucinich. Swimming pools, fast-food restaurants. Are 
these the kinds of things that go into temporary bases?
    General Jones. I am sorry, sir?
    Mr. Kucinich. When you put up a supermarket or swimming 
pool or fast-food restaurant, do they go into temporary 
facilities as well?
    General Jones. Right. As I recall, the Balad post exchange, 
which is what I think you may be referring to, is in what we 
call a clamshell kind of facility, which is actually a 
temporary facility. But, yes, there's a significant post 
exchange up there, as well as the other major bases where we 
have large concentrations of troops. They are not, to my 
knowledge, intended to be permanent. And my visits to those 
facilities would indicate they wouldn't be over a period of 
years.
    Mr. Kucinich. Thank you.
    To Ms. Long, the GAO report says, and I quote, cost data 
are not included in the strategy. As a result, neither DOD nor 
Congress can reliably determine the costs of the war, nor do 
they have details in how the appropriated funds are being spent 
or historical data useful in considering future funding needs.
    Is that true or false?
    Ms. Long. It's certainly true that the strategy that the 
GAO looked at and the accompanying seven documents did not 
include cost figures, that is correct.
    Mr. Kucinich. How much--can you tell this committee, what 
is the war going to cost?
    Ms. Long. I don't believe anyone could tell you what the 
war is going to cost, sir. But what I can tell you is that 
strategy documents that are outlining the goals and the 
implementation of the President's policies and strategies for 
Iraq probably are not the place where one would go for a 
resource guide. Those are budgetary documents that are 
available elsewhere in the administration.
    Mr. Kucinich. Well, this does say that you do not discuss 
substantial financial and other costs in connection with your 
strategy. Now, are you saying that the cost is decoupled from 
your strategy?
    Ms. Long. No, sir; in fact, I believe that Ambassador 
Jeffrey pointed out that the resourcing requests that were made 
are tied to the strategy and the implementation documentation, 
and, in fact, there's a pamphlet that produces that.
    I also believe, sir, that the Comptroller testified that he 
did not request the cost documentation, that it is available, 
sir.
    Mr. Kucinich. Actually, what it says here is the strategy 
neither identifies the current or future costs of implementing 
the strategy, nor does it identify the source of funding. That 
is in this report. What do you have to say about that?
    Ms. Long. I would say that statement is accurate, and that 
it is not intended to be in the strategy document that the GAO 
looked at; that information is available elsewhere; and that 
GAO, I believe, testified that they did not request it, sir.
    Mr. Kucinich. You just told me that information is 
available elsewhere, but a second ago, you just told me that 
you can't estimate the cost of the war.
    Now, do you have documents, you know, anywhere in the 
Department of Defense that estimates the cost of the war over a 
long period of time?
    Ms. Long. I would take that back, sir. It is my 
understanding that the Comptroller from DOD is coming to 
testify before this subcommittee in 2 weeks, and I would 
suggest that we have that information for you to be sent as it 
is available for that hearing, sir.
    Mr. Kucinich. So you are saying there is information 
available, or there is not?
    Ms. Long. I am saying, sir, I am unable to provide that 
information, and I will take your question back.
    Mr. Kucinich. There's been a little bit of circumlocution.
    Mr. Shays. If the gentleman will suspend, we will be having 
a hearing next week on the total cost of fighting the war on 
terror, which will include Iraq, and we have specifically 
requested--so the gentleman will be able to pursue this 
information. I am going to give him a little more time to just 
make his point.
    But we specifically, in part because of your request, are 
going to have that hearing, and I think it will be very 
interesting, about the cost, about the cost.
    Mr. Kucinich. Yes, Mr. Chairman. You know, we are looking 
at this report, which came kind of late to members of the 
committee.
    Mr. Shays. That's the GAO report.
    Mr. Kucinich. Right. That's the report I am talking about. 
When it talks about a national strategy for victory, whatever 
that is, when you can't get into the cost, then you decouple 
strategy from things like infrastructure, reforming the 
economy, building Iraq's capacity, maintaining infrastructure, 
international, economic community and all those things, you 
know.
    This may be way above your pay grade, Ms. Long, but I am 
just going to tell you that your responses, while I am grateful 
that you are here, have not really met the challenge that the 
Comptroller raised in his document.
    Mr. Chairman, I thank you.
    Mr. Shays. Thank you.
    Let me just say that I think that the Comptroller was 
saying that he would like the strategy to include the issue of 
cost, and that is his opinion, and I would like to get into 
that issue with you as to whether it should or should not when 
my chance comes.
    Mr. Kucinich. Mr. Chairman, I want to thank you, but I want 
to point out again, this document--I want to point out that 
this document came to members of the committee, we got it right 
here. When I read this, some of the things that I read were, at 
a very instance--in terms of testimony that I heard would have 
been helpful to have had it earlier.
    Mr. Shays. Let me explain, the hearing that we had, the 
GAO, the GAO came out with their finding today, and that is one 
reason why we invited the Comptroller to come. So they released 
it today. That is why you are seeing it today. It is not DOD or 
State Department's issue.
    Mr. Kucinich. Right. I understand that. I thank you. I 
thank the witness.
    Mr. Shays. But we will use this document to dialog next 
week as well.
    The Chair would recognize the gentleman from Philadelphia--
I mean, from Pennsylvania rather, excuse me.
    Mr. Platts. Central Pennsylvania, the beautiful part, York, 
Gettysburg and Carlisle.
    Thank you, Mr. Chairman, for hosting this hearing on very 
important issues that we are discussing. I want to thank our 
panelists for your testimony here today, as well as your 
service to our Nation in all three of your capacities. We 
certainly are a grateful Nation for the job you and your 
colleagues are doing.
    Ambassador Jeffrey, it is good to see you again here 
stateside, having had the privilege of visiting our troops and 
other personnel, including yourself in Iraq, on four 
occasions--I think three of those four I had the pleasure of 
being able to meet with you. In fact, I think you were part of 
a lunch meeting with a number of us Members about 2\1/2\ years 
ago, where we met with Iraqi women leaders. And that lunch 
meeting has long stayed with me, the message I came across, and 
the issue of our presence in Iraq. And especially when I see 
polls cited that 80 percent of the Iraqis want us out of Iraq, 
and it's always, well, what do they mean by that?
    In that lunch meeting, the Iraqi women leaders, some 
government and nongovernment, said, we can't wait for you and 
all of the coalition forces to go home; and then went on to 
say, but we are very glad you are here.
    No country wants to have to rely on the assistance of 
others, but they appreciate the assistance that our military or 
Department of State and other agency officials are doing in 
having liberated them from a tyrant and giving them the hope 
and opportunity of democracy that we so wonderfully are blessed 
with. So I appreciate all of your work.
    A couple of issues. I apologize with being back and forth 
with other commitments today. I don't think I am repeating the 
other questions that were asked. But on the issue of national 
reconciliation and the 24-point plan that the Prime Minister 
laid out, and then President Bush touched on in his statement 
in June, one of the aspects of that was dealing with oil 
revenues and the distribution of those revenues between the 
Shi'a, the Sunni, the Kurds, and then that went a long way in 
getting toward national reconciliation or a key aspect.
    I guess, Ambassador Jeffrey, your insights in how critical 
is that in the big picture, and where do we stand in trying to 
move toward that effort?
    Mr. Jeffrey. It's a very critical element. But, first of 
all, the President, in his June 14th press conference, 
addressed this at some length. The first thing he did was to 
underline that this is an Iraqi decision. It's their oil. It's 
very important to the Iraqi people that they come up with their 
own conclusions.
    Looking at this from the outside, and we have had a lot of 
experience around the world in a situation such as Iraq, 
certainly the principle that the oil belongs to the people, we 
believe, is fundamental as a suggestion that we made to the 
Iraqis. In fact, the Iraqis have incorporated that right into 
their Constitution, Article 108.
    The second point is how the oil is managed, from our 
experience again around the world, can play a huge role in 
bringing together a diverse country, which Iraq is, and a very 
pluralistic country, or it can help drive it apart. So, 
therefore, the Iraqis have to make wise choices. It's not our 
job to propose to them what the specific choices would be. We 
would just urge them that in their constitutional revisions, 
which they will look at on these and other articles--and this 
is tied, you are absolutely correct, to the reconciliation 
effort with the Sunni Arabs and some of the others--that they 
take this into full consideration. We believe that they will.
    They will be very, very interested in this. The President 
has charged the Secretary of Energy to go out and work with his 
Iraqi counterparts in the electrical and oil ministries to 
discuss how we can be helpful in more detail, and we will do 
everything we can.
    We do believe in these principles, but we have to be 
careful in trying to push too hard in suggesting to Iraqis how 
to apply them.
    Mr. Platts. I think that is an appropriate caution. The way 
I look at it is we have given the Iraqi people the opportunity 
for democracy and freedom, but ultimately it's up to them and 
how they embrace it and how it is defined in Iraqi terms, not 
American terms. Us being there to assist but, you know, not be 
controlling is very important.
    The current status, though, those negotiations, as they 
look ahead to constitutional revisions, has there been any 
formal talks on the oil distribution issue, or is it still 
preliminary?
    Mr. Jeffrey. The Iraqis are still mulling over how they are 
going to respond to the requirement that came out as part of 
the last-minute additions to the constitutional process back 
last fall of having a constitutional commission look at 
possible amendments within 4 months. I am not going to speak 
for the Iraqis. I think that they know that they have to deal 
with several other key things both for their own political 
future and also for the reconciliation process.
    One of them is the role of the regions, particularly the 
idea of a very large Shi'a Arab region in the south. Another is 
oil. A third one could well be the Kirkuk situation, how they 
are going to address that. We don't want to predict in advance, 
because this is going to be something that democratically 
elected leaders in their Parliament will decide.
    We do know that they are very much seized with this; it's 
tied into the whole reconciliation effort. We have faith that 
they will work out a good solution.
    Mr. Platts. I know that oil is a big part of that revision 
and addressing the Sunni concerns that were part of that 
brokered agreement in moving forward with the referendum in 
October 2005. Is there a timeframe--it was 4 months--as far as 
when the commissions work?
    I know on the one hand you want deadlines or timeframes, 
but given that they are where we were 230 years ago--so asking 
for deadlines today for us is a little different than asking an 
emerging democracy for deadlines. Where do we stand on that 
timeframe?
    Mr. Jeffrey. You are absolutely correct. There are two 
deadlines which we are also striking for. There is also a 
deadline within 6 months to come up with an implementing 
legislation on the oil provision, so, thus, they have to come 
up with a hydrocarbon, and the two are, in essence, tied.
    The Iraqis, of course, are faced with an insurgency that 
they have to deal with. They have a major security operation 
under way in Baghdad. There's a lot of fighting there. I think 
that they will probably approach these deadlines with a certain 
degree of flexibility. Again, I can't predict anything fully, 
based upon the same principles that we applied, as you said, 
230 years ago, in a parliamentary democracy, that sometimes you 
handle things in a variety of different ways. We don't know how 
they are going to handle this. We know they are aware of this. 
They do have these deadlines, and they will come up with an 
answer.
    I would point out to the committee that we have seen the 
Iraqis face a terrible--not a terrible, but a very, very 
demanding series of deadlines in the U.N. Security Council 
resolutions and the transitional administrative law for 
elections and other things. As you know, in a few cases, they 
missed some of the deadlines, particularly for standing up 
various organs of government, by a few weeks and in some cases 
more than a few weeks, but in the end they met that. I think 
there's a lot of credibility that they will live up to the 
spirit and, we hope, the letter of these commitments.
    Mr. Platts. I always think it's helpful when we try to 
judge progress is that we do look back to our own Nation's 
birth. In 1776, our Constitution--you know, 1789, in between, 
we had the Articles of Confederations, which were ratified by 
the Constitution--Continental Congress in my hometown of York 
when Congress met there for 9 months in 1777. But it was 12 
years later 'til we came back and actually got it right with 
our Constitution that we operate under today. Sometimes I think 
we forget how long it took us in our emerging democracy to do 
what we are now looking for the Iraqis to do.
    I think its good that we are conscious of those deadlines. 
They certainly are Iraqi deadlines, but our assistance, and the 
coalition forces and all the nations, you know, being 
supportive of them, moving forward because of our government 
and the other governments that are providing a lot of the 
assistance militarily or financially, we know that there is 
some end goal in sight that we are moving toward addressing 
some of the key issues, especially in the area of national 
reconciliation.
    The second issue, maybe Ambassador Jeffrey and General 
Jones, both of you, the rule of militias, I know that may have 
been touched on a little bit. You know, where we stand, I know, 
in the Constitution, you know, they are prohibited outside of 
their formal government entity, yet we obviously see, you know, 
their presence still being very horrifically felt, I guess, by 
some of the actions of some of these militias.
    Where do we stand in trying to get arms around or the Iraqi 
Government getting its arms around the militia issue? I guess, 
General Jones, we will start with you.
    General Jones. Yes, sir. Obviously, it's an item of concern 
not only for us, but for the Iraqis. The 24-point plan that the 
Prime Minister laid out included addressing militias.
    On the security side, we have actually seen some what I 
think is considerable progress here recently. We have actually 
seen an increase in the number of instances where the Iraqi 
security forces have confronted members of militias who were 
out with weapons and doing things that they are not allowed to 
do, things on the streets. So that is good. We have also 
actually seen the arrest of one senior militia member just here 
in the last few days. So we are seeing the Iraqis be more 
aggressive about enforcing the existing laws that are already 
there.
    In addition, I think there's recognition that, you know, 
the reason that these militias exist is for a variety of 
complex reasons, so they are looking at all the solutions that 
have to be applied, not the least of which is part of the 
national reconciliation demobilization, things--the ability to 
put militia--former militia members to work, integrate those 
that want to be as individuals into the Iraqi--legitimate Iraqi 
security forces and so forth.
    So it is a considerable problem, but I think the Iraqis are 
starting to face it in a much more serious way.
    Mr. Platts. Mr. Chairman, if I could squeeze one last 
question in. Thank you, Chris.
    Related to that, getting kind of arms--or the Iraqi 
Government and their security forces getting arms around this 
issue, is the competence of the local police, and in my 
meetings with General Casey and the visits where we talk about 
this year being the year of the police where we kind of made 
great headway on the military and now trying to stand up the 
police, and not just numbers, but in quality.
    I think the way in of my meetings in Fallujah in February, 
that ultimate success in these local communities is really 
going to be because of the success of the police who are in 
that local community, as opposed to the military units. Where 
does Iraqi police stand up--stand as far as where we want to 
be, where we want; and then how many are fully equipped out 
there to kind of patrolling on their own, as we ultimately need 
them to be?
    General Jones. I guess I would just start off by 
summarizing.
    Mr. Platts. I apologize if this repeats some of what was 
said in the opening.
    General Jones. Not at all.
    There is considerable progress being made with police, but 
we are starting from a position much farther behind with them. 
In some cases, the one tier of police that have reached a very 
high level of capability is the national police. These are 
those high-end forces that have capability. We would probably 
have the equivalent description of a SWAT team or something 
like that, but significant forces that can do special kinds of 
missions.
    Behind that, and requiring still quite a bit of work, are 
the local police, the station police that we would think of as 
a precinct that are out patrolling and so forth. Several 
reasons for that, not the least of which I think is this is 
adverse to the tradition of policing in Iraq. Traditionally 
station police stayed in the station. Nobody was out 
patrolling. So we are trying to kind of change this police 
culture to move people out of the police station and start 
doing this community policing.
    We have embedded police transition teams, just like we have 
done with military transition teams. We have started to embed 
those to work with Iraqi police in police stations. So we are 
seeing signs of improvement. But I would tell you it's the 
weakest aspect of Iraqi security forces and is still going to 
take a continued amount of time to work with them.
    In terms of individuals trained and equipped, the current 
projection is by the end of this year, we will have the initial 
basic training done of the Iraqi security forces, that initial 
force structure will be complete. Then after that, obviously, 
there's what we would call some sort of a premise or some 
period where people build experience as new police officers, 
that they are going to have to go through a period to develop 
true capability in those stations.
    Mr. Platts. Thank you, Mr. Chairman. Again, my thanks to 
you individually and to your colleagues and to your respective 
offices for your services, and especially the men and women on 
the front lines in Iraq.
    Thank you, Mr. Chairman.
    Mr. Shays. Mr. Van Hollen, thank you for your courtesy. Go 
over 10 minutes if you need to.
    Mr. Van Hollen. Thank you, Mr. Chairman. I thank all of the 
witnesses for their testimony.
    I would like to begin where I left off with the Comptroller 
General in talking a little bit about the terrible sectarian 
violence that has been raging in Iraq today. I think we would 
all agree that even by the bloody standards of the last couple 
of months in Iraq, that the last weekend, with the cycle of 
violence, the bombing of the Shi'a mosque, the killings by 
Shi'a militia in retaliation, and then the Sunni retaliation in 
return, that cycle of violence has been a particularly brutal 
phase.
    My question, if I could, to you, Mr. Ambassador Jeffrey, 
is, in the context of this hearing where we are talking about 
planning and accountability, what I think has been a failure to 
plan for many circumstances that were foreseeable.
    Would you not agree that the sectarian violence that we are 
seeing in Iraq today, especially between the Sunnis and Shi'as, 
were something that was eminently foreseeable when we went to 
war in Iraq?
    Mr. Jeffrey. I don't agree that it was something that was 
eminently foreseeable. I think that it was one of the many 
risks that we were aware of, certainly, back 2 years ago when I 
first became involved in it. But I think the fact that we saw 
this outbreak of violence first at anything like the magnitude 
that we see now--and let me underline this is a very troubling 
development. This is in many respects our No. 1 security 
concern right now.
    Only after the attack on the Golden Mosque in Samarra back 
in February, so that is almost 3 years after we did go in, for 
3 years there was some tit-for-tat sectarian fighting in one 
area or another area, typically around Baghdad. But by and 
large, we haven't seen very much of that.
    Even today the primary focus of this is in and around 
Baghdad. Even in other areas where we do have mixed 
populations, we don't see it. This doesn't mean I am trying to 
play down this problem. I want to again underline it's a very 
serious problem. It's something we have to devote a lot of 
attention to when we are working with the Iraqis on this.
    I think that compared to other societies that I have been 
involved in, Bosnia, Kosovo, I think that there is more fiber 
that holds the Iraqis together, regardless of their religion or 
their ethnic background, than we have seen in other societies. 
I think that is one reason why it did stay together as long as 
it has. We believe that it can return to that as well.
    But we do not have a lot of time. We need to work. The al-
Maliki government needs to work on reconciliation, but also on 
effective security measures to deal with that.
    Mr. Van Hollen. Thank you.
    If I could just followup there. I believe it was very 
foreseeable, and that the history of Iraq suggests that it was 
foreseeable. I will point out that Paul Pillar, who is a former 
CIA analyst who was in charge of a lot of the analysts on these 
issues, testified just a few weeks ago before a Senate panel 
saying prior to going to war, the CIA--and I quote from his 
testimony--forecasted that in a deeply divided Iraqi society, 
there was a significant chance that the sectarian and ethnic 
groups would engage in violent conflict unless an occupying 
power prevented it.
    I would also like to just read another quote, because I 
think some people may be surprised with the origin of the 
quote, ``It is not clear what kind of government you would put 
in. Is it going to be a Shi'a regime, a Sunni regime or a 
Kurdish regime, or is it one that tilts toward the Baathist or 
one that tilts toward the Islamic fundamentalists? How much 
credibility is that government going to have if it is set up by 
the U.S. military? How long does the U.S. military have to stay 
to protect the people that sign on for that government, and 
what happens to it when we leave?''
    Those are the words of Dick Cheney, now the Vice President. 
He made that statement back in April 1991, when he served as 
Secretary of Defense under the earlier President Bush, 
explaining to the American people why the United States decided 
not to go into Baghdad after using military force, appropriate, 
I believe, to extract Iraq's forces from Kuwait.
    I guess my question to you is, No. 1, were you aware of 
this analysis that was testified to by Mr. Pillar that the CIA 
said there was a significant risk? Are you familiar with the 
State Department study and analysis and plan that was put 
together? To what extent, if any, did the Defense Department 
that took over the immediate efforts in Baghdad, to what extent 
did they take into account the warnings of people like the CIA 
and the people at the State Department with respect to 
something that I think was eminently foreseeable?
    Mr. Jeffrey. First, on the studies that were done before 
the liberation of Iraq, those were interagencies at work with 
various Iraqi groups who were coming up with scenarios for the 
new Iraq.
    Mr. Van Hollen. May I just ask you for clarification, are 
you talking about the State Department study now, the CIA 
study?
    Mr. Jeffrey. The State Department study, which is probably 
the one I can best address.
    Mr. Van Hollen. Let me just ask you for the record, were 
you familiar with the CIA study?
    Mr. Jeffrey. No, I was not, but I was generally aware, 
although I was not working on Iraq, of the State Department 
work, working with Iraqis who came up with the various 
opposition groups, came up with a variety of plans. Many of 
those plans, in fact, have been formed or partially carried out 
by the CPA in the transitional administrative law or by the 
various Iraqi Governments. So it isn't that the plan was thrown 
out.
    As I wasn't involved in Iraq in that time, I don't want to 
discuss in detail who did what, when in the February, March, 
April, May period of 2003. I do know that many of--I have seen 
and gone through the State Department/opposition group 
proposals and studies and such, and many of them reflect ideas 
that were later incorporated into the----
    Mr. Van Hollen. Let me ask you this: If it wasn't 
foreseeable, then I guess your testimony suggested it is not 
inevitable that this would have happened; is that right?
    Mr. Jeffrey. Right.
    Let me go back. There's a difference between a foreseeable 
risk, which we all identified. In fact, one of the reasons that 
many of us who were involved in Iraq in the 1990's felt that 
there had to be a change was that after 1990, in fact, during 
1990, what we saw was a tremendous effort by Saddam Hussein--an 
extremely bloody effort of sectarian violence far greater than 
we see today against the Kurds in the north. We had to 
intervene with our no-fly zones and other efforts to bring that 
under control eventually.
    So we certainly were aware there was that possibility, but 
we didn't think it was inevitable. I would like to state for 
the record today that we do not think it is inevitable that the 
country would disintegrate into large-scale sectarian violence. 
We do not have that today. We do think that it is a risk that 
will grow, however.
    Mr. Van Hollen. Let me ask you this: If it is not 
inevitable--we know what is going on the ground. I understand 
from your testimony that it didn't have to be this way; is that 
correct?
    Mr. Jeffrey. As I said, for 3 years roughly, after the 
liberation of Iraq, there was very little--there was some, but 
there was very little interethnic violence. Today in many areas 
of Iraq where you have mixed populations, there is very little 
violence. So, therefore, I would contrast this with the 
situation that I know fairly well in Bosnia, where, by, oh, the 
beginning of 1993, there was an area of the country where 
everybody in each group wasn't as--full time fighting the other 
people. We see nothing like that today.
    Again, even saying these things, however, I don't want to 
dismiss the concern that we have about what we do see today, 
which is worrisome.
    Mr. Van Hollen. I guess if it wasn't bound to be this way, 
if it didn't happen to be this way, my conclusion would have 
been we could have done something more to prevent it. I believe 
the failure to plan for what, I think, was eminently 
foreseeable is a huge failure. I am not sure that we could have 
prevented what we are seeing today or not, but I do believe 
that we didn't have in place a plan to adequately deal with it. 
I think your analogy actually to Kosovo and parts of the former 
Yugoslavia is very apt, in fact.
    I think the difference in Iraq is many of the population 
areas are separated. You have a population of Shi'a in the 
south, you have the Kurds in the north, but where you have many 
Shi'a, Sunni and Kurds living side by side in major 
metropolitan areas, particularly Baghdad, you have seen, since 
the very beginning of the invasion, a simmering of violence, a 
simmering of sectarian warfare. That is what Zarqawi had wanted 
to exploit from the very beginning.
    For us not to have planned better, to not have taken into 
account, I believe, the heeding, the warnings of the people at 
the CIA and, I believe, the State Department I think points to 
a terrible failure in the U.S. policy. I think it is the 
biggest single danger to having a political reconciliation in 
Iraq today.
    The only question is, in my mind, whether there is, in 
fact, much that we could have done to prevent it, which raises 
the question why wasn't more attention given to this very 
serious issue that was raised by Dick Cheney when he was 
Secretary of Defense before we made the decision to go to war 
in Iraq?
    Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    I would like to yield myself some time now. This is really 
a terrific opportunity to understand the strategy and to 
understand whether critics are accurate when they said there is 
no strategy. We are talking about a strategy. We are talking 
about whether it's good enough, but we are talking about a 
strategy.
    What I am interested in--well, I am interested in a lot of 
issues. But what I would first like to do is put on the record 
that I happen to believe that we did not find weapons of mass 
destruction. I am not in this debate on whether what we are 
finding now are weapons of mass destruction. For me, I am just 
putting myself on the record. They are the remnants of what 
existed.
    I find that to get into this issue, well, now, being we 
finally found them, they were not operative, they were not, in 
my judgment, a threat; not why I wanted to go in, because of my 
concern of weapons of mass destruction.
    I also want to say whether or not al Qaeda was there when 
we went in, though al-Zarqawi was clearly--even listening to my 
colleague talking about al-Zarqawi from the beginning--I mean, 
if the beginning was--that is interesting that there would be 
the acceptance that al-Zarqawi was there. But they are there 
now, and it took us a long time to find him, but we did find 
him. We took care of him.
    So, one, I am not in debate on whether weapons are there 
now. I know we are there now. I know al Qaeda is there now. I 
know it is head-to-head combat right now, right now with al 
Qaeda. At least that is what I believe.
    I would like to know whether you, General, you, Ambassador, 
you, Ms. Long, believe that al Qaeda is there, and that they 
believe that this is where, for them, the battle is. Do they 
want to succeed? Is it significant if they succeed to their 
overall goals? Maybe we could start with you, General.
    General Jones. Thank you, Mr. Chairman.
    Clearly al Qaeda in Iraq exists. Its fighting, we believe, 
is responsible for a very large number of the most brutal 
attacks, especially against Iraqi civilians, and so no doubt 
that they are there.
    Mr. Shays. Are their attacks directed at one sect or Sunni, 
Shi'as and Kurds?
    General Jones. Mr. Chairman, my understanding is that they 
attack each of the sects with the intent of trying to incite 
sectarian violence. So I am not sure about Kurds. Certainly 
both Sunni and Shi'a targets are in their target set.
    Mr. Shays. And Kurds that happen to be in Sunni and Shi'a 
areas.
    General Jones. Yes, sir. It's very hard to put all these in 
categories. Baghdad is a very mixed area of not only those 
three but Christians, Jews, other kinds of populations.
    Mr. Shays. The bottom line is you don't have any doubt that 
they're there and you have no doubt that they're taking it to 
us, correct?
    General Jones. Mr. Chairman, no doubt that they're there, 
no doubt in my mind they think that a successful democratic 
Iraq is a huge threat to their more global aspirations, and the 
fighting is very hard there.
    Mr. Shays. Ambassador.
    Mr. Jeffrey. Mr. Chairman, first of all, they're there.
    Second, they see this as the main event in their struggle 
for control of the Middle East and opposition to the West and 
opposition to a global structure in security. If we falter and 
fail in Iraq and if they're able to establish a permanent 
sanctuary in all parts of Iraq as they have in Afghanistan, my 
fear is that this will erase all of the tremendous good we have 
done in response to 9/11 and we'll be back where be we started.
    Mr. Shays. Ms. Long.
    Ms. Long. I couldn't concur more with my colleagues here, 
but, quite frankly, one need not take this panel's testimony. 
Al Qaeda itself has said in its proclamation that it is there 
and that Iraq is the center of gravity for its global jihad and 
only step one in that strategy and it's a long-term strategy to 
promulgate terrorism worldwide.
    Mr. Shays. Thank you.
    Ambassador, the national strategy for victory in Iraq was a 
document that came out more recently, but we have been there 
since April 2003. What were the guiding mechanisms that we 
used? What was the document that would detail our strategy? Was 
it the military combat effort or how would you--walk me 
through.
    Mr. Jeffrey. What I'll do is I will start with and then I 
will walk back from this point. Because, otherwise, it wouldn't 
be a satisfactory answer.
    I'll start with the summer of 2004. The newly arrived 
General Casey heading the new MNFI and Ambassador Negroponte 
collaborated on the first campaign plan. This campaign plan 
picked up many of the ideas that we have further developed in 
the Victory in Iraq document, specifically, the concept of a 
wedge to try to, as we say in this document, isolate those who 
we can't bring into the system such as some of the Bathists and 
al Qaeda folks but engage many others, even people in the 
insurgency who are willing to lay down their arms and willing 
to abide by the rule of the majority. That was our strategy 
that summer.
    That led to--and once again in response to the GAO's 
concerns, this led specifically and deliberately, and I was 
involved in this process, to major resource shifts. As the 
Comptroller General and his people testified, we shifted 
billions of dollars from longer-term infrastructure into 
shorter-term projects, primarily security but also democracy 
programs, elections and immediate increases to the oil system 
which are now coming on stream in increasing production. This 
was done in furtherance of exactly that strategy.
    Now before that time, sir, I would have----
    Mr. Shays. Before.
    Mr. Jeffrey. Before the summer of 2004, I would have to 
turn to the military on what documents that they used. I was 
out under CPA in the latter days, and I wasn't aware of that.
    Mr. Shays. Let me just clarify, the bottom line was before 
June 2004 Mr. Bremer was under the command of the Defense 
Department--excuse me, answerable to the Defense Department. 
It's my understanding that the Secretary had sole 
responsibility of the political as well as the military effort 
in Iraq, as well as the reconstruction, and that, when we 
transferred power in June to the Iraqis, that brought in State 
Department, who now had the responsibility for the political 
part of our effort in Iraq and the reconstruction and left to 
Defense obviously this major effort of the military operations 
and the reconstruction of their security forces.
    Is that a fair analysis of what's the significance of June 
2004?
    General Jones. Mr. Chairman, I believe so. The transition 
to CPA, yes, sir, that's where, although it was still under 
departmental control, you had this separate entity called CPA 
that was not under the control of the uniformed military.
    Mr. Shays. Answerable to whom? The White House directly?
    General Jones. No, sir, answerable to the Secretary of 
Defense.
    Mr. Shays. CPA was answerable to the Secretary of Defense.
    General Jones. Yes, sir.
    Mr. Shays. So you had that transfer at that moment. Before 
then, the State Department had a limited role, correct?
    General Jones. That's my understanding, sir.
    Mr. Shays. Can you speak to the strategy that guided us for 
that first year?
    General Jones. I would go back to the very beginning. That 
is, the establishment of the national military objectives led 
to the Central Command campaign plan. From that the Central 
Command land component commander had a plan, an operations plan 
for the actual attack into Iraq in the time immediately 
following. They transitioned that organization to a Combined 
Joint Task Force 7, CJTF-7. It then developed what they call 
their CJTF-7 campaign plan. Subsequently, that was upgraded to 
multinational force in about the timeframe you're talking 
about, the June 2004, timeframe, simultaneously with the stand-
up of the embassy. At that time multinational force developed 
their campaign plan, which has now been revised several times, 
the latest of which is actually a joint campaign plan with the 
embassy.
    Mr. Shays. To the outsider and even to me the implications 
are that we only had a strategy guiding the military, and are 
any of the three of you capable of disavowing me of this fact? 
I mean, did this plan as you understand it include dealing with 
the economic reconstruction of Iraq, the political 
stabilization of Iraq?
    Mr. Jeffrey. Let me take that on.
    We definitely had plans covering all three tracks--
economic, political and security--in the year before the summer 
of 2004.
    To cite two examples on the political and economic tracks, 
as the General covered the security track under CJTF-7, the 
Congress and the administration together worked out a 
reconstruction program, Earth 1 and Earth 2, totaling $21.9 
billion, the largest single reconstruction program in real 
dollars since the Marshall Plan, broken down in a very 
sophisticated way into a whole series of reconstruction 
objectives, from water and electricity and roads and oil, all 
the way into democracy, standing up security forces and other 
things.
    As the GAO reported earlier today, there were certain 
assumptions on that reconstruction program such as a permissive 
environment that turned out not to be so, but it was a very 
sophisticated plan that manifested itself in major 
congressional budget action.
    Second, on the political track, there were a variety of 
initial steps culminating in the decision taken in the fall to 
turn over sovereignty to the Iraqis as soon as June 2004. This 
was then manifested in a U.N. Security Council resolution that 
we played a key role in negotiating, 1546, but also, most 
importantly, in the transitional administrative law which laid 
out that process that has carried us through until the 
formation of the government a few months ago.
    Mr. Chairman, my answer is, before the consolidated plan of 
2004, there were very sophisticated plans that were well 
coordinated in interagency meetings. It's just that there was 
no one plan. What we've tried to do is bring these plans 
together and further refine them in one document.
    Mr. Shays. Let me just say, if I ask one of you to respond, 
I am very happy to have others of you jump in. So don't wait 
for me to ask if you feel you can add value here.
    So what I am hearing is that--I will tell you my sense of 
the challenge, why the American people didn't feel we had a 
plan, was that the plans that I looked at were classified. It 
seemed to me that what the administration finally concluded was 
that people continually saying we had no plan when there was no 
plan presented to the public was because, frankly, we didn't 
want to present it to our adversaries. We realized that we had 
to balance these two concerns. One, we have a plan, why the 
hell would we tell our enemies what our plan is? We have a 
strategy, why would we tell our enemies what our strategy is? 
Then the political opposition that started to form in this 
country that said we had no plan, we don't know what we are 
doing.
    Am I right in assuming the administration came to the 
conclusion that they needed a document that was--two things, 
one, that they needed to bring these strategies together under 
one plan, which is one issue, and, two, that they needed to 
have a plan that they could make public so the American people 
and Congress and others would have a better understanding of 
it.
    Mr. Jeffrey. Let me start off and open it up to the others.
    Clearly, Mr. Chairman, there was a belief that we needed to 
put on paper to the public the plans that we had developed and 
refined over the preceding 2\1/2\ years. I was working on Iraq 
before this plan came out, and I felt that I knew what I was 
tasked to do and that others did, and we had goals.
    Again, they were laid out here, they are laid out well 
here, but we already had them in various other documents. This 
combined those. It refined them further. Some of the ideas in 
there, for example, the clear hold and build concept under the 
security was a fairly new development. The Secretary talked 
about that in her testimony in October 2005.
    So there are a few developments based, for example, on our 
success in areas that we tried to apply. The PRT concept was 
beginning to be stood up, and we put those in.
    So this is a further refinement, but it's a refinement of 
plans that, as you said, were in different places and many of 
which were classified.
    Mr. Shays. Any comments?
    Ms. Long. I would only like to add that the Ambassador is 
correct and that strategy is a refinement. It is also to some 
extent is a boiling down of what were the most salient and the 
core aspects of what the President's strategy was and what the 
various interagency departments were undertaking as parts of 
the implementation.
    I get the chairman's point that it's important that the 
strategy be linked to things such as a budget and cost 
analysis, and those indeed do exist, and, in fact, Ambassador 
Jeffrey pointed us toward those particular documents.
    This particular plan that we're discussing, the strategy 
for victory in Iraq, simply didn't contain that information 
because it had a very different purpose. This, as the chairman 
pointed out, was considered to be the public document in order 
to convey in a very effective and a very concise way the core 
values and the core implementation and aspects of the strategy 
of the ongoing conflict in Iraq.
    Mr. Shays. Now what I'm going to say is a bit negative, but 
by my saying it this way it will help me understand where we 
are at today. Either we didn't have a plan and therefore we 
made mistakes or we had a plan and the mistakes made early on 
were because the plan was bad or we didn't follow the plan. But 
we made some mistakes early on, and I'm going to tell you what 
I believe those mistakes to be. I would like to think that and 
I do believe that we did have a plan but that there were flaws 
to it. I can't imagine that it would be otherwise.
    Now I also preface it by saying that my greatest love is 
American history, and I have not read a military effort that 
didn't have huge mistakes in it. If George Washington had the 
critics that we have today, I don't think--I think we would 
still be a commonwealth or something like that. If Abraham 
Lincoln had been judged on his first 2 to 3 years, we would be 
two nations. And when I hear the fact that, with no disrespect 
to you, General, that there are military people who criticize 
this administration, to say nothing like what Abraham Lincoln 
had to deal with, he ran against a general who was so critical 
of how a war was fought.
    I love the comment Lincoln made when he finally found a 
general he liked, General Grant, and people came up to him and 
said the guy drinks too much, and Abraham Lincoln was reported 
to have said, well, tell me what he drinks and I'll give to my 
other generals.
    So I understand that mistakes are made, but if we don't 
talk about mistakes then it's hard for people to understand 
where we are. I will just tell you, and I'm not going to ask 
you to agree or disagree, but I'm going to ask you the 
implications.
    Allowing the looting, to me, was outrageous. Allowing the 
looting said to the Iraqis that security doesn't matter, and 
they walked right by Americans who allowed them to do it. I 
understand the logic. We didn't want to engage the Iraqis. So 
that was one issue.
    To not have contained, at least where we could, the 
munitions depots and to let literally our adversaries drive up 
in trucks and take these munitions to me was a huge mistake.
    But the mistake that I happen to believe was the most 
egregious was we decided to not allow the army to restand, the 
police to restand, and we basically got rid of their border 
patrol. What we did is we said to 150,000 coalition forces you 
have to be the police, the border patrol and the army for 26 
million people in a country the size of New England and New 
York. I think that was an impossible task.
    So, General, I'm just going to say to you that I thought we 
had enough military troops until we did that. But what I'm 
going to say to you is that I think we then dug ourselves a 
deep hole. Am I to view--and the reason I mention that--I've 
been there 12 times--is I try to go every 3 to 4 months because 
I want to take the temperature and I want to gauge where we 
are. I basically viewed us as being very successful in April 
2003, with a chance of not having what took place; and we took 
a nose dive in my judgment when we disbanded their army, their 
police and their border patrol.
    I had Iraqis say, why did you put my brother, my uncle, my 
cousin, my father out of work? Why did you put my son out of 
work? Why couldn't they at least guard a hospital? That's 
poignant to me, because the first death in the 4th 
Congressional District was Alfredo Perez guarding a hospital.
    I'm just saying to you I carry a strong conviction that 
mistakes were made in the early times and that since June 2004 
was the moment to which we made a hugely successful, important 
decision and that was to transfer to the Iraqis the ability to 
start to have control over their own destiny. We started to 
have an Iraqi face.
    I had a press conference shortly after we transferred power 
with Negroponte and the foreign minister, and it was really 
thrilling for me to have a press conference with the Iraqis. I 
stepped forward and said, I think we've made a number of 
mistakes. Are there any questions?
    The first question was for the Foreign Minister, the second 
was for the Foreign Minister, the third; and finally I leaned 
over to Ambassador Negroponte and said, this is the best proof 
that transferring power, that they have bought into the fact 
that Iraqis are now beginning the control of their own destiny. 
They're making their own decisions.
    Maybe you could just speak to the concept of mistakes, if 
you don't choose to talk about particular ones. Were mistakes 
made in this war?
    General Jones. Mr. Chairman, no doubt in my mind. I think 
your historical context is exactly correct, and that is it's a 
human endeavor, no doubt there were mistakes made. Like you, I 
studied history quite a bit as well. I think the important 
thing is you're not going to avoid the fact that you're going 
to make some of these kinds of mistakes, but what's most 
important is what do you do about that. Do you learn? Do you 
adjust and compensate for things that you either thought would 
be true, turns out not to be, or things that you didn't 
anticipate? I think in that regard we have learned from 
mistakes and made considerable progress building on what we've 
learned.
    Mr. Shays. Maybe I could ask this question to you this way, 
Ambassador. Thank you, General.
    How can the American people have confidence that we are 
less likely to make mistakes today than in the past?
    Mr. Jeffrey. As any conflict or campaign goes on, I think 
we learn from what worked, what didn't work. Without going into 
the issue of why mistakes were made--and I agree with the 
General and I agree with my Secretary, who mentioned a thousand 
mistakes--I can simply tell you, Mr. Chairman, that I made my 
fair share of those thousand mistakes when I was out there.
    I will say that, having been on the ground, it's an 
environment like any chaotic wartime environment, where 
mistakes are inevitable. The issue is do you keep your eye on 
the underlying goal. And, as I have said, the underlying goal, 
which is laid out here in the President's strategy, is a 
democratic Iraq that isn't a haven for terrorists. That is what 
we guide on. And when we deviate from that, when something goes 
wrong, we work with Iraqis to try and correct it; and we're 
going to keep on doing that.
    At the end of the day, the American people, through their 
political processes, one of which was seen before us today, 
will have to decide we'll just try and do our best. I can't 
give you a better answer than that.
    Ms. Long. I can't disagree with any of the other panel 
members, although I do think there is one thing that we can 
tell the American people about our hope that less mistakes will 
be made in the future and that is, to the extent many mistakes 
were made in the past, some of those were probably because we 
were unfamiliar with or the changing circumstances of the 
ground had an impact on our planning that were unanticipated or 
unaccounted for or not prepared enough for. But now we are in 
full partnership with the Iraqi Government and the Iraqi 
people, and the Prime Minister and his cabinet have been 
outstanding in their public and other statements in support of 
all the goals that we have adopted for one another in moving 
this fight forward. So we now have a partner on the ground who 
is as much if not more interested in our success.
    Mr. Shays. Would you agree that it was a major change, a 
pivotal point when you transferred power to the Iraqis in June 
2004?
    Mr. Jeffrey. I believe, Mr. Chairman, that it was, but the 
fact that was simultaneous with my arrival there may color my 
judgment somewhat. I do think it was an important step. I think 
the President took a very courageous step in accelerating what 
was originally going to be a several year process. I think the 
process that we set culminated in the current government is the 
proof in the pudding, sir.
    Mr. Shays. I have just one other area before I go to Mr. 
Van Hollen. Let me just ask this and come to you.
    The national strategy says build a stable, pluralistic 
national institution, clear areas of enemy control and restore 
Iraqi's neglected infrastructure. Now the administration is 
putting a focus on assisting the new Iraqi Government in 
promoting its own agenda, which is compatible, it strikes me, 
but it's national reconciliation, improving security, 
increasing oil and electricity production and engaging other 
nations in Iraq's development.
    Now the reason I wanted to talk about this is I want to 
focus on national reconciliation. Because I found that I was 
one of the few people who felt confident that transferring 
power in June 2004 was the right thing to do, and it was based 
on the fact that, having been there, I could just see they were 
ready. But it was interesting to me that the critics of the war 
were absolutely adamant that we shouldn't transfer power, which 
was one of the most important decisions we did. If we made 
mistakes, and we did, that was one thing that was not a 
mistake.
    Now I make the same parallel to the whole issue of 
reconciliation. I am finding Members say we should not allow 
there to be any so-called amnesty. How dare us think of that. 
And I'm going back again to history and thinking, well, what 
took place after the Civil War? We had Lee allowed to walk away 
in dignity, we had the troops allowed to carry their arms back 
home, we arrested President Davis of the Confederacy but then 
did not prosecute him. The only one I believe that paid a 
penalty was the commander--was it Andersonville, the prison 
camp? He was hung.
    But it strikes me is it possible for there to be 
reconciliation without, one, amending the Constitution to draw 
the Sunnis in? And I would think oil plays a major role in 
that. And is it possible to have reconciliation without there 
being some forgiveness, obviously within certain restraints, of 
those who sided with the insurgents and maybe in fact were 
insurgents? Obviously, the people who are walking around 
holding people's heads in their hands, you're not going to 
reach out to them, but how about the others?
    Mr. Jeffrey. The President's spokesman, Tony Snow, 
addressed this on Monday in response to a question.
    First, and most importantly, this is an Iraqi decision, an 
Iraqi process. They're going to have to live with the results. 
Some sort of amnesty certainly is being raised by many people 
inside and outside the Iraqi Government, and they're going to 
figure out what the best balance is between reconciliation and 
responsibilities and accountability for one's acts.
    Our first concern from the standpoint of the United 
States--and this has come up several times all the way back to 
the Allawi government--is to ensure that there is no double 
standard, that is, that an act against a coalition soldier is 
different from an act against a Iraqi soldier or a coalition 
civilian and an Iraqi civilian. Beyond that, we will watch what 
the Iraqis do and we will try to be as supportive as we can. 
But, again, this is their process. This is their system.
    We do agree with you that those people, the al Qaeda groups 
and those others guilty of war crimes, need to be brought to 
justice.
    Mr. Shays. General, any comment? Then we'll go to you.
    General Jones. Mr. Chairman, the comment I'd make is I 
agree with the Ambassador.
    Clearly, in order to end hostilities, you have to take 
combatants and have some method by which they stop the coming 
combatants, and this is one mechanism. We've seen it applied in 
a variety of places where conflict is transitioned to a 
peaceful environment. I don't think Iraq is any different.
    Mr. Shays. We're basically looking at al Qaeda's presence 
there, we're dealing with Sunni insurgents, and we're also 
dealing with al-Sadr and some of the Shi'a groups. If we're 
successful--excuse me, if Iraq is successful in reconciliation 
with the Sunnis, then does that not isolate al Qaeda and isn't 
it more likely that we will see Iraq have significant success 
against al Qaeda if we have the Sunnis on board going after 
them instead of going after the government? That's directed to 
you, General.
    General Jones. Sir, my answer would be absolutely yes.
    Mr. Shays. Ms. Long, do you have any comment about that?
    Ms. Long. No. I think General Jones is correct in that this 
wedge strategy had been something that has been under 
discussion for some time.
    Mr. Shays. And is part of the strategy?
    Let me just be clear about that. This is an effort on the 
part of the Iraqi Government, and one of the criticisms of the 
Government Accountability Office was, and specifically Mr. 
Walker, was that there is not coordination between the plans of 
Iraq, which I just mentioned, and our own victory in Iraq plan. 
So if you'd just speak to that coordination and how the two 
strategies are compatible, and then Mr. Van Hollen has the 
floor for as long as he wants.
    Mr. Jeffrey. The wedge strategy of the original 2004 
campaign plan was discussed with the Allawi government. Allawi 
was very active particularly in that period of time before our 
Fallujah operation in the fall of 2004. Reaching out to Sunni 
groups from Fallujah and elsewhere, we participated in those. 
He was well aware of the undertakings, as all the other Iraqi 
Governments, that you need to, again, to quote the victory in 
Iraq strategy, to isolate those that are not going to be part 
of this process, the al Qaeda, the Bathists, and to bring in 
those folks that are willing to or can be persuaded to lay down 
their arms. That's been our strategy for a long time, sir.
    General Jones. Mr. Chairman, just for clarity, I'll go to 
page 30 of the NSVI and just to point out one of the elements 
in there is supporting Iraqi leaders in their request to bring 
all Iraqis into the political process through dialog and the 
creation of inclusive institutions. So, clearly, this has been 
part of our desire to achieve this reconciliation effort 
throughout the time we've had our strategy.
    Mr. Shays. But the challenge that the first Prime Minister 
had was he was the interim, transformational and then 
permanent. He was the first. He was basically--there had been 
no election, so he hadn't been elected. He had been chosen by 
groups, correct, but not elected. So the advantage Malaki has 
is that he now is the elected chosen, with the fact that 76 
percent of the Iraqis chose this government, including Sunnis, 
is that not correct?
    Mr. Jeffrey. That's correct, sir.
    Mr. Shays. Thank you. Mr. Van Hollen, you have the floor as 
long as you want.
    Mr. Van Hollen. Thank you, Mr. Chairman. I won't take too 
long.
    I just want to go back to, first, the point you have made 
with respect to the mistakes and acknowledging mistakes and 
learning from mistakes and getting back to the earlier point I 
made with the Comptroller General with respect to 
accountability. Because I think everyone understands that 
people in the course of decisionmaking make some mistakes. I 
think the biggest concern here is you have a pattern of 
mistakes being made in the face of good advice to the contrary.
    There were people who raised questions about weapons of 
mass destruction. There were people in this Government who 
raised questions about whether there was really any link 
between al Qaeda and Saddam Hussein and whether there was any 
collaboration. There were people who raised good questions 
about the number of forces we would need on the ground to make 
sure there was some stability in post-invasion Iraq. There were 
people who raised serious issues about the costs of the war. 
And consistently those voices were ignored.
    I do very strongly believe that when you have a situation 
going on, as we have now since 2003, where there's a consistent 
pattern not just of mistakes but mistakes being made in the 
face of strong contrary advice and you fail to hold people 
accountable, you're going to get more failure.
    So I would just like to ask you a basic question of 
accountability, checks and balances. Would you not agree that 
in a bureaucracy, in an organization like the U.S. Government 
that if you want to send the right signal to people you have to 
hold people accountable for their mistakes and you need to 
acknowledge and reward people who get it right, just as a basic 
management principle?
    Mr. Jeffrey. I agree with the principle, but if you will 
permit me, Congressman, I would like to elaborate on this a 
little bit, because, otherwise, my answer would not be 
understood correctly.
    First of all, there are levels of accountability. Those 
people who violate the law, be it contractors or civilian 
officials who have been identified by the Special Inspector 
General, those people are being punished to the maximum of the 
law. Our military personnel, including fairly senior people 
involved in Abu Ghraib, have been punished in various ways.
    In addition, there is another level of intermediate 
management accountability. Not everybody who emerges from a 
year of horrible experiences, in many cases in great danger in 
Iraq, is promoted, is advanced to a higher position, is 
considered to have succeeded. Those people--and there are many 
of them; I was involved with some of them--have not had their 
careers advance. They made mistakes that we simply could not 
forgive or forget.
    Then there is the highest level, and here's where I think 
there's I think a bit of conflating the standards. There is 
political responsibility. This is something that I as a civil 
servant cannot decide. It's something our elected leaders have 
to decide. I will say this. From experience over many years in 
many conflicts and near conflicts situations with the U.S. 
Government, whatever action--at one point, you said should we 
hold people responsible if they made mistakes when there was 
contrary advice. Here's the problem, Mr. Congressman, and I 
could cite the Balkans as an example again.
    There was always contrary advice. There are always strong 
opinions in the bureaucracy when you take any action, and one 
of the biggest challenges we have is to finally get to the 
point of taking a decision in less than full knowledge when 
there are so many people who are saying, no, that's not the 
right course of action.
    I saw this is Bosnia when people said we should have sided 
with the Bosnians in 1992, 1993, but there was a great deal of 
very intelligent advice that said, no, that would be a terrible 
mistake.
    Then I worked closely with Dick Holbrook in 1996, and 
people were advising him in different ways and the Secretary of 
State and the President.
    It's a very difficult situation where you don't--
particularly in the fog of war, at the highest levels, I think 
at the levels you're talking of, we have to let the American 
people pass judgment and hold our leaders accountable for 
succeeding as we think they will or not succeeding, sir.
    Mr. Van Hollen. I would agree with you that's where 
responsibility ultimately lies. I would just say there seems to 
be an incredible pattern here of consistently siding with the 
side that gave the wrong advice against the side that gave the 
right advice. And I would just point out again--and we've heard 
the testimony and statements made by a number of the generals 
who were involved in various capacities with decisionmaking, 
whether it was going to war or in the post-war period, and I 
stop with this and close with a question. We had retired Major 
General John Baptiste, he stated a little while ago Rumsfeld 
should step down because he ignored sound military advice about 
how to secure Iraq after Baghdad fell. We had a number of other 
generals strongly recommending that Secretary Rumsfeld step 
down as an accountability measure.
    I don't know, General, and I don't want to put you in a 
tough spot. I guess what I want to know is, were you in a 
position to be aware as to whether or not the advice that was 
provided by many of the people who have since criticized 
Rumsfeld and called for his resignation, were you in a position 
to determine whether or not the advice was in fact heeded or 
whether it was ignored?
    General Jones. Congressman, the position I was in at that 
time, I knew that there was lots of advice being given, not 
necessarily always consistent, as the Ambassador said: more 
troops, less troops. You have people arguing both ways even 
today. How much of that advice was taken, whose advice was 
taken and who's wasn't, I don't have any personal knowledge of 
that.
    Mr. Van Hollen. I understand, sir.
    I'll just close, Mr. Chairman.
    I think that, as the Ambassador pointed out, we have a 
number of mechanisms within the Government for accountability. 
Ultimately, it is the decision of the American people. But I do 
believe in terms of just managing the Government, and I just--
managing the Government in terms of creating the right 
incentives within the Government, when people who do get it 
right are ignored and people who get it wrong are somehow 
promoted or encouraged, I do believe that sends a very bad 
signal to the men and women in our Federal Government.
    Thank you, Mr. Chairman.
    Mr. Shays. I thank the gentleman.
    I just have a few other questions. I'm not looking for long 
answers, but they are not insignificant. You respond as you 
choose.
    The GAO said the strategy does not show costs, identify 
agency roles, integrate U.S. goals with Iraq and U.N. goals. I 
would like you, Ambassador, to speak to those three criticisms.
    Mr. Jeffrey. Very quickly, to followup on my initial 
comments, the strategy taken as a whole, as I said, does have a 
funding component to it on the state side, and the military has 
a similar document as well. We'll put this in the record. It is 
assigned with a three-track policy: security, political and 
economic.
    In terms of the organization, there I would disagree 
strongly. I think that NSBD 36 and the NNSI program I describe 
are----
    Mr. Shays. You're speaking to----
    Mr. Jeffrey. Yes, sir. The organizational roles are as 
clear as I have ever seen it. Considering Government service 
and considering the size of this endeavor, it's amazing. These 
are very clear.
    Of course, there are disputes. The GAO said it doesn't 
clarify every dispute between agencies. On this man's and 
woman's Earth we'll never come to that point, but it comes as 
close as it can to setting up a coherent process.
    The GAO is correct that we haven't been able to align our 
goals, our resources and such fully with the Iraqis. That's 
because we've not had a long-term Iraqi Government, and thus we 
had the meeting with the Iraqis for over 2 days on June 12th 
and 13th with the President going there to do exactly that.
    Mr. Shays. Thank you. I know that you answered each of 
these questions in a little more depth, but I appreciate that 
succinct answer.
    With regard to the militia, how can we--let me start with 
this. I would like to know the role that you think Iran is 
playing in terms of sending agents and money to Iraq.
    Mr. Jeffrey. Iran is playing a very worrisome role, 
including the death of coalition soldiers and Iraqis; and in 
the political sense of it being difficult for us to fathom why 
the Iranians are doing this. We are very concerned about this. 
We have spoken out publicly about it, and this is another one 
of the key items on our agenda.
    Mr. Shays. Isn't it true that if Iraq were to break into 
three parts that they not only have a Kurdish problem but they 
would have a Shi'a-Arab problem? Because they not only have a 
large Kurdish population in Iran but don't they have a fairly 
substantive Shi'a-Arab population as well?
    The reason I ask this question is because this is what I 
was basically told by folks in the Arab Emirates, that what 
they were trying to argue to me is that it is not in Iran's 
best interest, ironically, to have Iraq fail.
    Mr. Jeffrey. We agree with you. That's why one of our 
concerns with the Iranian activities is that we can't find an 
obvious explanation for it. Some of Syria's non-productive 
actions we have a certain explanation.
    Mr. Shays. Are the Syrians cooperating with stopping 
jihaddists from crossing Syria into Iraq? Are we sometimes 
getting cooperation and sometimes not?
    I met with the Syrian ambassador, and he tells me you just 
tell us what we're doing wrong and we'll stop. And I said 3 of 
the 10 things you're doing wrong; we want you to stop all 10 
things.
    What is the relationship that we have with Syria at this 
point?
    Mr. Jeffrey. Our relationship with Syria is colored by 
their behavior in Iraq, their behavior, for example, in hosting 
the leader of Hamas who played such a bad role in recent events 
in Gaza and their activity still interrelated to Lebanon as 
well as the oppression of their own people.
    That said, on the Iraqi front we have seen a diminution of 
infiltration to some degree and we have seen the Syrians take a 
number of measures at airports.
    There may be a cause and effect between the two. They need 
to do more, including more cooperation with the new Iraqi 
Government in closing down some of the financiers of the 
insurgency who have found refuge in Syria, sir.
    Mr. Shays. If this is a long answer, I don't want you to 
answer the question. But, bottom line, could you speak to the 
Sadr militia? Is this as worrisome--there is a view that we had 
an opportunity to deal with him 3 years ago and we let him 
fester and now he has become a major concern.
    What I'm hearing is that he's asked for the opportunity to 
do, frankly, what Hamas did in Palestine and that was in the 
West Bank and that was to feed the poor and the hungry and 
build a support system while also doing their terrorist acts. 
In other words, they're not asking for oil, they're not asking 
to run department, they're asking it seems to me to be on the 
human side of the government equation. Is that a concern to us?
    Mr. Jeffrey. General Jones had a lot of up close and 
personal contact with that militia, so I'll let him take that.
    General Jones. Sir, the organization, it has several 
elements, one of which is part of a social welfare capability 
and that's one of the ways that he sustained support of the 
population. He obviously has another element of his militia, 
which is an extremely unproductive portion of the organization. 
So he has both of those elements, and I believe he uses the 
social side just to sustain support.
    Mr. Shays. This is my last question. Is the fundamental 
problem political, military or economic? If you had to choose 
one, if you would rank them--I'd like all three of you to rank 
them.
    Ms. Long, I'd like you to go first. Rank which is the most 
worrisome. I'm not saying they aren't all, but your three 
choices are political, military and economic. How would you 
rank them?
    Ms. Long. I would request not to have to rank them, quite 
frankly, but if required to answer I think a combination 
between the recent upsurge in violent attacks, which would be a 
security issue, but combined with the political aspect. Because 
I do think that the resolution of either of those is dependent 
and integrated with how we deal particularly with the militia 
and integration of members of society who have taken a look at 
the new government and who are willing or able to become 
members of it and giving them the opportunity to do so under 
the reconciliation ideas that the current government has. I 
would put economic then slightly in the rear.
    Mr. Shays. Thank you very much.
    General.
    General Jones. I echo that they're all totally intertwined, 
but if I had to choose, I would say--with one caveat, I would 
say political. Because, in the long term, it's the ultimate 
solution to deal with the underlying causes of the violence in 
the insurgency that have to be done. I caveat that with al 
Qaeda, which does not have underlying political causes that can 
be dealt with, and I think that issue is primarily a security 
issue.
    Mr. Shays. Thank you.
    Mr. Jeffrey. Without security, you really can't do anything 
or enough on the political and economic tracks. However, as the 
General said, the solution to the security situation is not 
military but political, so I think the two are entwined. 
Economic is, measured only by that standard, less significant. 
It is an important factor but not in the short term as vital 
getting the security and political correct.
    Mr. Shays. I think all three of you pretty much had the 
same view on this.
    Let me just say that my colleague from Maryland just had 
one followup; and my last question, which I'll ask now, is: Is 
there anything that we should have asked that you think needs 
to put on the record that we didn't ask? Is there anything that 
if you left here and didn't put on the record you'd say I 
should have? That's my question to all three of you. But the 
gentleman from Maryland has the floor.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    I was just interested, Mr. Ambassador, in your response to 
the question about the Iranian factor and the Iranian meddling. 
I guess I'm a little puzzled by the fact that you and others 
are puzzled about the nature of the Iranian meddling and the 
negative aspects of that.
    Let me just ask you, from the perspective of the current 
regime in Iran, from their perspective, would they be better 
off with a fundamentalist Shi'a government in Iraq or a secular 
democratic government in Iraq?
    Mr. Jeffrey. That's why we're puzzled. We were not puzzled 
by what they're doing, we're puzzled by why, their motivation. 
A fundamentalist Arab-Shi'a regime in Iraq whose focus is on, 
in many respects, the more senior clergy, with a 1,600-year 
tradition of Shi'a-Islam, is not necessarily a good thing from 
the historical standpoint to an upstart Shi'a regime of about 
400 years duration. So that's not immediately obvious.
    The other thing is we have seen in a variety of situations 
where the Iranians are basically not dissatisfied with the 
democratic process. I mean, they have good relations not only 
with the Shi'a but also with the Kurds. They are not too happy 
with us succeeding there or anyplace else, but they have other 
interests as well.
    So we still are trying to fathom why exactly they are 
working with local militias with these special IED attacks and 
that kind of thing, and we haven't come to a good answer yet.
    Mr. Van Hollen. They have a relationship with al-Sadr, 
right?
    Mr. Jeffrey. They have relationships with al-Sadr, 
Talibani. They have relationships with most of the actors in 
Iraq, which is fully appropriate for a neighboring country in a 
country which has suffered a traumatic experience with Iraq 20 
years ago. I mean, they do have from a historical standpoint 
legitimate political and security concerns just like many 
countries have with neighbors. It's how they carry that out 
that we are concerned with at present.
    Mr. Van Hollen. I would conclude, Mr. Chairman, by saying 
I'm not sure I'm as puzzled as you are by the way the Iranians 
are playing it in Iraq. I think in many ways they have been the 
big winner in terms expanding their sphere of influence in the 
region and in Iraq in particular, and I'm not sure why they 
wouldn't see it in their interest to have more of a 
fundamentalist-type regime.
    After all, one of the positions the administration has 
taken is that, if they were successful in establishing a 
democratic secular government in Iraq, it would have 
ramifications and implications throughout the region, namely, 
the people in Iran would want the same thing. So if you take 
the administration at its word, it seems to me you can 
understand why the Iranians would be concerned about what might 
be developed in Iraq; and I think, again, it was predictable 
that the Iranians would try and exploit and take advantage of 
this situation.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank the gentleman.
    Would you care to put anything on the record before we 
adjourn?
    Mr. Jeffrey. From my standpoint, nothing, Mr. Chairman.
    Ms. Long. Only to thank the chairman for this very 
important hearing. We think it's important to be able to 
explain the national strategy and that there are a lot of 
documents and implementation plans and all kinds of supporting 
documentation and other implementation strategies that 
complement that and that we welcome the opportunity, whether 
through criticism by GAO or others, to make those better 
documents and more responsive documents.
    Thank you again, sir.
    Mr. Shays. Thank you.
    General Jones. No, sir, Mr. Chairman. Thank you.
    Mr. Shays. Let me just thank all of you for your service. I 
happen to know Ambassador Jeffrey the most, having visited him 
a few times. You were all excellent witnesses and very helpful 
to this process, and I appreciate that you came here about 6 
hours ago to begin. So thank you for not asking to be first and 
letting the GAO go first. That was very helpful to this 
committee.
    With that, we're going to have about a 4-minute recess and 
then we'll start with our final panel.
    [Recess.]
    Mr. Shays. I am very curious as to whether our four 
panelists have stayed. Let me introduce Dr. Kenneth Pollack, 
director of Middle Eastern Policy, Brookings Institution; Dr. 
Laith Kubba, senior director for Middle East and North Africa, 
National Endowment for Democracy; Dr. Anthony Cordesman, 
Admiral Burke Chair in Strategy, Center for Strategic and 
International Affairs, CSIS; and Dr. Kenneth Katzman, 
specialist in Middle East Affairs, Congressional Research 
Service. I think the only one required by law required to stay 
was the Congressional Research Service.
    Gentlemen, it's wonderful to have you here. I do need to 
swear you in, as I think you know. If you would stand, we'll 
swear you in.
    [Witnesses sworn.]
    Mr. Shays. Just for the record, we're not going to be 
starting our meetings in the future at 2 p.m. But it's 
wonderful to have you here.
    I consider this panel an extraordinary opportunity for the 
committee and particularly for me; and what I would like, if 
it's just my colleague from Maryland and myself, is to have a 
dialog among us and between us. So I think we'll start in the 
order--excuse me, I don't think we'll start that way. Yes, we 
will. We'll start with you Dr. Pollack, and we'll go right 
down. Just make your points as you choose to, and we're not 
even going to turn the clock on unless one of them speaks too 
long and the others have to wait too long. So maybe we better 
turn the clock on. We'll do it 5 minutes and roll it over.

   STATEMENTS OF KENNETH POLLACK, DIRECTOR OF MIDDLE EASTERN 
POLICY, BROOKINGS INSTITUTION; LAITH KUBBA, SENIOR DIRECTOR FOR 
MIDDLE EAST AND NORTH AFRICA, NATIONAL ENDOWMENT FOR DEMOCRACY; 
  ANTHONY CORDESMAN, ADMIRAL ARLEIGH BURKE CHAIR IN STRATEGY, 
CENTER FOR STRATEGIC AND INTERNATIONAL AFFAIRS [CSIS]; AND DR. 
      KENNETH KATZMAN, SPECIALIST IN MIDDLE EAST AFFAIRS, 
                 CONGRESSIONAL RESEARCH SERVICE

                  STATEMENT OF KENNETH POLLACK

    Dr. Pollack. Thank you very much, Mr. Chairman. It's a 
great privilege to be here before this subcommittee. It's also 
a great privilege to be on this panel with so many 
distinguished colleagues.
    I think, as you are aware, a number of months ago we at the 
Brookings Institution put together our own study group on Iraq, 
came up with our own alternative strategy for Iraq, and most of 
my remarks are framed by our thinking in the conversations that 
we had when we were trying to work through this problem and 
determine what the United States ought to do to ensure success 
in Iraq.
    The first point that I think is important to make in the 
course of these hearings is to say that our conclusion as part 
of this group was that we fully have just one more chance in 
Iraq. At the very least, we ought to assume that they have only 
one more chance left in Iraq. We may get more. The fact of the 
matter is we've already had a number of bites at this apple and 
we have so far failed to put reconstruction on a firm footing.
    The problem that we face right now is that both the 
American and--Iraqi and the American people are growing 
impatient. Ultimately this war can be lost in Washington. It 
can be lost in Baghdad. The problem is it can be lost in either 
capital, and we need both to provide their full support.
    Inside of Iraq, I think the problems that we face are 
particularly acute and need to be taken into account. First, as 
you are well aware, and as we have heard other Members in these 
hearings suggest, the Iraqis are increasingly unhappy. They are 
increasingly frustrated, something that I know you know 
firsthand, Mr. Chairman.
    They had great expectations with the fall of Saddam 
Hussein, and they have been waiting to see those expectations 
fulfilled. And increasingly Iraqis are fearful that the United 
States and that the new Government of Iraq doesn't know what it 
is doing or will be unwilling to do what is necessary to 
actually give them the better life that they ultimately 
deserve.
    And we are seeing increasing numbers of Iraqis turning to 
these vicious sectarian militias, turning to organized crime, 
turning to insurgent groups to provide them with the security 
and basic services that they don't feel that the United States 
or the new Iraqi Government can provide them with.
    Beyond that, there is another critical element in this, 
which is that we now finally do have the formation of a 
permanent Iraqi Government. In the past Iraqis felt these same 
frustrations, but what we typically saw was when Iraqis became 
frustrated with the current circumstances, they would shift 
their expectations to the next government down the road. There 
was always another government coming down the road 6 months or 
12 months out, and so it was easy for Iraqis to say this 
government has failed us, but perhaps the next will do better.
    Well, we are now in a situation where there isn't going to 
be another government, at least not for another 4 years, and so 
this one has to work. This one has to produce results.
    Now, having said all of that, I don't think that we should 
set the bar too high either. The fact of the matter is Iraqis 
desperately want reconstruction to succeed, and I think what 
they are looking for in the next 6 months is some sign that the 
United States and this new Iraqi Government actually know what 
we are doing and are actually starting to move things in the 
right direction.
    Our group was fairly confident if the Iraqis did get some 
signs of that, they would remain committed, and they would 
remain supportive. But we have to start delivering in the next 
6 months; we as the United States of America as well as the new 
Iraqi Government.
    With regard to the administration's new strategy, what I 
will say is that I think there was a lot in the new strategy 
that is very good. And for me this goes beyond the printed 
documents and goes to other efforts that I see the U.S. 
administration and the U.S. military embarking on. The problem 
that I foresee is that what matters is not how good the 
rhetoric is, not how good the plans are, and I acknowledge that 
the rhetoric and the plans are much better than we have seen in 
the past. All that matters is the implementation.
    Unfortunately, my conclusion has been that this 
administration has more often talked the talk than they have 
walked the walk when it has come to Iraq. I have seen other 
administration rhetoric that has been left unfulfilled.
    I will give a number of different examples of things that I 
see that are going on out there, but which, as I said, are all 
about the implementation.
    There is a new military plan, focused reconstruction 
developed by Lieutenant General Corelli in Iraq. Mr. Chairman, 
I have been briefed on this plan. It is the first plan that I 
have seen for the military in Iraq that I have looked at and 
said this could work, this could actually make a difference in 
the country. I think it is a brilliant plan. But ultimately all 
that matters is the implementation of that plan.
    I think that already we are beginning to see problems. The 
first step in that plan is the new Baghdad security plan. That 
Baghdad security plan is being--or we are trying to implement 
it with about 75,000 troops. We really need closer to 125,000 
troops. That's the right number based on historical 
circumstances, both outside of Iraq and inside it.
    Just to give an example, Tall Afar, where we are having 
some degree of success because we are sitting on that city, we 
are doing it with the right force ratio, a force ratio of 20 
security personnel per 1,000. The right number for Baghdad, 
applying that same ratio, is about 125,000, not the 75,000 we 
have now. And I know it may be possible--and Dr. Cordesman will 
be the first one to point out, he is absolutely right--that 
numbers in war are very troublesome. But the fact of the matter 
is that it is going to be very difficult to make this Baghdad 
security plan work with only 75,000 troops.
    In addition, the focused reconstruction plan is as much 
about marrying up civilian, political and economic 
reconstruction with this new emphasis on protecting Iraqi 
civilians, and both parts are absolutely critical. But so far 
what we have seen in the Baghdad security plan is that only the 
military has been able to implement its part of a plan, and we 
have seen much less on the civilian side that is an absolutely 
necessary complement to these changes on the security side.
    The amnesty, which you have already talked about, needs to 
be general. The amnesty is very important, but if we do not 
apply it to all Iraqis, it is going to be meaningless. The 
administration is making new efforts to reach out to its 
neighbors. This is also a very important effort. But at the end 
of the day, unless we are willing to make some new real 
concessions to those neighbors, bring them into the process and 
give them some sense that they are going to have a stake in how 
Iraq develops, they are not going to provide us anything more.
    Finally, in light of the United Nations, I am heartened to 
see that the Bush administration is making a new effort to try 
to engage the United Nations and is trying to gain some 
traction. We had a member of the United Nations as part of that 
group, and what we heard time and again from that member and 
from others that we spoke to was the U.N. will only be there if 
you can provide security and if you are willing to allow the 
U.N. a much greater say and control over operations.
    It is wonderful that the Bush administration has 
rediscovered the U.N. and is trying to bring them into the 
process, but until we are willing to make those concessions, to 
give them a greater say in control, and to provide the security 
that their civilians need, it's not going to make any 
difference. Thank you, sir.
    Mr. Shays. Thank you very much.
    [The prepared statement of Dr. Pollack follows:]

    [GRAPHIC] [TIFF OMITTED] T4545.044
    
    [GRAPHIC] [TIFF OMITTED] T4545.045
    
    [GRAPHIC] [TIFF OMITTED] T4545.046
    
    [GRAPHIC] [TIFF OMITTED] T4545.047
    
    [GRAPHIC] [TIFF OMITTED] T4545.048
    
    [GRAPHIC] [TIFF OMITTED] T4545.049
    
    [GRAPHIC] [TIFF OMITTED] T4545.050
    
    [GRAPHIC] [TIFF OMITTED] T4545.051
    
    [GRAPHIC] [TIFF OMITTED] T4545.052
    
    [GRAPHIC] [TIFF OMITTED] T4545.053
    
    [GRAPHIC] [TIFF OMITTED] T4545.054
    
    [GRAPHIC] [TIFF OMITTED] T4545.055
    
    [GRAPHIC] [TIFF OMITTED] T4545.056
    
    [GRAPHIC] [TIFF OMITTED] T4545.057
    
    [GRAPHIC] [TIFF OMITTED] T4545.058
    
    [GRAPHIC] [TIFF OMITTED] T4545.059
    
    [GRAPHIC] [TIFF OMITTED] T4545.060
    
    [GRAPHIC] [TIFF OMITTED] T4545.061
    
    [GRAPHIC] [TIFF OMITTED] T4545.062
    
    [GRAPHIC] [TIFF OMITTED] T4545.063
    
    Mr. Shays. Dr. Kubba.

                    STATEMENT OF LAITH KUBBA

    Dr. Kubba. Mr. Chairman, it's my pleasure to be here. I 
have had the pleasure of meeting you in Baghdad when I was a 
spokesman for Prime Minister al-Jaafari. And as an Iraqi 
American, I very much appreciate and admire and salute the good 
work that you have been doing not only from an American 
perspective, but also very much appreciated by the Iraqis.
    Mr. Shays. Well, it's our privilege to have you here.
    Dr. Kubba. What I want to do is bring some insights into 
the way ahead. Without question, the document that we have 
ahead of us struck and highlighted a very clear purpose, and I 
just want to underline that purpose. Failure in Iraq does mean 
expansion in al Qaeda. It does mean many September 11ths 
worldwide, and it's absolutely not an option to let Iraq go 
down.
    I think the possibility of Iraq going down is real, and we 
should brace ourselves for tough weeks or months ahead. And the 
only way we can confront that reality is by clarity of purpose.
    Looking at the document and its three main tracks and the 
plan to integrate these tracks, the politics, the security and 
the economy, what I found the central piece that needs to be 
highlighted, which is the key to making the plans work, those 
wishes being fulfilled, is an approach to state building.
    We are in a catch-22 situation, where if you trace the 
causes for nearly all the problems, all the failures in Iraq, 
it is the absent, weak state. And if you try to trace why 
aren't we trying to build that state and succeeding in it, then 
you look back again into security problems and to gridlock on 
the political and into deteriorating services in their country. 
And unless we break that deadlock on how to approach state 
rebuilding, I don't think that plan can materialize.
    The key to making progress is to make progress on the 
political process. We have already made advances in Iraq. There 
is a functioning Parliament elected, inclusive. There is a 
draft Constitution that has the capacity to lend itself to many 
changes in the country.
    However, having said that, what I see, a lack of vision or 
genuine consensus between the three major blocks in the Iraqi 
Parliament, the three blocks that constitute nearly 90 percent 
of the seats representing the Shi'a, Sunnis and Kurds, broadly 
speaking, they do not have a shared vision on what state they 
really want.
    I think unless this issue is addressed or at least 
approached on how to address it is agreed to, then I feel our 
efforts will just go around in circles. The good effort that 
has been put in trying to boost the economy or even to train 
the police and army is not going to pay dividends unless there 
is a genuinely agreed vision what type of state the Iraqis 
want, and there is an opinion collectively that they believe in 
it collectively on nation-state building.
    Up until this moment we do not have that position, and I 
think this issue needs to be addressed, because the 
Constitution is due to be reviewed and amended, and there have 
not been shared views or a process at least to go in that 
direction.
    A second threat I see is that the political process is most 
important; then most urgent is the spread of sectarian violence 
that has started to sweep the country. Over the last 3 years, 
al Qaeda tried and failed to stir up sectarian violence. It is 
not rooted in Iraq history. It is not rooted in Iraq history. 
In fact, the only reason why there is a favorable climate today 
to sectarianism is because of the absent state. We have handed 
millions of people to criminal networks, to militias, to local 
parties out there, and the state has been absent.
    Today, regretfully, after 3 years we see al Qaeda managed 
to stir up sectarian violence. My biggest concern is if the 
government, the Iraqi Government, does not come heavy on it 
right now, then we would have little other than ashes left in 
Iraq to deal with. Even our celebrated success, the political 
process, will go down the drain because the politicians would 
be consumed by the fire of sectarianism that is out there.
    I believe, despite what rhetoric is out there, the Iraqis 
by and large appreciate the role of the United States. Maybe in 
the streets Iraqis vent or are critical of the U.S. presence, 
but nearly all politicians in the Iraqi Parliament know the 
need for the U.S. role to stabilize a very fragile condition 
that they have already.
    In that respect, I suggest--and I believe the United States 
can play a much bigger role, not necessarily by increasing 
soldiers on the ground, but maybe by leveraging their influence 
on the political process. There are a number of ideas that one 
cannot bring out now, but certainly I feel that this is the way 
to go forward. Thank you.
    Mr. Shays. Thank you. We forgot to hit the clock. It was 
red the whole time. Your statement was very appreciated. Thank 
you.
    [The prepared statement of Dr. Kubba follows:]

    [GRAPHIC] [TIFF OMITTED] T4545.064
    
    [GRAPHIC] [TIFF OMITTED] T4545.065
    
    [GRAPHIC] [TIFF OMITTED] T4545.066
    
    [GRAPHIC] [TIFF OMITTED] T4545.067
    
    [GRAPHIC] [TIFF OMITTED] T4545.068
    
    [GRAPHIC] [TIFF OMITTED] T4545.069
    
    [GRAPHIC] [TIFF OMITTED] T4545.070
    
    Mr. Shays. The insights you bring in particular, having 
been a close adviser to a Prime Minister, the Prime Minister, 
will be very helpful in our dialog, and thank you.
    Dr. Cordesman.

                 STATEMENT OF ANTHONY CORDESMAN

    Dr. Cordesman. Thank you very much, Mr. Chairman, and thank 
you for the opportunity.
    My colleagues made a lot of points that I would make. I 
have prepared a detailed picture of the strategy that I think 
we need, which I would ask to be put in the record, and also a 
very detailed critique of some of the recent reporting on Iraq, 
because I think the GAO is absolutely correct. The kind of 
reporting that has come out of Iraq has not served the purpose 
of measuring whether we are accomplishing our mission, whether 
we are implementing the strategy, and in some cases I think it 
has been so bad as to be totally misleading. I have provided a 
detailed description of the reasons why.
    Mr. Shays. Maybe you could just give an example or two 
before we start our questions of what you mean.
    Dr. Cordesman. Well, I think one is the absolutely absurd 
estimate of the economy. It's just a symbol of how bad the 
economic reporting is in the recent quarterly report. It 
basically says that 74 percent of the gross domestic product of 
Iraq, a country with 27 million people, is the oil industry.
    Frankly, if you look at any other U.S. Government 
reporting, which isn't designed to report on the strategy, it 
directly contradicts that. There is a statement made about the 
oil industry and about oil exports, which gives the impression 
we are making real progress.
    In the last 2 weeks, the Energy Information Agency of the 
Department of Energy issued a country analysis brief on Iraq 
which directly contradicts every aspect of that, talks about a 
steadily deteriorating situation, and refers to the fact that 
so much damage is being done to Iraq's producing oil fields, 
that they will only get 15 to 25 percent recovery versus an 
industrywide average of up to 60 percent.
    You have the electric power generation measured in capacity 
without any requirement or relevance to distribution based on 
demand as it was at the time of Saddam Hussein. Again, other 
U.S. Government reporting says that you need at least 3,000 
megawatts more right now to meet demand as it currently exists 
than the State Department report sets as a requirement.
    When the U.S. Government has its experts directly 
contradicting the kind of sort of spin-oriented reporting 
provided, it's a dangerous warning that we need to do a much 
better and more realistic job.
    But if I may, sir, make a few other points. Ken made the 
point about implementation, and I think this is the right 
strategy. I wish it had been the strategy from the start. But I 
think there are deep concerns. One that Laith Kubba touched on 
is frankly the inability to deal with the Constitution in any 
clear way. If there's an implementation strategy to deal with 
those 58 extremely difficult divisive issues, it has not yet 
been described. Those have to either be dealt with in some way 
Iraqis can live with, or the Constitution can be far more of a 
problem than a solution.
    I look at the military side, and I do not see the resources 
being provided to deal with the year of the police. I do not 
see the equipment going to the Iraqi military that either 
offers them the ability to operate independently in many of the 
types of missions they need to survive, or to operate as an 
independent force in the future, and I see no plan to give them 
the capability to defend the country against foreign enemies.
    I do not see a clear plan for dealing with the problems 
within the Ministry of Interior, special security forces, and 
the corruption and problems in the ministries, where we have 
had very little advisory presence, and we simply haven't manned 
the effort. And these are critical improvements. As a result, I 
just don't believe at present the year of the police will work.
    The issue has been raised here several times about 
permanent bases. What I do not see is a clear signal to the 
Iraqis of our intentions, and I think that is more important 
than any sort of strange conspiracy theories about what we are 
going to do with the bases.
    The worst dimension may be the least critical in time. I 
think that there is a real need within the Congress to 
investigate specifically what has happened with the AID, with 
the Corps of Engineers and the contracting process. From the 
beginning I think this has been a nightmare. I cannot conceive 
that the Iraqis could be more inept or more corrupt than the 
U.S. Government and U.S. contractors have been in using Iraqi 
AID money and the money the Congress has appropriated, and we 
are running out of that money. Basically it is virtually all 
obligated. It has not provided the services that we promised, 
and we have no way under current funding to sustain the 
projects we began. That is a critical problem, and there is no 
strategy to deal with it.
    Let me say just a few other things about your questions. 
One was, have we taken the actions to diffuse sectarian and 
ethnic differences and achieve national reconciliation? I think 
we have done what we can. But I am deeply disturbed that the 
operation in Baghdad right now seems to be creating more 
problems than it is making things better.
    It isn't clear we have a phase between the political 
actions necessary to make military actions work. And it 
certainly isn't clear that we have done anything that 
interferes with the Sadr militia and the other problems in 
Baghdad, which is the one area we have operated in. We talk 
about neutralizing militias. We have a broad plan, and we have 
rhetoric, and that is it.
    Finally, on the international side, I agree with what has 
been said. It's always very nice to call in the international 
community. It often helps, and it can't do much harm. But your 
last question asked about bringing countries in generally. 
Iran, Turkey and Syria are going to remain serious problems, 
and either we act, or they do.
    Thank you.
    Mr. Shays. Thank you very much, Doctor.
    [The prepared statement of Dr. Cordesman follows:]

    [GRAPHIC] [TIFF OMITTED] T4545.071
    
    [GRAPHIC] [TIFF OMITTED] T4545.072
    
    [GRAPHIC] [TIFF OMITTED] T4545.073
    
    [GRAPHIC] [TIFF OMITTED] T4545.074
    
    [GRAPHIC] [TIFF OMITTED] T4545.075
    
    [GRAPHIC] [TIFF OMITTED] T4545.076
    
    [GRAPHIC] [TIFF OMITTED] T4545.077
    
    [GRAPHIC] [TIFF OMITTED] T4545.078
    
    [GRAPHIC] [TIFF OMITTED] T4545.079
    
    [GRAPHIC] [TIFF OMITTED] T4545.080
    
    Mr. Shays. Dr. Katzman.

                  STATEMENT OF KENNETH KATZMAN

    Dr. Katzman. Thank you, Mr. Chairman, for allowing me to 
appear. I am reading from a cleared CRS statement, which I hope 
would be allowed to be put in the record.
    Mr. Shays. It will be put in the record.
    Dr. Katzman. Thank you, sir.
    I guess I see the problems as a little more fundamental 
than I think my colleagues do. My view is that the fundamental 
political structure that we have put in place is unacceptable 
to the Sunni population, and they will not accept it under 
these circumstances.
    My view is that basically the United States and the Iraqi 
leaders set up a transition plan based on one man, one vote. To 
have that work you have to have a system where each faction, 
each sect, accepts the results of the election such that the 
winner wins and the loser hopes to win maybe the next election.
    But by setting up this transition plan, we have put in 
place a system where the Shi'a Arabs are always going to win 
the election. There is no way for the Sunnis ever to prevail in 
this type of system. In my view, it has entrenched the Sunni 
sense that they have been humiliated, that they are an 
underclass, that they have been essentially dispossessed.
    Now, the administration has tried in the strategy to 
address this. Ambassador Khalilzad has been very active trying 
to bring Sunnis into the political process, and he has 
succeeded to a point. Part of his success was in persuading the 
Sunnis and promising them that there would be a review of the 
Constitution, as Tony said.
    I am now--that was to take place, the process was to start, 
4 months after the new government is seated; and then 2 months 
after that a referendum. What I am hearing now is that is 
basically the review of the Constitution has been virtually put 
off indefinitely. It will not even be started--to negotiate 
until September, when all of the parliamentarians are back in 
Baghdad in December. So then you have 4 months and then another 
2 months, if they reach an agreement.
    I would also say the Sunnis that have bought in--that 
Khalilzad has in the process, some of them really do not 
represent, I would say, the majority of Sunni opinion. We have 
not yet brought in the Muslim Scholars Association, which is a 
very hard-line Sunni organization, demands a timetable for the 
United States to leave, and which does have credibility with 
the insurgents. It does have links to the insurgents. And it's 
important, I think, the strategy for victory figure out a way 
to bring the MSA into the process.
    What I think the problem is, the political structure as it 
is, where the Sunnis continue to feel humiliated, that is 
creating popular support for the insurgency. And I think there 
are a number of indicators that suggest that the insurgents do 
have popular support among the Sunnis.
    They are operating in urban areas. They are operating 
protected. There are whole neighborhoods of Baghdad between the 
green zone and the airport that are now very much penetrated by 
the insurgents. I am talking about the Amaria district, the 
Jihad district, Amal and south of the--the Dura district, very 
violent districts.
    We have reports that even in Baghdad there are mortar crews 
on the street corner lobbing mortars at the green zone. Nobody 
is ratting them out. Nobody is reporting on them. They are just 
there. Clearly this indicates, I think, that they have popular 
support.
    The Sunnis in many ways see the insurgents as basically 
their army. The United States has created an army which is 
largely Shi'a and maybe to a lesser extent Kurdish. The Sunnis, 
they feel they have no army, they have no protectors. So this 
is why, I believe, they are protecting the insurgents.
    Then what has happened is the insurgents began attacking 
Shi'a. For a while Ayatollah Sistani held off the Shi'a. He 
said, don't retaliate, show restraint. They did for a while. 
But like any human nature, that can only hold back so long if 
you keep hitting somebody, eventually they will not be 
restrained. They will punch back eventually.
    This is why I believe the Shi'as and the Shi'a militias, 
particularly Sadr's Moqtiar Army, began striking back, and that 
is where we are now is this internecine sectarian conflict, 
which I think is not limited to army or militia versus militia. 
I believe it is elements of a population against each other, 
which I find quite troubling.
    Anyway, to be positive, however, if I were to recommend 
anything, my recommendation is that the strategy, any strategy 
for victory, needs to really get to the roots of the political 
structure of Iraq right now. I think the only thing that would 
really satisfy the Sunnis and end their sense of humiliation 
would be a very, very major restructuring of the political 
process right now.
    There are some ideas out there, Senator Biden and Gelb-
Biden on forming three autonomous regions. There are other 
ideas. One is to basically throw out the results of the 2005 
elections and start over, put together some sort of factional 
bargain, as happened in Afghanistan.
    Mr. Shays. You have to be positive. Jeez. I mean, this is 
an election with 76 percent participation, which puts to shame 
anything in the United States. Well, anyway----
    Dr. Katzman. Correct.
    Mr. Shays. I can only interrupt him, by the way. That is 
one of the privileges of a Congressman.
    Dr. Katzman. That may be extreme. But Khalilzad actually 
has tried in certain ways. He tried--one way what he did was he 
tried to create this National Security Council outside of the 
Constitution. In other words, he is trying to find ways to 
amend the political structure because it's part of his 
strategy. Also, he came in realizing that the Sunnis felt very 
disenfranchised, and he has tried to find ways to bring the 
Sunnis in.
    I think, as I said, he has had some success, but I think 
not complete success. If he had complete success, I think we 
would see a substantial diminution of the violence. If we do 
not see a diminution of the violence, then that suggests to me 
that there is more work to do to amend the political structure. 
Thank you.
    Mr. Shays. Thank you very much.
    [The prepared statement of Dr. Katzman follows:]

    [GRAPHIC] [TIFF OMITTED] T4545.081
    
    [GRAPHIC] [TIFF OMITTED] T4545.082
    
    [GRAPHIC] [TIFF OMITTED] T4545.083
    
    [GRAPHIC] [TIFF OMITTED] T4545.084
    
    [GRAPHIC] [TIFF OMITTED] T4545.085
    
    [GRAPHIC] [TIFF OMITTED] T4545.086
    
    [GRAPHIC] [TIFF OMITTED] T4545.087
    
    [GRAPHIC] [TIFF OMITTED] T4545.088
    
    [GRAPHIC] [TIFF OMITTED] T4545.089
    
    [GRAPHIC] [TIFF OMITTED] T4545.090
    
    [GRAPHIC] [TIFF OMITTED] T4545.091
    
    [GRAPHIC] [TIFF OMITTED] T4545.092
    
    [GRAPHIC] [TIFF OMITTED] T4545.093
    
    [GRAPHIC] [TIFF OMITTED] T4545.094
    
    [GRAPHIC] [TIFF OMITTED] T4545.095
    
    Mr. Shays. At this time the Chair would recognize Mr. Van 
Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    I thank all of you gentlemen for your testimony. I think 
it's very helpful and raises lots of questions and concerns.
    I think there was a common thread. Dr. Kubba, you mentioned 
the fact that you think the greatest danger to moving forward 
in Iraq is the sectarian violence. Of course, that raises the 
multitude of other questions it really raised.
    You mentioned the fact that we need to create a situation, 
if possible, where Iraqis have a shared vision, and that shared 
vision is somehow going to have to be translated into the 
constitutional changes that Dr. Katzman talks about, and raises 
lots of questions about whether or not there is the political 
will among the different groups to do that; whether people are 
going to see themselves as Iraqis first, rather than as Kurds 
and as Sunnis and Shi'a.
    We can have a big debate here with respect to history in 
Iraq and to what extent the current sectarian violence was 
predictable and foreseeable. I believe it was. I think many 
members of our intelligence agency who had long-term 
associations with Iraq predicted this was a very likely 
outcome, or very possible outcome. But be that as it may, that 
is the situation on the ground.
    The question is how do we get to that shared vision? Before 
we get to a shared vision, we in the United States at least 
have to have a recognition of the problem.
    I would like, if you would, Dr. Cordesman, among some of 
the other facts that you talk about in your report is the fact 
that we have not really accounted for the sectarian violence in 
terms of the numbers. You point out that they don't include 
numbers from Basra and Kirkuk. You observe, and I have to agree 
with you, that the spin on the Golden Mosque episode that the 
administration gave is somehow a positive incidence, because 
Iraqis went to the brink and looked back. I think we know from 
the last weekend that is not true.
    So let's at least start with the facts. If you could just 
elaborate on your statement, on the degree and nature of the 
sectarian violence, and just how big a problem it is.
    Dr. Cordesman. Congressman, I wish I could give you precise 
numbers, but the fact is no one really can account. I can't 
give you precise numbers. Nobody can account for an awful lot 
of the violence. What is happening, if it is not going into the 
morgues in Baghdad, basically often doesn't have a record. If 
people stay in the country, they are kidnapped, they are 
blackmailed, if they have to change neighborhoods, there is no 
record.
    But all of the reporting that comes out that I see 
indicates that this is a truly major problem, and it's a 
problem in the greater Baghdad area, and it is not limited to 
Baghdad. All the reporting I see on Kirkuk indicates that you 
have a steady buildup of militias there, and that the level of 
violence is not high in direct terms, but soft ethnic cleansing 
is a constant problem.
    Basra is an illustration of the fact that sectarian 
violence can occur between Shiites and between various Shiite 
factions, some of which are religious, and some of which are 
secular, but it's obvious that the British lost control of 
Basra sometime in early 2005, and at this point there is very 
little chance that someone can reestablish it by force.
    We talked about having eliminated this, but one other great 
problem here is we don't have people out in the field to really 
measure what is happening in smaller towns and cities.
    I would note that there are province-by-province reports, 
and they do describe some of these, and there are maps of 
Baghdad, Mosul, Kirkuk and other cities that show red zones and 
yellow zones, but these are not things distributed broadly. You 
can't tie them to numbers to show exactly how violent things 
are.
    The one punchline to all of this, though, is I think 
everyone is worried that we may be drifting toward a large-
scale civil war, and that if the Iraqi political process 
doesn't hold together, that could easily happen in the next few 
months.
    Mr. Van Hollen. Well, I think that seems to be the trend, 
and the question is whether we can do anything to reverse that 
trend.
    As you point out, one of the big concerns is the sectarian 
violence is spilling beyond Baghdad to other areas. I think 
Kirkuk is a possible ticking time bomb and an issue that has to 
be addressed in the Constitution. Whether it can be or not, we 
will find out.
    But, Dr. Katzman, you raised the issue of the make-up of 
the military pointed out that many of the military units are 
largely Shi'a, other than the Kurdish units.
    We, I think, all well know reality given the history of the 
Kurdish people. There was never any question as to whether or 
not they were going to give up their own control over the 
military, the Peshmerga. I think that was going to be a 
nonstarter from the beginning.
    So as you observed from the Sunni's perspective, there are 
only armed forces to defend themselves or, in fact, the 
insurgency. If you could just give us a little more statistics, 
because I think the picture the Americans have of the American 
military are these units that are integrated where you have 
Kurds and Sunnis and Shi'as operating together under a general 
command.
    If you are going to have a central government, if you are 
going to have a democratically elected government that has any 
kind of credibility, they will have to be able to order the 
military to do things, and the military will have to see the 
central government as the primary authority, rather than the 
Shi'a leader or the Sunni leader or the Kurdish leader.
    But I think if you could talk about the make-up of the 
army, because we hear the numbers, this many new units in the 
military, this and that. But if you sort of look beneath it and 
look at the make-up, I think it tells a different story and one 
that is troubling. If you could elaborate.
    Dr. Katzman. I may have to get back to you with more 
precise statistics, but my understanding is that of the army 
units deployed in the Sunni areas, about 70 percent are Shi'a. 
When you get a little further up north into Mosul, north of 
Tikrit, north of Samarra, there's more of a Kurdish--many of 
the units have more Kurds; not necessarily more Kurds than 
Shi'a, but it's more Kurdish. The Kurds are deployed, Mosul and 
north, Kirkuk, etc.; and mainly the Shi'a units in the Sunni 
areas.
    In the Shi'a areas, it's not really that relevant, because 
the Shi'a areas are peaceful anyway. It's not that big an 
issue. The issue is Shi'a-dominated units, policing and 
securing the Sunni areas. That is very sensitive to the Sunnis, 
and it has made them feel that they are basically being 
pressed.
    Mr. Shays. I would like each of you to define success in 
Iraq and failure in Iraq, and that is what I am going to have 
you do. But I am first going to make a comment to Dr. Kubba.
    Doctor, when I have gone to Iraq, I felt like I have been 
the typical American who goes in and says to--when I am sitting 
down with Shi'a, Sunnis and Kurds, as I am asked to do in the 
government, I say, are you a Shi'a? They will say, I am a 
Shi'a, but I am married to a Sunni. Then I will ask someone, 
are you a Sunni or a Shi'a or a Kurd? And they will say, I am a 
Sunni, but my son or my daughter is married to a Shi'a. I mean, 
they are constantly kind of like correcting me. Then I will ask 
a Kurd, and he will say, well, I am a Kurd, but I am a Sunni. 
So I find myself being lectured in a way by Iraqis that they 
are Iraqis. Yet in this country we divide you into these three 
parts.
    I will say to you that when I was in Arbil for the first 
vote of January 2005, I finally--I was watching the celebration 
as the Kurdish women were bringing their husbands to vote, and 
their children in their arms, dressed up, celebrating. After 
about 2 hours of watching this, I wanted to kind of stick my 
finger in the ink jar for about a week as proof that I had 
witnessed one of the greatest experiences in my life, seeing 
people vote for the first time and, in many cases, under great 
duress.
    I asked this Iraqi woman I was there--the Kurdish woman who 
was there if I could stick my finger in that ink jar. She 
looked at me. She looked down, she looked up. Then she yelled, 
no, you are not an Iraqi, and I got a chill. I was embarrassed, 
but I got a chill. She didn't say because I wasn't a Kurd.
    Do we tend to overemphasize the difference between Shi'a, 
Sunnis and Kurds, or are there real distinct differences, and 
are we foolish not to know that?
    Dr. Kubba. Well, I am glad you asked this question. 
Regretfully, Saddam Hussein had played communities against each 
other and raised temptation among them. But Iraqis are by and 
large intermixed marriages. At the same time you will see half 
are Shi'a, half are Sunnis. Religion has not really played a 
big role, and people were comfortable to integrate within Iraq 
through universities, through the army, like the bureaucracies, 
like any other modern state.
    Regretfully, the politics, the recent politics, have led a 
group of politicians or political parties to build their power 
base by playing ethnic differences. It just gave them new 
entry. I think recently we have institutionalized these 
differences by creating a quota system within the government, 
creating ministries so that we have exactly the right balance 
of Arabs, Kurds, Shi'as, Turkmens, Assyrians. And by and large 
with the elections that we have put in Iraq, we have created an 
environment that people have started to drift to these 
affiliations, this is at the political level. But most 
importantly at the street level when the government force is 
absent, there is no system I can rely on, no system I can rely 
on, then people naturally will take refuge if their sub or 
secondary identity, not their main identity--because the state 
represents the main identity, and that is absent.
    So the state has created the environment, and it has taken 
a while today to see Iraq the way it is. I think there is a lot 
of reserve in Iraq. I think in essence other than the Kurdish 
region, the Kurds have struggled for a national identity in an 
autonomous region. But the rest of Iraq, which shares more or 
less the same language, culture, space, they really do not have 
an inherent problem, and I think what we are seeing today 
primarily is not the cause of the problems, their diversity in 
Iraq, but it is the consequence or the fact Iraq is being the 
absent state or the weak state. We have handed just streets, 
districts and people to different groups, and the state is 
absent.
    Mr. Shays. Thank you. Now, you have given your three 
colleagues an opportunity to think of what is success in Iraq 
and what is failure, so I will ask you go fourth.
    Dr. Pollack, do you want to go first, define success, 
define failure?
    Dr. Pollack. Thank you, Mr. Chairman.
    Let me first by defining failure because it's much easier. 
Failure is all-out civil war in Iraq. What we have now is low-
level civil war, not all-out civil war, and the differences 
matter. They matter a lot.
    I agree with my colleagues that the trend lines, 
unfortunately, are toward all-out civil war. I don't believe we 
have reached the point of no return, but that is where we have 
headed.
    Success, therefore, to a certain extent, is avoiding 
failure. It's avoiding all-out civil war. I would like to be 
able to say that we ought to consider the bright shining city 
on a hill that the administration conceived of as being the 
goal of the--the initial invasion of Iraq as being a 
possibility. It may still be, but it's a long-term one at this 
point in time.
    This effort that we undertook at Brookings, we basically 
defined avoiding failure. We defined success as what we called 
sustainable stability, which is a stable situation in Iraq, 
where Iraq has the military, political and economic 
institutions that are capable of sustaining that stability in 
the absence of massive American assistance.
    It is effectively going to the point that Laith just made, 
which I think is right on the money. The principal problem that 
we have in Iraq today is that it is a failed state and a 
security vacuum, and we need to create Iraqi institutions that 
are capable of dealing with that failed state and that security 
vacuum. And if we can do that, we will have achieved 
sustainability, stability, and that will be success.
    Mr. Shays. Dr. Cordesman.
    Dr. Cordesman. Let me just define victory. I think it is if 
by 2010 you have available political compromise in Iraq that 
preserves most elements of pluralism, but above all creates a 
rule of law that protects minorities in the individual. It is 
if Iraqis have assumed responsibilities for their security in 
virtually all missions. It is if the economy has begun to grow 
again, you have eliminated the worst pockets of unemployment, 
and you have found some way to agree on the sharing of oil 
revenues and resources. Finally, it is if the United States is 
reduced to an advisory role, with only a very limited 
contribution in aid and direct military support.
    Mr. Shays. Thank you.
    Dr. Katzman.
    Dr. Katzman. Thank you.
    I also wanted to say when General Garner was put in to 
conduct the reconstruction, he was talking about a process I 
spoke about before. He gathered the people in Baghdad, in 
Nasiriya. He put together a national compromise that was then 
canceled. And the new transition plan was reviewed, and my view 
was Garner's process could have succeeded had it continued.
    Mr. Shays. Let me ask you, Dr. Garner had been successful 
in----
    Dr. Katzman. Northern Iraq.
    Mr. Shays. Northern Iraq, with the Kurds.
    Dr. Katzman. What he was trying to do, what I was getting 
at before, is putting together this factional bargain, as was 
done in Afghanistan extremely successfully. A factional bargain 
was put together, the Pashtuns, the Tajiks, etc., that was 
canceled in Iraq, and we went with this other process that 
inevitably favored one group over the other. That is where I 
think it went, as it is going.
    I agree, the key to success is successful sustaining, and I 
think if we had this compromise forged, I think we would have 
success tonight. I think we would have it tomorrow morning. I 
think it would be instantaneous that the violence would 
decline, if we had this true compromise that I think is needed.
    Mr. Shays. Dr. Kubba.
    Dr. Kubba. Well, from an Iraqi perspective, I think they 
have lowered their expectations a great deal. All they want now 
is basically life to get better. But I think from our 
perspective, an American perspective, success at this moment is 
basically creating a secure environment, making sure that Iraq 
is on the path of recovery. Basically we are going to have a 
democratic government in that country. But in the short term, I 
would say I think I agree with the expression sustainable 
stability.
    Mr. Shays. Dr. Kubba, I have to respond to an emotion I am 
feeling--looking at your beautiful face--and that is how 
impressed I am with so many Iraqis that I meet. And they aren't 
asking for a lot, and they are hoping and praying that we don't 
let them down.
    But I just want to say to you, when I come back, I tell 
people I have met the Madisons, the Benjamin Franklins, I have 
met people who want the same opportunity that our Founding 
Fathers had, and they want to do something great. They want to 
succeed, and it's been a very impressive thing.
    I have met people who risk their lives every day for this 
unbelievable opportunity, from their standpoint, and I am in 
awe of your fellow countrymen in Iraq who have done so much to 
try to move this country forward. So I just pray we succeed.
    Mr. Van Hollen, you have the floor.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    Just to pursue this discussion, and the goal of trying to 
get to this vision of a united Iraq, and how you go about 
achieving it, and how you overcome the obstacles.
    Dr. Kubba, in response to one of the chairman's question, 
you pointed out how people see themselves in identity as the 
Iraqis. I do believe that many of the leaders in the current 
government do genuinely believe that.
    I guess the question is to what extent the general 
populations especially view it that way, especially under the 
increasing cycle of violence. You did sort of provide what I 
thought was one very important caveat at the end of your 
statement with respect to the Kurds.
    I think you can all agree--and if you go back to the 
elections that were held last year, as you well know, I am 
sure, there was a referendum taken in the northern area, in the 
Kurdistan region--and the question posed to the people going to 
the polls was a very simple one: Would you support an 
independent area for the Kurds, or would you rather be part of 
the united Iraq? By 95 percent the people in Kurdistan said 
they wanted an independent area. In fact, Masoud Barzani, who, 
as you well know, is one of the leaders of one of the Kurdish 
factions--not the Talabani, who is--was present, but one of the 
other factions who said, ``when the right time comes, it will 
become a reality.''
    Look, the whole issue of Kirkuk is tied up very closely 
with the question of what the Kurds perceive to be their area 
and with regard to revenues. Dr. Cordesman talked about the 
fact that there was this sort of soft ethnic cleansing going 
on. We know that Saddam Hussein made a big effort to sort of 
populate the Kirkuk region. These are the obstacles we have to 
overcome.
    You have identified the challenge, but I guess--I haven't 
heard how we are going to forge this common identity, how we 
are going to tackle the 58 divisive issues in the Constitution. 
Unless we can overcome that, you are going to continue to have 
a growing resentment, a cycle of violence.
    I have some other questions, but I guess I would put to all 
of you, what is the compromise? If you are sort of a neutral 
arbiter, what is the compromise? We heard sort of the Gelb-
Biden proposal. Well, that is a proposal. It has problems with 
it, but it's an idea out there for trying to resolve the issue. 
I think in Baghdad if it's way too messy, it could lead to more 
ethnic cleansing. I guess my question is what is the 
compromise? It works.
    Dr. Kubba. May I? I think there is room for ideas that will 
work. The politics at the moment makes it impossible, because 
the groups are entrenched so much in self-interest, 
unaccountable money going into their pockets, a zero-sum game 
where one winner means the other loses. Unless we change some 
of the dynamics, we are not going to have breakthroughs.
    Mr. Van Hollen. I am sorry, because that was a very 
pessimistic answer. I know you said it's impossible to have a 
compromise under the current political conditions. What do we 
need to do to change those current political conditions?
    Dr. Kubba. Couple of things. The Kurdish region is in good 
shape, so if we take that out of the equation and focus more on 
where Iraq is suffering, which is all the way from Kirkuk to 
Mosul, which is the Arab region basically--and the only problem 
that remains with the Kurds are Kirkuk.
    As you know, Kirkuk is more complex. There are Turkmens, 
there are Syrians, and there are Arabs in the Kirkuk province.
    There is room to look at Kirkuk, ultimately, maybe as 
Ottawa; it is a joint capital for two regions. That is one 
possible way of diffusing the issue of laying claim, exclusive, 
either/or. For the Arab region, Mosul to Basra, the violence 
that we have currently is due to the absent state, total 
mistrust, and that region can, like the Kurdish region, draw 
its own Constitution.
    There is a built-in mechanism in the current Constitution 
allowing regions to outline their own Constitutions, and that 
means the Arab region can pull itself together more or less in 
a centralized form that will please the Sunnis, because that is 
what the Sunnis want, a united Iraq. And it will please the 
Shiites because they are a majority Arab in that part, and they 
want a Presidential system to say they will always be 
guaranteed a seat in power. If that doesn't suit the Sunnis, 
then they will argue positively the Federal option.
    I am trying to point out there are ideas out there, but you 
need to create a better negotiating environment, and maybe the 
United States needs to put pressure on the different players.
    Mr. Van Hollen. Thank you.
    If I could have a response from the other members.
    Dr. Cordesman. If I may, I think first the key here is the 
Iraqis. They will reach a political compromise within the 
system they now have or they won't. It doesn't matter what 
people in the Council on Foreign Relations or the CSIS or 
anywhere else propose at this point.
    You have to make what is there work, because there simply 
is no time or option. I think that is a point that Ken made to 
start with, but how can we help that?
    One is I think to support the Ambassador in the efforts 
that he is making to reach these political compromises by 
encouraging the Iraqis. Another is to reach out to those 
countries around Iraq which will be helpful and see, perhaps, 
we can get them to use more leverage. A third is to make a 
guarantee that we are not going to cut and run or leave because 
this is difficult. As long as there is real progress and real 
hope, we will give them time, and history takes time. It is not 
measured in months or elections.
    It is to reach, after November, when it is more politic, 
the honest answer that we put a lot of money into the wrong 
kinds of aid, and if we are going to make this work, we are 
going to have to provide money for the Iraqis in the right 
kinds of aid to provide economic support to put this together. 
It means, too, accepting the fact that a U.S. advisory and 
military presence is going to be needed over time, not over a 
few years. It won't be a matter of out at the end of 2007.
    I think those are really the key issues. Will they 
guarantee success? Of course not. But what we really need, 
among other things, is a bipartisan support for helping the 
Iraqis as long as there's a reasonable chance of progress.
    Mr. Van Hollen. I thank you.
    Any other comments on that?
    Mr. Shays. We are drawing to a close here. My question is 
not intended in any way, in any even little way, to be critical 
of the critics of the war, because I think there is reason to 
be critical of the conduct of the war, and obviously we went in 
and have not found weapons of mass destruction.
    But I would like to, because you raised it, Dr. Cordesman, 
by your point about finding agreement in this community as well 
over in Iraq for a policy--at least that is what I felt you are 
saying. Republican and Democrats need to speak ultimately with 
one voice about where we can agree. Maybe there has to be a 
compromise on this policy that the administration has to get us 
to speak with one voice.
    Dr. Kubba, I would like to know how people react when 
they--you are able to sift through the criticism as an American 
and sort out when you see disagreements in the United States. 
But how do Iraqis tend to view what they see on CNN and what 
they hear in this country? Is there a way you could define 
that?
    Dr. Kubba. It varies because I think with Iraq there 
different parts--different Iraqs, say, in a different way, but 
by and large those who follow and can grasp the essence of what 
has been communicated here, I think people are assured to hear 
of commitment of the United States to see Iraq as a success.
    I think they are alarmed to hear the idea of--and, of 
course, they are alarmed to hear the ideas of, say, letting 
Iraq be divided if we cannot fix it, but by and large, I think 
Iraqis currently, especially those who know the country, pin 
their hopes that the United States would fulfill its role, and 
I think very much what is expected is a prolonged advisory and 
maybe planning role, but certainly not in terms of soldiers 
carrying out duties in Iraqi streets. I think that is something 
that we have passed.
    Mr. Shays. Would you care to pass judgment on the fact that 
we basically did not allow--we told the military that if they 
laid down their arms, we would work with them. We told 
divisions that were along the Iraqi--along the Iranian border 
just keep facing Iran and don't engage in this fight, and they 
didn't engage in the fight. Then we proceeded to not allow the 
army to exist.
    I am left with the feeling that some felt that we didn't 
live up to our commitment in terms of, say, lay down your arms 
and we will work with you. Is that a false impression I have or 
a mixed impression?
    Dr. Kubba. I think I would describe it in a much different 
way. There were much higher expectations of a more well-
planned, maybe thoughtful approach, and how to address Iraq's 
needs. I think by and large your description is accurate. The 
Iraqi Army did not fight, and more or less, to the American 
military credit, Iraq was more or less intact when Hussein 
fell.
    I think maybe problems started then when there was a vacuum 
and decisions needed to be made, and maybe, as I said, that 
period will be looked at by scientists and historians in a more 
critical way.
    Mr. Shays. There's lots more I would love to ask you, I 
could ask you, later in informal conversations as well as 
others.
    Is there any point that we need to put on the record before 
we adjourn? As you listen to your colleagues here, is there any 
point that you may take exception to or just want to emphasize 
differently? I am talking to all of you here, that you heard 
said; this is not your view, or it is your view, and you feel 
it even more strongly? Anything that we should have put on the 
record finally before you leave?
    Why don't I start with you, Dr. Katzman, and we will end 
with you, Dr. Pollack.
    Dr. Katzman. Nothing I would add. I think my view, to just 
encapsulate it, is we need to find a way to bring these 
factions into balance. If we do that, everything else follows. 
There will be no need for U.S. troops. There will be no need to 
buildup the Iraqi security. Once these factions are in balance, 
and they all buy into this political--the polity, the political 
structure, we find that political structure, everything else, I 
think we have instant success.
    Mr. Shays. I was just going to go down the line. You are 
shaking your head, Dr. Cordesman, but I would like to know if 
you agree, each of you. So I am waiting, I am leaving the 
question I just asked, to have you comment on what you just 
heard. Maybe, Dr. Pollack, do you agree with this comment that 
was just made?
    Dr. Pollack. I don't agree actually. I do disagree with my 
colleague Dr. Katzman on this.
    Mr. Shays. I want to agree with him.
    Dr. Pollack. I know. I think what he is talking about is an 
important element of progress in Iraq. I do not believe for a 
second that if we were to reach this kind of a compromise, the 
violence would go away overnight. I think that the roots of the 
violence have become far more complicated. I think that we have 
intracommunal fighting as well as intercommunal fighting. I 
think that we greatly exaggerate the degree of enmity and unity 
there is both within the Shi'a and Sunni communities.
    We talk about the Shi'a as if that is somehow meaningful. I 
don't know who the Shi'a are. Reminds me of Henry Kissinger's 
famous line: What is Europe's phone number.
    I think they hate each other far more than they hate anyone 
on the Sunni side. Basra is nothing but a cesspool of intra-
Shi'a violence. I think that the problems we have there go much 
deeper; and I think to a great extent the point that both Tony 
Cordesman and Laith Kubba made is very important, which is to a 
certain extent there is only so much we can do to effect a 
reconciliation among these different groups, both among the 
communities and within them.
    But I think that the most important thing that we can do is 
to try to start changing the context; and that is where our 
efforts to bring greater security to parts of Iraq, to revive 
local political processes, to begin to deliver for Iraqi 
personnel and to revive the local economy is absolutely 
critical.
    One of the biggest problems we have in Iraq right now is 
that Iraqis are beholden to their representatives in Baghdad 
for everything. In a democracy, as you both well know, it needs 
to be the other way around for it to work.
    Mr. Shays. Any comments. Dr. Katzman.
    Dr. Katzman. No. I mean, I tend to agree that all violence 
wouldn't end, but I think violence that threatens U.S. 
interests would end. And I do believe that if we do forge this 
compromise that I'm talking about, the Iraqis will ask al Qaeda 
in Iraq to leave. Once the Sunnis are in control of their own 
areas, they don't need the Zarkawi faction, they don't need the 
foreign fighters any more, and I believe they will politely or 
perhaps impolitely ask them to leave.
    Mr. Shays. Dr. Cordesman, anything that we need to put on 
the record?
    Dr. Cordesman. I think, Mr. Chairman, that there is no--you 
asked a question on the previous panel, which parameter is the 
critical parameter; what's No. 1? And I think they all tried to 
tell you in various ways that you have to deal with all of 
these at once. You can't solve this with a political compromise 
alone.
    You face very real military problems, police problems, 
court problems. You can't solve it through the central 
government. You have to help in the governance in the 
provinces. You can't solve it by hoping there will be clearer 
ethnic divisions because they don't exist in Iraq, and all of 
the voting showed that.
    You can't dodge around the need for the economic dimension 
and future economic aid. Right now, in a country where you have 
a labor force of 7 million, the latest report on our aid is we 
are hiring 92,000 and we have 40 percent unemployment in high-
sensitive areas. A political compromise in Baghdad doesn't 
solve that.
    Mr. Shays. Let me just inject very quickly, the way I 
basically went into Iraq outside the umbrella of the military 
was through the nongovernment organizations; and these 
nongovernment organizations had very few Americans or 
Europeans. They hired mostly Iraqis to be part of their 
organization, and then they hired entirely Iraqis and--I am 
told. And then when the violence became even stronger, the 
Westerners basically left and Iraqis ran the whole show in 
these nongovernment organizations. I'm basically told that most 
of what they built was never destroyed, was allowed to stand--
schools, roads, bridges and so on done with Iraqis. So we had a 
model, but it was not treated with much respect, frankly, by 
the government. They got a small--much smaller part of that 
budget.
    I did interrupt you. Any last closing comment?
    Dr. Cordesman. One last comment. The point was raised in 
the first panel of measures of effectiveness. I came to 
Government when the United States lied to itself systematically 
about Vietnam, when its measures of effectiveness and measures 
of progress were false. And we paid an immense price for that, 
but the Vietnamese paid an immensely higher one.
    I think what you are trying to do in getting the kinds of 
measures of effectiveness and progress for this strategy that 
could build some kind of bipartisan consensus, it would allow 
the American people to reestablish confidence. End the spin and 
tell the truth would I guess be my final comment.
    Mr. Shays. Thank you.
    Any last comments.
    Dr. Kubba. While the economy is very much subject to 
politics, it is doable, feasible and small successes, 
incremental, would help us build the success we want in Iraq. 
But the key and most important is reviving the state, a nation 
state that transcends ethnic identities; and to do that we need 
to push the political process further. To do that, we need to 
dislodge the positions of the three major blocks under 
parliament.
    The most urgent issue that needs to be addressed now is the 
issue of sectarian violence. It has the capacity, the potential 
to spread and consume all of what we've achieved; and this is 
what worries me most.
    Mr. Shays. Thank you.
    Let me just say you all are such experts, and to have sat 
around for the amount of time you did is a compliment to your 
concern about this issue. Obviously, the committee is gratified 
that you showed up whenever we began this part of the hearing. 
Thank you for not leaving, thank you for participating, and I 
consider it a very helpful testimony to the committee. It was a 
privilege to have all four of you here. Thank you.
    Any last comment?
    Mr. Van Hollen. No. I'd just like to thank all of the 
members of the panel, too, and say, as you suggested, Mr. 
Chairman, it would be nice if we could arrive at some 
bipartisan national consensus on how to proceed in Iraq. One of 
the beauties of our democracy is that people are free to speak 
with many voices, but to the extent we can forge some kind of 
consensus, obviously, it would be good.
    I'm one who was very much opposed to the decision to go to 
war in Iraq, but I also believe that it would be a mistake for 
us to leave Iraq and pull out totally today for many of the 
reasons that Dr. Cordesman and others have stated.
    On the other hand, there is a serious amount of distrust 
with the way that the administration has handled Iraq from the 
very beginning; and overcoming that distrust, given the fact 
that nobody in this administration seems to be held accountable 
for the many, many mistakes that have been made, I think in 
itself sends a terrible signal.
    So we can hope that people can come to some greater 
consensus with respect to Iraq. I'm not sure I see it 
happening. In the meantime, I do believe there are things that 
we can do as a Nation to try and as best as possible salvage 
the situation; and that's what this hearing was about, trying 
to raise the fundamental questions about what we can do in this 
country. As you, Dr. Cordesman, pointed out, there are limited 
things we can do here from Washington. But if there are things 
we can do, we want to know about them; and we thank all of you 
for your testimony.
    Thank you, Mr. Chairman.
    Mr. Shays. Thank you gentlemen very, very much.
    This hearing is adjourned.
    [Whereupon, at 8:01 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T4545.096

[GRAPHIC] [TIFF OMITTED] T4545.097

[GRAPHIC] [TIFF OMITTED] T4545.098

[GRAPHIC] [TIFF OMITTED] T4545.099

[GRAPHIC] [TIFF OMITTED] T4545.100

[GRAPHIC] [TIFF OMITTED] T4545.101

[GRAPHIC] [TIFF OMITTED] T4545.102

[GRAPHIC] [TIFF OMITTED] T4545.103

[GRAPHIC] [TIFF OMITTED] T4545.104

[GRAPHIC] [TIFF OMITTED] T4545.105

[GRAPHIC] [TIFF OMITTED] T4545.106

[GRAPHIC] [TIFF OMITTED] T4545.107

                                 <all>

</pre></body></html>
